<html>
<title> - KLAMATH BASIN</title>
<body><pre>[Senate Hearing 113-451]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-451
 
                             KLAMATH BASIN

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   TO

   HEAR TESTIMONY ON S. 2379, THE ``KLAMATH BASIN WATER RECOVERY AND
                   ECONOMIC RESTORATION ACT OF 2014''

                               __________

                              JUNE 3, 2014

                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE

91-114 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------

                    Subcommittee on Water and Power

                     BRIAN SCHATZ, Hawaii, Chairman

TIM JOHNSON, South Dakota            MIKE LEE, Utah, Ranking
MARIA CANTWELL, Washington           JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JAMES E. RISCH, Idaho
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina

   Mary L. Landrieu and Lisa Murkowski are Ex Officio Members of the
                              Subcommittee


                            C O N T E N T S

                              ----------

                               STATEMENTS

                                                                   Page

Bezdek, John C., Senior Advisor to the Deputy Secretary,
  Department of the Interior.....................................     5
Gentry, Donald C., Chairman of the Klamath Tribe.................    13
Hyde, Becky, the Upper Klamath Water Users Association...........    19
 Merkley, Hon. Jeff, U.S. Senator From Oregon....................     4
Nicholson, Roger, Resource Conservancy and Fort Klamath Critical
  Habitat Landowners, Fort Klamath, OR...........................    21
Schatz, Hon. Brian, U.S. Senator From Hawaii.....................     1
Whitman, Richard M., Natural Resources Policy Director for Oregon
  Governor John Kitzhaber........................................    23
Wyden, Hon. Ron, U.S. Senator From Oregon........................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    51


                             KLAMATH BASIN

                              ----------


                         TUESDAY, JUNE 3, 2014

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in
room SD-366, Dirksen Senate Office Building, Hon. Brian Schatz
presiding.

   OPENING STATEMENT OF HON. BRIAN SCHATZ, U.S. SENATOR FROM
                             HAWAII

    Senator Schatz. Good afternoon.
    Today we're here to discuss S. 2379, the Klamath Basin
Water Recovery and Economic Restoration Act of 2014. This
legislation is critically important to the Klamath Basin in
Oregon and California for a number of reasons. It will provide
certainty of water for irrigation and for fish and wildlife
while providing economic development opportunities for the
Klamath Tribes.
    In addition the legislation authorizes two monumental
agreements, the Klamath Basin Restoration Agreement, also known
as KBRA and the Klamath Hydroelectric Settlement Agreement,
referred to as KHSA.
    Both the KBRA and KHSA were finalized in 2010 by all of the
relevant stakeholders. Because they require Congressional
approval, not every provision of this agreement has been
implemented yet. These agreements are important for dam
removal, protecting fish production and establishing reliable
water and power supplies for all users.
    Last year, about this same time, Senator Wyden, who was
then the Chair of the Energy and Natural Resources Committee
convened a round table hearing to bring together a coalition of
stakeholders with two overall goals.
    The first, to get a final agreement that the entire Klamath
Basin could support.
    The second, to reduce the overall costs of the agreement.
    From what I've been told the coalition was successful in
reaching both goals. Today's hearing will highlight the hard
work accomplished over the past year.
    I want to commend the stakeholders and Senator Wyden and
Senator Merkley for their work on this issue.
    Unfortunately, I have a scheduling conflict and cannot stay
to chair the hearing, but I've spoken with Senator Wyden and he
has agreed to chair the hearing today. I look forward to
following up with him and any others on the committee on the
next steps and anything that I can do to be supportive in my
role as subcommittee Chair.
    At this time, I'll turn over the gavel to Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR
                          FROM OREGON

    Senator Wyden [presiding]. Thank you very much, Chairman
Schatz. You have been a champion during your time in the Senate
for innovative approaches to address complicated water issues.
I've been glad to join you as a co-sponsor in many of those
proposals.
    I understand that you do, as you indicated, have some
scheduling conflicts. I very much appreciate your giving me the
opportunity to accept the gavel to finish this hearing. I thank
you for it.
    Today's hearing, in my view, is a victory for the Oregon
way. The coming together of Oregonians from a variety of
diverse backgrounds, to solve challenges that virtually
everybody thinks cannot be solved. Many of those who have
trekked from Oregon have come thousands of miles away from the
Basin, worked tirelessly to craft a comprehensive agreement.
Now we can move forward in the days ahead to pass legislation
built around their fine work. In fact, there is still fresh ink
from signing this landmark agreement in a ceremony that
recently brought Interior Secretary Sally Jewel to the banks of
the Klamath.
    A word about the round table that we held just about a year
ago.
    I think both here in Washington, DC, and in the Basin, it
was generally felt that this would be fine to have a hearing,
might even be useful. Good to have a chance to have the various
parties on the record. But suffice it to say, I'm pretty sure
most of our guests booked a return flight home for that
afternoon because they thought they might come and say their
piece and that would be that.
    During the course of the round table Senator Merkley and I,
in effect, called an audible. We saw an awful lot of good will
and an awful lot of cooperation between the various parties. So
between the two of us, working closely with the Governor,
Richard Whitman, who is here, who has done a terrific job on
this and others. We asked essentially all our guests to be in
the office 3 or 4 in the afternoon.
    Everybody had to, kind of, change travel plans and the
like. They were a little puzzled about what it was we were
going to ask them to do. Senator Merkley and I made the
judgment that there was a real chance now to break the ice and
to get this done.
    So what we said is we'd like the group, by the end of the
year, to come together with a strategy that would make it
possible for members from Oregon and California to be united in
legislation, to consummate that agreement and that we would,
over time, be able to win the support of Congress, that
certainly from a fiscal standpoint, was in pretty tight
straits. So as our guests gathered around that round table,
they were a little curious about what we were going to propose.
    The first thing we said is we need you to cut the cost of
the agreement by between a quarter and a third. Pretty much
everybody gasped and wondered if that might be possible.
    Then we said we had to deal with the issues of the Upper
Basin, which had been particularly challenging, trying to find
a comprehensive agreement on that.
    Then we said that we had to find a way to voluntarily
reduce water usage, which again, was another very challenging
issue.
    Suffice it to say, we sit here, about a year later and
essentially all of those goals have been met.
    The pledge to lower the cost by more--between a quarter and
a third has been exceeded. We have driven the cost down below
that. I think that is particularly powerful as a message here
in Washington, DC, with respect to how determined stakeholders
are to get a solution to this issue.
    Now the blueprint that the stakeholders have, in effect,
agreed to now is codified in S. 2379, the Klamath Basin Water
Recovery and Economic Restoration Act. I've introduced this
with Senator Merkley and Senator Feinstein and Senator Boxer.
The bill authorizes the agreements that have been reached by
the various parties and sets forth a lasting solution for water
management in the Basin. Predictable water supplies for farmers
and ranchers give long term certainty to our vital agricultural
sector while protected water for fish and wildlife and
comprehensive restoration efforts ensure the recovery of our
special fish runs and water for our refuges.
    The legislation, in my view, provides a sustainable and
more economically certain future for the Klamath Basin.
    While this bill is a function of years and years of hard
work, let's not forget the formidable realities that continue
to strain the Basin. The Klamath is enduring its third straight
year of pounding drought which this year is already causing
restrictions for some off project irrigators.
    So, obviously finding a solution to this is a time
sensitive matter. It's really more than time sensitive. It is
urgent.
    So we look forward to hearing the testimony of our guests
today. They have done their part to craft a more prosperous
future for the Basin, to lay out, what I think, is really a
model for resolving water challenges that people think are, as
I described it, impossible to bring people together in. Now it
is time for the U.S. Senate to carry this agreement home.
    In a moment I'll introduce my partner in this whole effort,
Senator Merkley, who is here to testify. But let me recognize
Senator Heller in Nevada. They too, know a little bit about
drought and the challenging water issues of the West. Senator
Heller has always worked cooperatively in this committee both
when I was chair and when I wasn't. So Senator Heller, we
welcome your comments.
    Senator Heller. Thank you, Mr. Chairman. I certainly
appreciate your comments and appreciate your work on this
committee.
    I will postpone any opening comments to who we have in
front of us today. So I will pass on an opening statement at
this point.
    Senator Wyden. Very good.
    Let's have Senator Merkley come up. I think it's understood
that Senator Merkley plays a vital role in natural resources
issues as an influential member of the Appropriations
Committee. But he has been totally immersed in this issue since
he came to the U.S. Senate.
    As I indicated in my opening remarks, Senator Merkley, the
fact that you were willing to stick your neck out that day we
had that round table.
    We called an audible.
    We said let's bring everybody to the office and see if we
can make some headway.
    Your participation in this effort, we simply would not be
here without your good work. So we welcome your remarks.
    I believe our Chair, Senator Landrieu, has indicated to me
that it would be fine if you choose, and I know your schedule
is tight, that you can accompany Senator Heller and I on the
Dais. But we look forward to your remarks. Thank you for all
that you have done to make this day possible.

         STATEMENT OF HON. JEFF MERKLEY, U.S. SENATOR
                          FROM OREGON

    Senator Merkley. Thank you very much, Chair Wyden and
Ranking Member Heller. It's a real pleasure to come here and
testify today. I'm going to keep my remarks brief because it is
the people who will testify on the next two panels that have
the real stories to tell, they're going to give you the reality
of the situation on the ground and will give you the ultimate
reasons that this bill should pass.
    I applaud all of them for coming today. I will be able to
stay for a while and listen to their testimony. It's an amazing
group of individuals with diverse, as diverse, stakeholders
coming together in this effort.
    I want to highlight one aspect of this bill for you.
    In many ways the solutions that local residents are
implementing in the Klamath Basin point to a new model for
managing our natural resources, collaboratively based on local
needs, rather than from a place of conflict based on litigation
and talk down management decisions. Across this country and
this is certainly true in my State, natural resource management
is a source of constant conflict. Without any collaboration or
shared vision opposing sides sue each other, resort to the
courts or enforcement of Federal laws to achieve their goals.
    The people of the Klamath Basin lived in that reality for
many decades. Lawsuits, protests and threats tore the community
apart. In 2001 when the Endangered Species Act forced a water
shutoff, this Basin saw some of the worst impacts of this
approach to natural resource management as people lost their
farms and subsequent water management caused a disastrous fish
die off and the loss of fishing jobs.
    The people of the Klamath Basin have found a better way
forward now. They've engaged in years of patient, diligent,
persistent collaboration and negotiation and have developed a
comprehensive plan to manage the limited water supply and
restore the ecosystem of the Basin. Every stakeholder is making
a sacrifice, a significant sacrifice, in some cases in the form
of water that is critical to the family farming operations.
    But each stakeholder is also gaining something in exchange.
In some cases for the certainty and sanity in how water and
other natural resources in the Basin are managed. If we could
have more of our natural resource conflicts resolved through
this kind of collaborative approach, our Nation's resources
would be in much better shape.
    The stakeholders of Klamath Basin, often fighting each
other for decades, have come together and developed an amazing
plan. It is now our challenge as a legislature to help put that
plan into action.
    Thank you very much, Mr. Chairman.
    Senator Wyden. Thank you very much, Senator Merkley.
    Please, we'd welcome, given all the work you've done, to
have you up here on the Dais with us.
    So let's bring forward our panel of witnesses.
    Mr. John Bezdek, Senior Advisor to the Deputy Secretary,
Department of the Interior.
    The Honorable Don Gentry, Chairman of the Klamath Tribe.
    Ms. Becky Hyde.
    Mr. Richard Whitman.
    Mr. Roger Nicholson.
    I think Ms. Hyde has family here. I think Mr. Bezdek has
family here. It's always been an Energy and Natural Resources
tradition to have you all introduce your family. So let's see
the cast of characters here.
    Ms. Hyde.
    Ms. Hyde. Thank you. This is Jack Hyde. He's my son.
    Senator Wyden. Very good. I think I saw your sister off to
the prom recently when we had our last Town Hall meeting there.
We're glad you're here, Jack.
    Mr. Bezdek.
    Mr. Bezdek. Yes, Sir, Mr. Chairman.
    This is my wife, Dori. These are my 3 children, Elliott,
Clarissa and Meredith.
    Senator Wyden. Very good.
    Your dad is going to knock it out of the park.
    [Laughter.]
    Senator Wyden. It's good to see you.
    Thank you all.
    OK, let's start with Mr. Bezdek and then we'll go to Mr.
Gentry, Ms. Hyde, Mr. Whitman, Mr. Nicholson.
    You don't have to worry too much. We don't have to play too
many musical chairs.
    I'm just going to call on you anyway.
    Alright, we're going to make your prepared statements a
part of the record in their entirety. I know there's always a
compulsion to read prepared statements. I think we've got a lot
of votes at 4 o'clock. So whatever we can accomplish between
now and 4 would be particularly good.
    Mr. Bezdek, we welcome you. You made a lot of treks to
paradise, to the Klamath Basin. We really appreciate it. We
wouldn't be here without your good work.
    So, go ahead.

   STATEMENT OF JOHN C. BEZDEK, SENIOR ADVISOR TO THE DEPUTY
             SECRETARY, DEPARTMENT OF THE INTERIOR

    Mr. Bezdek. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman and Ranking Member Heller. I am
pleased to inform you that the Administration supports
enactment of S. 2379 as introduced. We do so with the
understanding that additional sources of non Federal funding
must be identified in order to ensure full and timely
implementation of the Klamath agreements.
    The need for this legislation is clear. Irrigation shut
offs, annual reduced deliveries for the Reclamation project,
salmon die offs, closed ocean fishing, closure of tribal
fishing, bird mortality on our refuges and this past year, no
surface water deliveries to over 400 Upper Basin farms and
families. These are all too familiar events.
    This year we were once again faced with the very same
shortages and the impacts to resources and the communities of
the Basin that come from these very shortages. Quite simply the
current band aid approach to addressing these issues is
ineffective and unsustainable.
    The cost of inaction is also significant. The 2006 closure
of the commercial fishing industry required over $60 million in
extraordinary appropriations from the Congress. Similarly, to
farmers and ranchers required over $10 million in 2010 and $40
million in 2001.
    S. 2379, if enacted, would authorize the implementation of
all 3 Klamath agreements and provide the means and the tools to
address the needs of the Klamath Basin and do away with the
need for the Federal Government to take such extraordinary
steps.
    Almost a year ago, Senator Wyden, you called us together
and you did tell us to focus on two things.
    One, resolving the upper water rights issues between the
tribes and Upper Basin water users.
    Two, reducing the cost of the agreements.
    I sit here before you today with this extraordinary group
of individuals sharing this table, but also in solidarity with
all the parties of the Klamath agreements, who looked inward
toward themselves and with each other to find a solution and
who understand when it comes to the Klamath Basin and water
resources, part of something is better than all of nothing.
    First of all we have a settlement on the tribal rights in
the Upper Basin.
    Second, we have found ways to reduce costs.
    Just as critically, S. 2379 maintains and authorizes the
KBRA and KHSA, thereby providing us the very unique opportunity
to restore this Basin from its headwaters all the way to the
ocean.
    Mr. Chairman, despite these hardships, I am oftentimes
asked whether there should be a Federal role. I believe there
are compelling Federal interests at stake.
    First and foremost, saving jobs by preserving farming and
ranching on thousands of acres, maintaining a $600 million a
year economy, creating hundreds of new jobs in commercial and
sport fishing, creating numerous temporary jobs in the
construction industry, improving the economy's health and way
of life for thousands of tribal members in this Basin from
improved fisheries, water quality and jobs that would be
created.
    In addition our Klamath Basin National Wildlife Refuges,
such treasured refuges, so critical for the Pacific flyway, yet
starved for water, will get adequate water supplies in 9 out of
10 years.
    By restoring the Klamath Basin the need to look to the
Central Valley to get water supplies to protect fall migration
of salmon will be significantly lessened. But perhaps just as
important as these economic facts and figures is that the
societal fabric of an entire Basin and a way of life for
farmers, fisherman and tribes will be restored.
    We acknowledge that these agreements are not perfect. But
as my good friend, Greg Addington, said before this committee
last year, these agreements are about as perfect as an
agreement as possible while still bringing together over 40
diverse interests toward a common goal.
    On behalf of all of these interests, we stand ready to get
behind S. 2379.
    Thank you.
    [The prepared statement of Mr. Bezdek follows:]
  Prepared Statement of John C. Bezdek, Senior Advisor to the Deputy
                 Secretary, Department of the Interior
    Chairman Landrieu, Ranking Member Murkowski, and members of the
Committee, I am John Bezdek, Senior Advisor to Department of the
Interior Deputy Secretary Michael Connor. I began working on Klamath
Basin issues in 1997 and since 2007 have had the privilege of working
directly for the Department of the Interior (Department), alongside our
interagency federal team, with the varied and diverse interests of the
Klamath Basin regarding the Klamath Agreements (Agreements): the
Klamath Hydroelectric Settlement Agreement (KHSA); the Klamath Basin
Restoration Agreement (KBRA); and the Upper Klamath Basin Comprehensive
Agreement (UKBCA). I am pleased to provide the views of the
Administration regarding S. 2379, the Klamath Basin Water Recovery and
Economic Restoration Act of 2014, which would authorize the Klamath
Agreements. These agreements were envisioned to provide a comprehensive
solution for water, fishery, and power issues in the Klamath Basin.
    The Klamath Basin has a long history of conflict driven by scarce
water resources that have been over-allocated among competing uses.
While the conflict began generations ago, in the recent past we have
seen the following: water deliveries to Reclamation's Klamath Project
were shut off in 2001, which caused grave hardship for hundreds of
farmers; over 30,000 adult salmon perished in the lower Klamath River
(2002); closure of the commercial ocean fishery along the Oregon and
California coasts due to poor Klamath Basin stocks in 2006; no surface
water irrigation deliveries made to the upper basin ranching
communities (2013); reductions in water supplies to the Klamath
Reclamation Project (2010, 2013, and 2014); the continued voluntary
tribal fishing ban, since 1986, for c'waam (Lost River Suckers) and
Shortnose Suckers in Upper Klamath Lake; Endangered Species Act
listings on declining populations of suckers in Upper Klamath Lake and
Coho salmon in the Klamath River; limited water deliveries to wildlife
refuges for a number of years, continuing today, for the water needed
to support one of the most important stop over points on the Pacific
Flyway; and a significant increase in the cost of power which makes it
more expensive for irrigators to conserve and re-use water. All of
these events continue to cast uncertainty and doubt upon the
communities of the basin, including the continuation of the way of life
of the tribes and the ranching communities and the $600 million a year
in agricultural products and jobs that contribute to the local
economy.\1\ Moreover, analysis shows all of these problems in the basin
will likely worsen and may occur more frequently in the coming years
due to impacts of climate change unless a long term solution is
implemented.
---------------------------------------------------------------------------
    \1\ Revised Cost Estimates for the Klamath Basin Restoration
Agreement. June 17, 2011.http://216.119.96.156/Klamath/2011/06/
RevisedCostEstimates.pdf
---------------------------------------------------------------------------
    Fortunately, the tools, in the form of the Klamath Agreements, are
available and ready to be implemented to address these issues.
Collectively, these three Agreements approach the restoration of
resources, economies, and communities of the basin in a holistic manner
instead of continuing the band-aid approach that oftentimes falls short
of providing even short-term relief--much less addressing the
underlying causes.
    These agreements have broad and diverse support. There are
currently 45 Parties to the KHSA and 43 Parties to the KBRA,
representing Federal agencies, California and Oregon, three Indian
tribes, two counties, irrigators, and conservation and fishing
groups\2\. There are sixteen parties to the Upper Basin Agreement,
including the State of Oregon, the Klamath Tribes, and a broad
coalition of Upper Klamath Basin irrigators.
---------------------------------------------------------------------------
    \2\ The Department of the Interior and National Oceanic and
Atmospheric Administration signed the KHSA; the federal agency parties
are not signatories to the KBRA. The KBRA includes provisions that
these agencies will become parties when Federal authorizing legislation
is enacted. PacifiCorp signed the KHSA; it is not a Party to the KBRA.
---------------------------------------------------------------------------
    The stakeholders of the Klamath Basin have made the courageous
decision to set aside differences and generations of acrimony to find a
better path forward. Implementing these agreements and accomplishing
the parties' collective goals will take substantial resources. Yet the
cost of inaction could easily be even higher, not just in the form of
additional dollars to be expended in the future, but also in the form
of additional stressors upon communities in the basin. Thus, we support
S. 2379 and the Agreements that it will implement, including the
provisions on costs provided that all parties understand that full
implementation of the Klamath Agreements will need additional,
meaningful, non-federal cost-share that will reduce the overall costs
to the United States. Over the course of implementing S. 2379, the
Administration will work closely with all the parties to secure
additional non-federal sources of funding.
    Despite the non-partisan development of this settlement framework
over several federal and state administrations, the Administration
acknowledges there are a handful of parties that have not signed the
Klamath Agreements. We will continue our efforts to find common ground
with these parties; however, it is important that the Committee
understand that finding common ground has been difficult because some
of the opponents have taken positions that would pose unacceptable
risks to the farmers, and others oppose efforts to restore the
fisheries that are important to the tribes and fishing communities. But
we also believe the time is ripe for action and that we have a unique
opportunity to heal and restore the basin in a lasting manner. We must
not lose this opportunity.
                                 ukbca
    In 2010 when the KBRA and KHSA were signed, many felt the job was
done. The reality is that the parties' work was unfinished due to our
inability to reach settlement with those many ranchers located on the
tributaries to Upper Klamath Lake. With the execution of the UKBCA this
past April, we now are able to address restoration of the resources and
communities from the headwaters of the Klamath Basin all the way
downstream by resolving claims surrounding the tribal water rights held
in trust by the United States on behalf of the Klamath Tribes. We are
able to do so by providing a framework for a balanced approach to
management of water resources in the upper basin that comports
seamlessly with the KBRA. In the UKBCA we have been able to
simultaneously recognize the seniority of the Tribal water rights,
allocate sufficient water to restore and maintain the fisheries, and
establish a framework for maintaining the majority of irrigation in the
upper basin. All of this is accomplished through the establishment of
certain specified instream flows in tributary streams above Upper
Klamath Lake, the retirement of 30,000 acre-feet of water previously
consumptively used for irrigation, and, through riparian agreements
with private landowners, to restore habitat necessary to support the
fishery, while also providing for a stable, sustainable basis for the
continuation of irrigated agriculture in the upper basin. Just as
importantly, these actions will be managed by local stakeholders
through the establishment of a Landowner Entity and a Joint Management
Entity.
    S. 2379 also establishes tribal economic development funds to
compensate the Klamath Tribes for additional commitments made in the
UKBCA that were not made in the KBRA or KHSA, to implement a water
management program in the upper basin. Since the beginning, the Klamath
people have relied on the natural resources they needed to thrive in
their traditional subsistence way; these resources, many of which
require water to thrive, include the fish, animals, birds, and plants
which have provided essential subsistence and economic resources to the
Tribes, and which are deeply embedded in the Tribes' religious and
cultural practice. All who are familiar with the Klamath Tribes
understand the deep and long-term impact the past termination of its
federally recognized status and the impacts on treaty resources have
had upon the economic, religious, and cultural viability of the Klamath
Tribes. The economic development funds authorized under S. 2379 will
provide support to help the Tribes in their commitment to build a
viable tribal economy, restore their homeland, and increase the
opportunities for the exercise of tribal treaty and cultural rights.
The funds will accomplish this through the purchase of timber and other
lands to be brought back into Trust and the restoration of their
subsistence fishery that is central to who they are as a people. This
will also provide significant movement towards self-determination that
has been so elusive since the restoration of federal recognition.
                                  khsa
    The KHSA is a unique combination of environmental and economic
interests striking an agreement that combines both business sense and
protection of natural resources. It is an agreement to study the
potential removal of four privately owned (PacifiCorp) hydroelectric
facilities on the Klamath River and to determine, based on a host of
scientific and engineering studies, whether removal of these facilities
will advance restoration of fisheries and will be in the public
interest. The KHSA calls for removal to occur in 2020, should the
Secretary of the Interior determine that removal is in the public
interest. Congressional authorization is necessary for the Secretary to
make this determination. If there is a decision to remove these
facilities, the costs will be borne by a combination of PacifiCorp's
electricity customers in Oregon and California through a minimal
surcharge and a water bond from the state of California. Consequently,
there would be no federal costs associated with facilities removal
under the KHSA.
    The KHSA also includes certain liability protections for PacifiCorp
if these facilities are removed. The current cost estimate is below the
cost cap included in the KHSA, though it remains uncertain at this
point which non-federal entities would bear any costs in excess of
those protections, should such a situation arise. The KHSA also
provides a commitment for PacifiCorp to transmit and deliver federally
generated power to the Klamath Project, which could provide savings to
water users on power costs, making for efficient project operations,
and opportunities to conserve water. On this point, discussions are
ongoing between PacifiCorp, the Department, Bonneville Power
Administration, Western Area Power Administration, and the Klamath
water users on ways to provide power at reduced costs to both the on
and off-project communities. Analysis shows that purchasing Federal
power could save larger irrigation loads three-quarters to one cent per
kilowatt hours, or about 7 to 10 percent. The irrigators who could
benefit comprise about half the irrigation loads in the basin; however,
passage of S. 2379 would be needed to serve irrigators that are north
of the Klamath Project. While these discussions may lead to near-term
reductions in power costs, we also note that the KBRA includes programs
that require S. 2379's authorization and budget to provide more
substantial long-term power relief. Studies are currently underway
analyzing the best possible paths forward in achieving the long-term
power goal once S. 2379 is enacted.
                                  kbra
    The KBRA is a restoration agreement that includes water allocation
and fish habitat restoration actions, predicated on, and working in
conjunction with dam removal. The KBRA includes agreements among tribal
and non-tribal entities resolving water rights disputes and provides
the means for Reclamation's Klamath Project to conserve water supplies
and develop sources of power that will place the Project on par with
other similarly sized irrigation projects in the West. The KBRA
provides a reliable supply of water to the two national wildlife
refuges that currently receive adequate water supplies in less than one
out of 10 years. If funded, the KBRA will put tribal members to work on
habitat restoration actions needed in the basin. Through the
establishment of a Federal Advisory Committee Act charter, the KBRA
will give parties in the Klamath Basin a major voice in the decision
making process regarding the basin's resources.
    To illustrate how the Klamath Agreements would change the impacts
of the current water year, if fully authorized, involuntary shortages
among Klamath Project irrigators could be avoided, the Lower Klamath
National Wildlife Refuge would have a guaranteed supply of water
(compared to no water being available this year), and upper basin
irrigators might not be subject to having their diversions curtailed
due to water rights administration. In addition, fishery resources
would have a dedicated supply of water, in conjunction with an
identified process for restoring degraded habitat. Without the KBRA,
the Klamath Reclamation Project and the Klamath Tribes are likely to
exercise the water rights recognized in the Klamath Basin Adjudication
with increasing frequency, thereby creating uncertainty for and
jeopardizing the livelihood of irrigators in the Upper Klamath Basin.
    While most of the items in the KBRA, especially those involving
tribal and fisheries programs, are presently authorized under existing
law, items associated with making Reclamation's Klamath Project more
efficient and flexible, such as in allocating funds received from the
leasing of refuge lands to the wildlife refuges and irrigators and
clarifying the Klamath Project's purposes, require this additional
Congressional authorization. Legislation would also be needed to
provide the power for water management benefits to irrigators and to
supply Federal electricity to off-project irrigators.
                       khsa/kbra science process
    Between the signing of the Klamath agreements in early 2010 and
today, many federal studies have been undertaken and completed that
analyze the potential effects of Klamath River dam removal and
implementation of KBRA on local communities, tribes, and the
environment. A Final Environmental Impact Statement analyzed the
proposed action to remove the four lower PacifiCorp dams on the Klamath
River in 2020 and to implement the KBRA, as well as three alternatives
where some or all of the dams would remain in place.
    The process undertaken to develop new information for a Secretarial
Determination was rigorous, open, and transparent; it provided multiple
opportunities for stakeholder and public participation, included
independent subject-matter experts to provide a breadth of
perspectives, and relied on multiple levels of independent peer review
to ensure objectivity and accuracy of findings.
    Over 80 meetings and workshops were held throughout the basin over
a period of two years that allowed for public and stakeholder
participation in the science process for the KHSA and the KBRA. The
public and stakeholders provided input on hypotheses to be tested,
study designs, available sources of information, data analysis, and
conclusions to be drawn from the analyses. The public involvement
improved the quality of reports.
    A summary of the findings from the science process is attached as
an Appendix. All of these studies and materials are available to the
public and can be found at http://klamathrestoration.gov/.
         parties who have concerns about the klamath agreements
    We acknowledge that there are a small number of parties who
participated in the negotiations but have chosen not to sign the
Klamath Agreements. We respect that each party has its own unique
concerns and must make its own decisions as to what it believes is in
its best interest. Some of those who oppose the Klamath Agreements want
to maintain the status quo or have general concerns about dam removal;
others believe their resources are being inappropriately harmed or
their rights are being terminated, or that they are bearing an unfair
share of the adverse consequences of the Klamath Agreements.
    I wish to be clear that given the ongoing challenges and increasing
demands for limited water resources, we should continue to evaluate
opportunities to develop additional water storage and power generation
opportunities where they make sense. But we should also not be afraid
to evaluate reduction of water use or potential dam removal when the
specific circumstances warrant. The KHSA, for example, reflects the
unique circumstances of the Klamath Basin, where the owner of these
private dams, in making a business decision that is in the best
interests of its electricity customers and the company, has agreed to
permit the Secretary of the Interior to evaluate whether their removal
would advance fisheries and be in the overall public interest as part
of a basin-wide restoration effort that addresses many of the systemic
problems that continually plague the Klamath Basin.
    There are others who favor dam removal but do not support the
Klamath Agreements because they either want to remove or significantly
limit irrigated agriculture from the basin or believe that the
assurances in the Agreements regarding water supply and the connected
issue of river flows terminate tribal rights. As to the former,
irrigated agriculture is part of the societal fabric of the basin and,
as mentioned earlier, provides significant jobs and economic support to
all communities of the basin. While the KBRA does provide further
funding for voluntary retirement of up to 30,000 acre-feet of
irrigation water on a willing seller or buyer basis, total removal of
the loss of most of the irrigated agriculture in the basin is simply
not consistent with a comprehensive and durable restoration program
meant to assist the communities of the basin and their respective
economies and ways of life. As to the latter, the tribal parties, state
and federal fishery agencies, and environmental and fishing groups
concluded that the water and fisheries program would significantly
improve basin fisheries. The agreements do not terminate any tribal
rights.
    We have also heard the concerns of those around the reservoirs
whose properties and businesses may be most directly impacted by dam
removal. On this point, we believe that if S. 2379 is enacted, there
should be a fund established, managed by representatives in local
communities, to recompense land owners for significant diminishment in
property value that occurs as a result of dam removal. The cost of such
a fund, we believe, should be deemed a cost of mitigation associated
with dam removal, and thus borne by non-federal sources. Upon enactment
of S. 2379 we will meet with representatives from California and
Oregon, as well as the local governments most affected by dam removal
to assess the potential for establishment of such a fund.
                               conclusion
    The Administration supports enactment of S. 2379, which is vital to
the communities of the Klamath Basin provided that all parties
understand that full implementation of the Klamath Agreements will need
additional, meaningful, non-federal cost-share. Over the course of
implementing S. 2379, the Administration will work closely with all the
parties to secure additional non-federal sources of funding to offset
the new federal costs and ensure timely implementation of the Klamath
Agreements. This concludes my written statement. I am pleased to answer
questions at the appropriate time.
                                APPENDIX
    summary of key findings regarding klamath river dam removal and
                         implementation of kbra
    This document is intended to serve as a summary and, as such,
numbers cited herein represent averages and/or aggregates which may
include associated levels of uncertainty that are explained fully in
the contributing studies. All of the scientific studies, which include
the complete scientific analysis and associated uncertainties, are
available at klamathrestoration.gov. Any language below that appears to
be a statement of fact is the Department's best understanding and
approximation of future events, based on extensive scientific study,
but still subject to significant levels of uncertainty.
Dam removal, sediment processes, and impacts on flooding:
  <bullet> The most probable cost for full dam removal, which is the
        preferred alternative identified in the FEIS, is about $292
        million in 2020 dollars and is under the State cost cap of $450
        million. There is a 99 percent probability that removal costs
        would be no more than $493M and a 1 percent probability that
        removal costs could be less than $238M.
  <bullet> Dam removal would mobilize between one-third and two-thirds
        of the 13 million cubic yards of sediment behind the dams. The
        majority of the sediment is fine-grained material that would be
        readily transported to the Pacific Ocean 2 to 3 months
        following the drawdown of reservoirs in the winter of 2020.
  <bullet> Extensive chemical testing of sediments behind the dams
        shows that human health would not be at risk due to contact
        with these sediments.
  <bullet> Dam removal would immediately restore more natural water
        temperatures and dissolved oxygen concentrations important to
        downstream fish and fisheries.
  <bullet> Dam removal would immediately eliminate toxic algae produced
        in the reservoirs; toxic algae create health concerns in the
        reservoirs and downstream in the Klamath River for people,
        fish, and wildlife.
  <bullet> Long-term flood risks would increase slightly for about 18
        miles downstream of the location of Iron Gate Dam. Analyses
        show that some additional structures currently outside the 100-
        year flood plain would be located in a new 100-year floodplain
        following dam removal. If dam removal were to proceed, the Dam
        Removal Entity would work with willing landowners to reduce or
        eliminate flood risk for these additional structures.

Impacts of dam removal and KBRA on fish and fisheries:
  <bullet> The timing of reservoir drawdown in a single winter season
        was designed to minimize negative impacts of released sediments
        on sensitive fish species, particularly federally listed Coho
        salmon.
  <bullet> Basin-wide adult and juvenile salmon mortality is expected
        to be less than 10 percent in the year following dam removal,
        even under worst-case flow conditions.
  <bullet> In the long run, opening up fish passage to the Upper
        Klamath Basin through dam removal and restoring aquatic habitat
        under the KBRA would increase salmon and steelhead production.
        For example, annual Chinook salmon production would increase
        about 80 percent (ranging from 40 to 190 percent among modeled
        years).
  <bullet> The increased production would increase Chinook salmon
        harvest about 50 percent for commercial and sport ocean
        fisheries, as well as for in-river tribal fisheries.
  <bullet> Coho salmon would be expected to access 68 miles of stream
        habitat upstream of Iron Gate Dam, including 23 miles currently
        inundated by the reservoirs, thereby advancing the recovery of
        this federally listed species.
  <bullet> Steelhead trout would be able to migrate to historical
        habitat above Iron Gate Dam, including up to 420 additional
        miles of stream, and thereby advancing the most prized game
        fishery in the Basin.
  <bullet> Dam removal would also expand the distribution and number of
        trophy redband rainbow trout, another prized game fishery,
        throughout the hydroelectric reach of the river.
  <bullet> Dam removal would totally eliminate a large non-native game
        fishery on the reservoirs, which includes bass and yellow
        perch.

Climate change impacts on water temperatures, fish, and flows:
  <bullet> Over a period of 50 years (2012 to 2061), climate change
        models show that water temperatures in the Klamath Basin would
        increase 1 to 3 degrees C (2 to 5 degrees F) and earlier snow
        melt would decrease summer flows.
  <bullet> Removing the Klamath River dams would restore salmon access
        to critical cool-water habitat for spawning and rearing in the
        Upper basin, thereby helping to buffer against effects of
        climate change.
  <bullet> Removing the dams would immediately improve late summer and
        fall water temperatures for salmon below this reach, thereby
        buffering against future impacts of climate change.
  <bullet> Decreased summer flows will worsen already strained water
        supplies needed to support farms, refuges, and fisheries.

Impacts on jobs and regional economies:
  <bullet> Dam removal and full KBRA implementation would create a
        number of full time, part time, and temporary jobs:

    --Hundreds of commercial fishing jobs in five management areas from
            northern California to central Oregon;
    --1,400 jobs during the year of dam removal;
          300 annual average jobs over 15 years for KBRA programs;
    --70 to 695 farm jobs in drought years depending on drought
            intensity. Dam removal would also result in the loss of
            about 70 jobs associated with the operation and maintenance
            of the dams and changes in the recreational industry
            (reductions in whitewater rafting and reservoir fishing/
            boating).

Tribal and Cultural Impacts:
  <bullet> All of the native people residing in the Klamath River
        environment have spiritual beliefs and traditional practices
        that are inseparable from the River and surrounding homeland
        environments. Dam removal and implementation of the KBRA would
        help address tribal trust and social issues identified by the
        Klamath River Basin Tribes as detrimental to their traditional
        way of life. Dam removal would have beneficial effects on water
        quality, fisheries, terrestrial resources, and traditional
        cultural practices. Dam removal would enhance the ability of
        Indian tribes in the Klamath River Basin to conduct traditional
        ceremonies and other traditional practices.
  <bullet> Dam removal and reservoir drawdown could affect Native
        American cultural resources sites reported to be currently
        submerged beneath the reservoirs. Human remains may be
        associated with these sites. Plans to identify cultural
        resources and to avoid, minimize, or mitigate impacts to those
        resources would be developed in consultations with the
        appropriate State Historic Preservation Office, Tribes, and
        other Native American organizations.
  <bullet> The removal of the dams and associated facilities, all part
        of the Klamath Hydroelectric Project, would result in effects
        to those historic properties. Plans to avoid, minimize, or
        mitigate effects to historic era properties would be developed
        in consultation with the appropriate State Historic
        Preservation Office and other historic preservation entities.
Hydropower, Green House Gas emissions, and electricity customers:
  <bullet> Dam removal would eliminate about 82 megawatts of hydropower
        in 2020 (enough power for 70,000 homes), which would be made up
        by a mix of other energy sources.
  <bullet> Following dam removal in 2020, approximately 526,000 metric
        tons of carbon dioxide equivalents (MTCO2e) per year would be
        emitted to the atmosphere from replacement power assuming
        PacifiCorp's current resource generation mix. This number would
        decrease to approximately 451,000 MTCO2e per year assuming
        PacifiCorp met California's goal for replacement power sources.
  <bullet> A 2010 analysis by PacifiCorp prepared for the Oregon and
        California PUCs demonstrates that dam removal as laid out in
        KHSA would be less costly for their customers (about $251
        million), and less risky, as compared to likely customer costs
        associated with relicensing the four dams, which would be in
        excess of $460 million over a 40-year license term.
Wildlife refuges:
  <bullet> Dam removal and KBRA implementation would allow the refuges
        associated with Reclamation's Klamath Project to have greater
        certainty about water deliveries with newly established
        allocations, even during drought years, and increased
        flexibility in the timing of water deliveries.
  <bullet> Full refuge needs would likely be met in 88 percent of
        years; currently refuge needs for water are met in less than 10
        percent of the years. These NWRs wetlands are critical
        components of the Pacific Flyway, the corridor for migrating
        birds from as far away as Alaska and Mexico.
  <bullet> The additional water deliveries--and the increased
        predictability of those deliveries--would mean that greater
        numbers of migratory waterfowl, non-game water birds, wintering
        bald eagles, and other sensitive species would be supported by
        the refuges and would increase recreational wildlife viewing.
  <bullet> The estimated increase of over 190,000 waterfowl in the fall
        would result in an additional 3,600 hunting trips annually.
Real Estate:
  <bullet> Upstream of Iron Gate Dam studies identified 668 parcels
        near Copco 1 and Iron Gate reservoirs which either have water
        frontage, water access, or views of reservoirs. Of these 668
        parcels, 127 include single family homes. These 668 land
        parcels would decline in value if dams were removed and
        reservoirs drained.
  <bullet> Land values of parcels downstream of Iron Gate Dam, with
        river views and river access, may increase in the long-term
        because of restoration of the river, including improved water
        quality and more robust salmon and steelhead runs.
Flows:
  <bullet> The differences in monthly average flows between dams
        remaining in place and dam removal options are relatively
        small; however, without the dams, pulse flows and other
        seasonal fluctuations beneficial to fish would occur more
        often.
  <bullet> The absolute minimum flow target under the KBRA would be
        approximately 800 cubic feet per second (cfs) at the location
        of Iron Gate Dam. In most months and years, however, flows
        would be much greater. In extreme drought years, flows could
        drop slightly below this target, but never drop below 700 cfs
        owing to the water-management provisions in the KBRA.

    Senator Wyden. Thank you very much, Mr. Bezdek.
    Let's go now to Mr. Gentry.
    Mr. Gentry, I've said it to you before privately, but I
want to say publicly how much I've admired your courage, your
persistence and your good will in tackling, you know, this
issue. Certainly after the court decisions you didn't have to
take that path. So we are very appreciative of your effort to
be part of, as I described it, the Oregon way, bringing people
together who everybody thought couldn't possibly agree. To a
great extent we're here today because of you.
    So we very much appreciate your good work.

  STATEMENT OF DONALD C. GENTRY, CHAIRMAN OF THE KLAMATH TRIBE

    Mr. Gentry. Thank you, Senator. I appreciate that.
    Senator Wyden, Ranking Member Heller, as was stated, my
name is Don Gentry, Chairman of the Klamath Tribes. I want to
thank the subcommittee for this opportunity to provide my
testimony at this hearing today.
    I also want to thank Senators Wyden, Merkley, excuse me,
Boxer and Feinstein for introducing the S. 2379.
    It's my honor to represent the Klamath, Modoc and Yahooskin
Paiute people at this pivotal time in our history. I want to
convey to you why our people have worked so hard over the past
decades to forge these agreements and why it's critical for
Congress to pass S. 2379 to implement them.
    I'm also here to be the voice of our fish, the fish that we
depend on for our subsistence and for our cultural and
traditional way of life. Maintaining our traditional way of
life, our spiritual and cultural practices is essential for
providing for the physical and social health of our people.
    My Klamath name is dici gyank which translates, having done
good things. This name was given to me by a beloved elder woman
at our annual Return of C'waam ceremony. During this ancient
ceremony we pray and thank our creator for the fish and pray
for their return. We thank him for everything that he's given
for us and pray to the people to the North and to the South and
to the East and the West.
    This elder was a little girl when the salmon used to come
up to our homeland in the Klamath Basin prior to the first dam
being put on the river. My relationship with her grew over the
years as I took our C'waam, our Lost River Sucker, to her.
Through her I learned traditional ways and tribal values that
have guided me throughout my life. She has since passed on. I
believe it is through her prayers and the prayers of our
ancestors that we are here today at this critical point for the
future of our people and the people of the Klamath Basin.
    Through the Treaty of 1864 and our ancestors reserved to us
our inherent time immemorial rights, one of which was the right
to sufficient water to provide for our resources essential for
our treaty hunting, fishing, gathering and trapping. Without
the c'waam and ci'aals, the salmon, which have been denied
migration for nearly 100 years to our homeland we simply cannot
be the people the Creator intended us to be.
    Through loss of our resources our people have shouldered a
heavy burden associated with the Basin's development. Failed
Federal, State policies have promised, over promised water, to
a diverse set of stakeholders. This has fueled decades of
conflict. These polices of extirpated treaty resources and
brought the remnant of our treaty protected fisheries to the
brink of collapse.
    Our tribal fisheries sustained us for millennia. But a mere
century of development threatens their continued existence. Now
after centuries of harvesting tens of thousands of fish, we are
restricted to only harvesting two fish annually for ceremonial
purposes. But S. 2379 corrects these devastating policies and
addresses these complex problems, laying the foundation for a
brighter, sustainable future for our people and the people of
the Klamath Basin.
    For decades our leaders have fought to restore our
fisheries and other resources for our current members and the
generations to come. It was through exercise of our sovereignty
and the strength of our time immemorial treaty rights that key
revisions were built into the agreements to address the root
problems.
    The Klamath agreements are focused on ecosystem
restoration, reintroduction of salmon and steelhead, balanced
distribution of limited water resources for fisheries and
agriculture and on sustaining the economy of our region.
Moreover, the agreements enable the Klamath tribes to play a
central role in improving riparian habitat and quality to
restore and support sustainable fisheries.
    The agreements also provide a foundation for tribal
economic development while resolving litigation among the
parties.
    For the first time there will be a coordinated,
comprehensive strategy to address the Basin's foundational
problems. The Klamath tribes will be paying close attention as
this legislation moves forward. Parties to the Klamath
agreements have worked hard to develop a locally based,
consensus solution that resolves the fundamental problems
associated with the Basin's limited supply of water. All the
parties had to reach compromise to achieve this important
milestone.
    As introduced S. 2379 respects the hard fought negotiations
and the agreements that the parties have reached and it honors
our treaty rights and the resources we depend on. The Creator
taught us that as long at the c'waam survive our people will
survive. Therefore we support the legislation because it
ensures survival of our resources and our people.
    Senator Wyden, I thank you and the committee and your staff
for the efforts to restore the Klamath Basin and for holding
this hearing. I welcome any questions you have.
    [The prepared statement of Mr. Gentry follows:]
 Prepared Statement of Donald C. Gentry, Chairman of the Klamath Tribes
    Chairman Schatz, Senator Wyden, and members of the Committee, my
name is Don Gentry and I am the Chairman of the Klamath Tribes. I want
to thank the Subcommittee for convening this hearing and for the
invitation to present testimony. Also, I want to thank Senators Wyden,
Merkley, Boxer, and Feinstein, for introducing Senate Bill 2379, the
Klamath Basin Water Recovery and Economic Restoration Act of 2014. As
Chairman of the Klamath Tribes, it is my honor to convey to the
Subcommittee the views of the Klamath Tribes in support of this
critical piece of legislation.
    I represent the people of the Klamath Tribes, which is comprised of
three historically distinct tribes: the Klamath, Modoc, and the
Yahooskin Band of Snake Indians. In 1864, our respective leaders
entered into a Treaty with the United States. Through the Treaty our
ancestors reserved to us, with the complete agreement of the United
States, water rights that we have held since time immemorial. While we
ceded other lands and rights to the United States for the benefit of
its citizens, through the Treaty we reserved our water rights for
hunting, fishing, gathering, and trapping. Treaty resources are
essential to the Klamath. In addition to providing for our subsistence,
treaty resources are central to our ability to maintain and exercise
our cultural and spiritual practices, which are critical to the
physical and social health of our families and community. Without our
treaty resources, like the endangered c'waam (also known as the Lost
River sucker), or ci'aals (salmon), which have been denied migration to
our homeland by the Klamath River dams for nearly 100 years, we simply
do not have the ability to live as Klamath People in the way our
Creator intended. We have an inherent responsibility to restore and
steward these resources, for our current 4,444 members and future
generations.
    Decades of failed federal and state policies have over-promised
water resources across a diverse set of groups in the Klamath Basin and
fueled decades of conflict. These failed water policies have already
extirpated treaty resources and brought the remnant of our treaty-
protected fisheries to the brink of collapse. But with the enactment of
S.2379, the Basin is poised to correct these devastating policies,
address the complex problems affecting our treaty resources, and lay
the foundation for a brighter, sustainable, future for our tribal
community and the broader Klamath Basin community.
    To understand why we are here at this point today, it is always
important to reflect on our history. The Klamath Tribes once occupied a
vast territory of 22 million acres of what is now southern Oregon and
northern California. In the Treaty of 1864, we ceded much of this land
to the United States, but reserved to ourselves 2.2 million acres of
land, encompassing the entire Upper Klamath River Basin above Upper
Klamath Lake. However, in the decades that followed, fraudulent surveys
and devastating federal policies chipped away at our lands until,
finally, the Termination Act of 1954 terminated our federally
recognized Tribal status. Termination also brought the loss of our
ancestral lands reserved through the Treaty, which now make up a
significant portion of the Winema and Fremont National Forests. This
abrupt loss of our forestbased Tribal economy was not only devastating
to our people, it devastated the local Klamath Basin economy as well.
At the time of termination, the Klamath Tribes was among the most
prosperous Tribal Nations in the United States. Ironically and
brutally, termination of the Klamath Tribes, which was allegedly based
on our social and economic success, deprived us of the land base that
was at the heart of that success. Predictably, termination precipitated
severe economic and social devastation from which we are still
struggling to recover.
    The United States acknowledged the failure of the termination
policy in the 1970s and our Tribal leaders led us through the maze of
legal, political and social challenges necessary to restore our
federally recognized status in 1986. Unfortunately, the restoration of
that government-togovernment relationship did not include the return of
our ancestral lands even though the federal government's timber
receipts on those lands had already exceeded their purchase price. Nor
did federal recognition re-start our forest-based economy or heal
social ills wrought by termination. To date the Tribes have reacquired
only about 1,000 acres in scattered parcels.
    As courts have repeatedly recognized, although our land was taken
from us, we have continuously retained our rights to hunt, fish, gather
and trap on our former reservation lands. However, over the past 150
years, governments other than the Klamath Tribes have implemented
policies that over-allocated the Basin's limited water resources and
ignored the Tribes' time immemorial water rights. These development
policies primarily focused on out-of-stream water uses. Vast tracts of
wetlands and even lakes were diked, drained, and transformed to
farmland. Floodplains of our major river systems were developed for
agricultural uses and hydropower dams were constructed on the Klamath
River. Upper Klamath Lake was put to work as the primary reservoir
serving the needs of agriculture and hydropower. These developments
enabled robust non-tribal economies to develop and thrive utilizing the
water resources of the Upper Basin.
    The Klamath Tribes have borne many severe costs associated with
developing the Basin, but have received few of the benefits. Our salmon
and steelhead runs were completely wiped out when the first Klamath
Hydroelectric Project dam was built in 1917. Additionally, the
resulting changes in the hydrology of Upper Klamath Lake and its
tributaries damaged other Treatyprotected fisheries. Loss of wetlands
and riparian ecosystems, along with other land use changes have
impaired water quality so severely that the two lake-dwelling sucker
species--some of the toughest fish, and once among the most abundant
fish in the Basin--have been pushed to the brink of extinction.
Additional treaty resources such as plants, wildlife and waterfowl are
imperiled as well.
    Meanwhile, PacifiCorp shareholders and rate-payers have
continuously benefited from the electricity produced by the dams that
destroyed these fisheries. We have not fished for the endangered c'waam
and koptu (Lost River and shortnose suckers) since 1986, while
irrigated crops and livestock have been raised and sold each year from
agricultural operations that depend on water from our rivers and lakes,
and contribute to excessive nutrient loading that compromises ecosystem
health. These fisheries sustained our people for millennia, but a mere
century of development threatens their continued existence, and now,
after centuries of harvesting tens of thousands of fish, we are
restricted to two fish each year for ceremonial purposes.
    In recent years, it has been difficult for our non-tribal neighbors
as well. Failed policies and the poor management of the Basin have
fueled decades of crisis, catastrophes and conflict. Overallocation of
water resources has resulted in acrimonious competition and constant
tension surrounding resources and water management decisions. Among the
demands for limited resources are the water levels in Upper Klamath
Lake necessary to support the c'waam and koptu sucker fisheries,
irrigation deliveries to the Klamath Reclamation Project farmers, flows
in the Klamath River below Iron Gate Dam for coho, deliveries to the
Tule Lake and Lower Klamath Wildlife Refuges, and off-Project
agricultural and ranching. There is simply not enough water to fulfill
all of these demands at the necessary levels.
    The disastrous effects have been real and concrete. There have been
devastating fish kills in the Klamath River and near collapse of these
fisheries. Low water levels in Upper Klamath Lake and low flows in
Klamath River also resulted in an almost complete cessation of water
deliveries to the Klamath Irrigation Project, eventually leading to $40
million in disaster relief funding for irrigators.
    In 2006, the perilous condition of Klamath Chinook salmon stocks
precipitated severe restrictions on ocean salmon harvest along the
Pacific coast. This was catastrophic for coastal communities and even
more disaster relief funds had to be dispersed because there was no
management plan in place for the Basin.
    Hundreds of millions of dollars has been spent in federal and state
disaster relief resulting from closed fisheries and losses to farmers
and ranchers. Clearly, the status quo is costly to the federal
government, states, local economies, tribes and families. We now have a
historic opportunity to put these conflicts and catastrophes behind us.
After years of contentious litigation, many of us in the Basin realized
that a collaborative approach was necessary and began negotiations.
These negotiations led to the delicate balance of needs and compromises
within the Klamath Basin Restoration Agreement (KBRA) and the Klamath
Hydroelectric Settlement Agreement (KHSA). The Klamath Tribes General
Council, which is composed of the eligible enrolled members and is the
governing body of the Tribes, by referendum vote, approved the KBRA and
KHSA in 2010, and the amendments to these agreements in 2012.
    The Agreements strongly emphasize ecosystem restoration,
reintroduction of salmon and steelhead, equitable distribution of
limited water resources and economic development. For the first time,
energy and resources will flow to solve the foundational problems.
Key elements of these agreements for the Klamath Tribes include:

  <bullet> Removal of the lower four dams on the Klamath River,
        including the Iron Gate, Copco 1, Copco 2 and J.C. Boyle dams.
  <bullet> Funding to the Klamath Tribes for (1) aquatics and uplands
        management, (2) the implementation of specific ecosystem
        restoration and monitoring projects, and (3) economic
        development studies.
  <bullet> Decreasing and capping use of water within the Klamath
        Reclamation Project, while also providing predictability for
        Project farmers.
  <bullet> Tribal land restoration of 90,000 acres known as the Mazama
        Forest.

    This last point is essential. Like the other settlement parties we
seek economic stability, but it will be decades before the Klamath
Tribes will see the full benefit to our fisheries stemming from dam
removal and the restoration and reintroduction activities. Therefore,
one of our key bargained-for benefits in the KBRA is re-acquisition of
former reservation lands, the 90,000-acre Mazama Forest. Tribal
ownership of this tract will put both Tribal members and non-Indian
people to work in forest products, one of the area's traditional
economies. Our development plans revolve around green energy production
closely linked to improved forest health and reduced danger of
catastrophic wildfire. Reacquisition by the Klamath Tribes of the
Mazama Forest not only begins to restore the Tribes' land-base and
homeland, it begins to create acceptable parity among KBRA
participants, establishing a balance that enables the Klamath Tribes to
agree to other core elements of the KBRA.
    While the KBRA and KHSA represented a giant step forward toward
healing the Basin, more work remained. Senator Wyden joined with
Senator Merkley, Congressman Greg Walden, and Governor John Kitzhaber,
calling for the creation of a Klamath Basin Task Force comprised of the
various stakeholders. Recognizing the shortcomings of litigation, the
Klamath Tribes pursued settlement opportunities that could address more
than water quantity and began negotiations with the Upper Basin
irrigators, the State of Oregon, and the United States to resolve Upper
Basin water issues as contemplated in the KBRA. Consequently, we set
aside our differences and found the common ground to reach the Upper
Klamath Basin Comprehensive Settlement Agreement (UBA). The Klamath
Tribes General Council approved, by referendum vote, the UBA, which I
signed on April 18, 2014. This was an extremely difficult decision for
the General Council in part because of the immense time pressures
associated with the accelerated negotiation schedule and the
legislative process we now face. With that understanding, I am
confident, however, that when Congress enacts S.2379 into law and as we
begin to implement these historic agreements the Klamath Basin will
continue the healing process and these agreements will provide a
foundation upon which the Klamath Tribes can achieve our goals.
    In short, the UBA enables the Klamath Tribes to design programs to
improve riparian habitat and water quality, support existing fish
populations, enable restoration and reintroduction of salmon and
steelhead, and provide a foundation for Tribal economic development,
while resolving litigation among agreement parties.
Specifically, the UBA meets the following Tribal goals:

  <bullet> Goal 1. Broaden support for the enactment of the KBRA and
        KHSA.
  <bullet> Goal 2. Permanent improvement of in-stream flows protected
        by the Tribes' timeimmemorial in-stream water rights.
  <bullet> Goal 3. Resolution of Klamath Basin Adjudication claims and
        contests.
  <bullet> Goal 4. Restored, functional aquatic ecosystems.
  <bullet> Goal 5. Restored abundance of treaty resources, and
        opportunities for harvest.
  <bullet> Goal 6. Support for the Tribal economy through reacquisition
        of former reservation lands and forest health restoration.

    Like the other parties, the Klamath Tribes had to compromise to
reach this important milestone. For instance, in exchange for the
benefits flowing to the Tribes under these agreements, we agreed to
forgo breach of trust claims against the United States if all the terms
of the Agreements are satisfied. Although we hold the most senior water
rights in the Basin, we agreed to share in the shortages with our
neighbors. We saw these as necessary steps to fulfill our duty to the
future generations of Klamath People, so that they may have economic
opportunities and know the fish as well as our other treaty resources
that form the basis of our Klamath culture and way of life.
    The Klamath Tribes will be paying close attention as this
legislation as it moves forward. We expect that Congress will respect
the hard-fought negotiations and the agreements the parties have
reached, but our history shows that we can never take that for granted.
We will be monitoring the legislative process to ensure that the
Klamath Tribes' bargained-for benefits remain intact. As directed by
the Klamath Tribes General Council, one condition critical to the UBA
becoming final is that the Klamath Tribes must review the final
legislation and notify the Secretary of Interior that the legislation
is ``materially consistent'' with the UBA. If the legislation is not
materially consistent with the UBA, the agreement may be terminated, a
situation that would be bad for all parties.
    Should Congress fail to enact legislation implementing the three
Klamath Agreements, such inaction will only guarantee continuing
conflict, economic calamity, and more of the types of disasters that
have already cost the federal government more than $100 million in
short-term relief. Parties to the Klamath Agreements have worked hard
to develop a locally-based, consensus solution that resolves the
fundamental problems associated with the Basin's limited supply of
water. It is imperative that Congress act quickly, as the delicate
balance of bargainedfor benefits negotiated in the compendium of
Klamath Agreements needs to begin before they either expire or wane
under their own weight.
    This concludes my opening statement. At this time I request that my
testimony be entered into the record. It is my understanding that the
hearing record will remain open for an additional two weeks so that the
Klamath Tribes may submit additional written comments in support of
this legislation and respond to any question raised in today's hearing.
    Chairman Schatz and Senator Wyden, I thank you, the Committee, and
your staff for the efforts to restore the Klamath Basin and for holding
this hearing. I welcome any questions you may have.

    Senator Wyden. Mr. Gentry, the thank yous are really owed
to you with dignity and passion and always doing your homework.
You have been such a forceful advocate for the tribes. Every
time we've had these discussions your voice at the table has
helped to bring people together.
    So we are very, very proud to have you here. I personally
am honored to know you.
    Mr. Gentry. Thank you, Senator.
    Senator Wyden. I thank you.
    Mr. Gentry. I would respectfully acknowledge that I'm the
voice of my people. I'm only speaking what my people have told
me to speak. I'm only doing what they want me to do. They voted
for these agreements. They want this to happen.
    I hear the voice of our elders, some of which would say,
it's time to forgive those that have trespassed against us and
move forward. That's truly the heart of our people. I'm
thankful for it.
    Thank you, Senator.
    Senator Wyden. Very well said.
    One of your terrific partners, the voice of the Upper Basin
in the Klamath is Becky Hyde. She and her family have been
there for many years and because of Ms. Hyde's good work we've
got an opportunity to keep them there and for your son sitting
there in the front row to have the kind of opportunities that
your family has had.
    So Ms. Hyde, we're glad you're here. Please proceed.

    STATEMENT OF BECKY HYDE, THE UPPER KLAMATH WATER USERS
                          ASSOCIATION

    Ms. Hyde. Thank you.
    Chairman Wyden, Ranking Member Heller and Senator Merkley,
on behalf of the Upper Klamath Water Users Association I want
to thank you for the opportunity to testify in support of S.
2379. We, in the Upper Basin, are grateful for your leadership,
Senator Wyden and also yours, Senator Merkley and are thankful
that Senator Feinstein and Senator Boxer have also participated
in signing onto this. We urge Congress to enact this vital
legislation this year.
    I want to say that I appreciate Don's comments. They are
heartfelt to me as well for the years of work that have gone
into these agreements to reach this point. I appreciate them.
Thank you.
    Upper Klamath Water Users works for power, water and
regulatory security through settlement for family farms and
ranches that irrigate in the tributaries above Klamath Lake.
    I ranch on the Sycan with my husband and 4 children and we
also run cattle on the Upper Williamson which has stayed in our
family for 103 years. I am happy to have my 14-year-old son,
Jack, here with me today. Enactment of this legislation, not
only will help advance the economic interests of the region
today, but will give Jack, if he chooses, and the next
generation of family farmers and ranchers an opportunity to
build a future in the area that we all call home.
    Unfortunately as you know, the Klamath Basin has been known
for its water crisis, not for the healthy food that hardworking
families grow, our amazing wildlife refuges or the Tribes whose
ancestors have lived in our Basin for thousands of years. This
bill represents well over a decade and a half of work by
diverse stakeholders to try and find durable solutions that
protect our economy and our natural resources.
    If you enter a potato shed in Malin or come to a branding
in Beatty, which we would love to have you do, or watch trucks
in Modoc Point being loaded with premium quality alfalfa hay
headed to dairies that produce milk for this Nation, you get a
feel for an economy that is working. However, that economy only
goes to work if we have statesmanship, leadership and
partnership from our Federal Government. Our agricultural
leaders have become experts, not just in how to grow crops or
handle livestock, but in how to navigate our relationship with
various Federal mandates that affect hundreds of farm and ranch
businesses where I live and work every day.
    We understand the Federal Government's tribal trust
relationship and how that, in turn, affects our ability to
irrigate.
    We understand the mandates for us to create a healthy
environment for fish along our streams, to provide protection
asked for the Endangered Species Act and the Clean Water Act.
    We ask the Senate to pass this legislation so that our
businesses can thrive while we comply with laws that this
country has required of us.
    We ask for accountability and an investment by the Federal
Government in this settlement.
    In turn, our communities will leverage a much larger and
sustained economic return for this Nation from the families in
our Basin, like mine, and like Don Gentry's and like Roger
Nicholson's, who are proud to do the hard work that keeps our
communities whole. That's what we love to do. Work.
    We also commit to delivering the protections to the
environment that is asked of us in a way that, I believe, few
river basins in this country are prepared to do.
    This settlement represents common people. Tribal members,
farmers, ranchers, government workers, conservationists,
philanthropists, scientists, many of them are sitting behind
me, bringing the best of themselves to this work over years and
living by the Golden Rule.
    This settlement deserves to be cherished. It took decades
of hardship, thousands of hours of work and personal sacrifice
to reach this point. Please join us in the simple goodness that
brought us to this day where we choose to look beyond what
divides us toward a future for our children.
    Thank you again for inviting me to testify. It is an honor
to be here.
    [The prepared statement of Ms. Hyde follows:]
 Prepared Statement of Becky Hyde on Behalf of the Upper Klamath Water
                           Users Association
    Chairman Schatz, Ranking Member Lee, and Members of the
Subcommittee:
    On behalf of the Upper Klamath Water Users Association, I want to
thank you for the opportunity to testify in support of S. 2379. We in
the Upper Basin are grateful for the leadership of Senator Wyden,
Senator Merkley, Senator Feinstein, and Senator Boxer for introducing
S. 2379 to stabilize the economy of the Klamath Basin. We urge Congress
to enact this vital legislation this year.
    We work for power, water and regulatory security through settlement
for family farms and ranches that irrigate in the tributaries above
Klamath Lake. I ranch on the Sycan with my husband and four children.
We also run cattle on the Upper Williamson, which has stayed in our
family for 103 years. I'm happy to have my fourteen-year-old son Jack
here with me today. Enactment of this legislation not only will help
advance the economic interests of the region today, but will give Jack
if he chooses and the next generation of family farmers and ranchers an
opportunity to build a future in the area we call home.
    Unfortunately, the Klamath Basin has been known for its water
crisis, not for the healthy food that hardworking families grow, our
amazing wildlife refuges, or the Tribes whose ancestors have lived in
our basin for thousands of years. This bill represents well over a
decade and a half of work by diverse stakeholders to try and find
durable solutions that protect our economy and our natural resources.
    If you enter a potato shed in Malin, or come to a branding in
Beatty, or watch trucks in Modoc Point being loaded with premium
quality Alfafa hay headed to dairies that produce milk for this nation,
you get a feel for an economy that is working. However, that economy
only goes to work if we have statesmanship, leadership and partnership
from our Federal Government. Our agriculture leaders have become
experts not just in how to grow crops or handle livestock but in how to
navigate our relationship with various Federal mandates that affect
hundreds of farm and ranch business' where I live and work every day.
    We understand the Federal Governments Tribal Trust relationship and
how that in turn affects our ability to irrigate. We understand the
mandates for us to create a healthy environment for fish along our
streams to provide protections asked for in the Endangered Species Act
and the Clean Water Act. We ask the Senate to pass this legislation so
that our business' can thrive while we comply with laws this country
has required of us. We ask for accountability and an investment by the
Federal Government in this settlement. In turn, our communities will
leverage a much larger and sustained economic return for this nation
from the families in our basin like mine, and like Don Gentry's, who
are proud to do the hard work that keeps our communities whole. We also
commit to delivering the protections to the environment that is asked
of us in a way that I believe few river basin in this country are
prepared to do.
    This settlement represents common people, Tribal members, farmers,
ranchers, government workers, conservationists, philanthropists,
scientists, and others bringing the best of themselves to this work and
living by the Golden Rule. This settlement deserves to be cherished. It
took decades of hardship, thousands of hours of work, and personal
sacrifice to reach this point. Please join us in the simple goodness
that brought us to this day where we choose to look beyond what divides
us toward a future for our children.
    Thank you again for inviting me to testify. It is an honor to be
here.

    Senator Wyden. Very, very good to have you here, Ms. Hyde.
Nobody, I think, brings the kind of historical perspective you
and your family do to this, other than perhaps Don Gentry and
the decades and decades of tribal history. So we're glad you
two are there at the table.
    Another very strong advocate is Mr. Roger Nicholson, a
voice for the landowners since we began this debate.
    We've had a number of discussions over these years about
getting to this point. I think as much of a glass half full
character as I am, I wasn't convinced we'd get you at a witness
table like this for a bill. But this is a very, very, important
day. We are so glad you're here.
    Please proceed.

  STATEMENT OF ROGER NICHOLSON, RESOURCE CONSERVANCY AND FORT
     KLAMATH CRITICAL HABITAT LANDOWNERS, FORT KLAMATH, OR

    Mr. Nicholson. Thank you, Senator Wyden and Ranking Senator
Heller and Senator Merkley. It's a pleasure.
    I will have comments about the bill itself, but so often we
don't give thanks for elected representatives and appointed
representatives of our government that really have heart and
really take and really get involved in issues. In case I should
forget at the end of my comments, Senator Merkley, Senator
Wyden and Richard Whitman, this would not happen without you
folks today.
    You took heart. You saw people suffer. You did something
about it. You provided position and prestige to a settlement
that could be, should be and will be everlasting. Thank you.
    Anyway. Briefly my name is Roger Nicholson. I come, as
Becky does, from a long-term ranching family.
    My family came to Fort Klamath in the 1890s. Then into, for
perhaps, provide a little bit different perspective. They went
into California in the 1930s and the Central Valley as well.
They did, like a whole lot of the Upper Basin, is tied to the
cattle business.
    The vast majority of the Upper Basin agriculture economy is
the cattle business and the Central Valley through winter range
and the feed lots of Washington and Idaho are all integrately
tied in this package and all suffered when we had a water shut
down. They all suffered in supply and feed supplies as well as
supply of livestock. Hopefully that will be over and we can
develop some sense of normalcy.
    I have to say and to use some of my friend, Don Gentry's
language, collaboration, consensus and compromise. We saw that
clear through these discussions. People came to the table and
they wanted to settle. They were hard, hard issues to settle.
It took hours and hours of discussion.
    Hours of work with technical people. We're very fortunate
to have somebody that is literally sacrificed family life and
so forth with us today and leading our Upper Basin team through
this settlement effort and that's Andrae Rabe. I would be
remiss in not mentioning her name today. She's just spent
countless and countless hours.
    Anyway. We look forward to having a whole community again
and that is very, very important to me.
    I went to high school on the Klamath Indian Reservation.
I've had many, many and do have many, many friends, tribal
friends. I saw this water issues splintering the community. A
sense of wholeness and a sense of community will now be
reestablished. That is just huge.
    But we very definitely need passage of the bill to move
forward. Whatever my groups and I represent the Fort Klamath
Critical Habitat Landowners and the Sprague River Water
Resource Foundation, two non-profits that represent a diverse
group of irrigators in the Upper Basin. Whatever we can do and
whatever at point we can do it in this congressional action,
please ask and we will be here on short notice.
    Thank you for the opportunity. Thank you, once again, for
your help.
    [The prepared statement of Mr. Nicholson follows:]
 Prepared Statement of Roger Nicholson, Resource Conservancy and Fort
         Klamath Critical Habitat Landowners, Fort Klamath, OR
    My name is Roger Nicholson. I am here speaking for myself and
Sprague River Water Resource Foundation and Fort Klamath Critical
Habitat Landowners. These groups have a large number of members in the
Upper Klamath Basin, representing thousands of irrigated acres.
    I, like others, represent and own a ranch which has been in the
family for more than 100 years, which is extremely dependent for
economic survival on irrigation water. The cattle business is the
largest agricultural industry in Klamath County. Klamath County is one
of the top counties in the nation for combined cow-calf and stocker
feeder numbers. Without irrigation, the cattle business in Klamath
County would diminish to a footnote.
    The water shutoff experienced last year, financially and
emotionally crippled the entire community. A sigh of relief could be
detected over the whole community when a diverse group of negotiators,
including myself, announced a settlement had been reached.
    The Klamath Off-Project Settlement Agreement has brought together
factions within the Upper Klamath Basin who for decades have been at
odds over the allocation of limited water resources. The allocation
agreed to in the Settlement provides for Tribal fishing and hunting
resources, as well as agricultural production. The Settlement
establishes the common ground for the communities of the Klamath Tribes
and the agricultural landowners to reunite and work together to resolve
water allocation and habitat condition issues.
    In the agricultural community, we are excited to move forward on
the implementation of the Settlement. This legislation will provide key
authorities for Federal participation in the Settlement.
    Thank you for your support of S. 2379, the Klamath Basin Water
Recovery and Economic Restoration Act of 2014.

    Senator Wyden. Mr. Nicholson, you have set a land speed
record for giving powerful testimony. We thank you.
    Let's go to questions. I'll have a few and then I'm going
to ask my partner here in this effort.
    Excuse me, we forgot Mr. Whitman. It is only fitting that
Mr. Whitman wrap this up because I think all who are at the
table appreciate his extraordinary role. I can say, not with a
lot of pride, that when this began my knowledge of water law
would barely have filled a thimble if you were talking about
State water law. Mr. Whitman was essentially our point person
for these negotiations, not just from a legal standpoint, but
making sure that all the parties were fully informed.
    So, Mr. Whitman, it's fitting that you wrap this up. We
simply wouldn't be here without you.

   STATEMENT OF RICHARD M. WHITMAN, NATURAL RESOURCES POLICY
          DIRECTOR FOR OREGON GOVERNOR JOHN KITZHABER

    Mr. Whitman. Thank you, Chair Wyden, Ranking Member Heller,
Senator Merkley. Thank you for the opportunity to testify today
on behalf of Oregon Governor Kitzhaber. It really is an honor
to be here.
    I'm pleased to offer the Governor's support for S. 2379.
    Chair Wyden, you remarked that this panel and the work of
the folks behind us really does represent the Oregon way, the
approach of collaboration, consensus, resulting in not the
perfect settlement for everybody, but a settlement that is
truly lasting and it has stability and that is very much the
approach that has been taken in the work that has been done in
this community over the last, really, 10 years of effort in the
Basin.
    The agreements that would be authorized by S. 2379 need
congressional authorization. They need your action, your
support. But I want to make sure everybody understands that the
agreements are in place. They have been signed by all the
parties except the Federal parties. They are having an on the
ground affect today that is really critical in the Basin.
    As you well know and as the co-sponsors for this
legislation know, we are facing historic drought on the West
Coast of the United States. The Klamath Basin is suffering from
that drought as well. Without these agreements in place I am
convinced that we would be looking at a complete shutdown of
irrigated agriculture, not just in the Upper Basin, but also
within the Klamath irrigation project. As a result of these
agreements we are seeing sharing of the shortage of water
between Coho downstream, between the needs of suckers upstream
and between the various irrigation communities in the Basin.
    The Klamath is a wounded Basin. It's a seriously wounded
Basin.
    It was wounded when the dams were put in between the 1920s
and the 1960s.
    It was wounded when the Klamath Tribe was terminated in the
1950s.
    It was wounded in 2001 when the Klamath project was shut
down and did not receive any water.
    It was wounded again last year when the off project
irrigators, just as large an irrigation community as the
Klamath project, was completely shut down as a result of water
shortages.
    The remarkable thing about these agreements is they create
the foundation for an equitable sharing among all the different
communities in the Basin and the basis for long term healing in
the Basin.
    Chair Wyden, you mentioned Oregon water law and for those
who know Western water law in prior appropriation, it is very
much a winner take all approach to allocating a resource. The
resource goes to those with the most senior water rights. As
you also know, it's our Native American tribes that have the
most senior water rights in the Western United States.
    These agreements truly are a model that could provide a
template for other basins for long lasting, stable, foundations
for sharing of water resources in the Western United States in
ways that keeps our Native American tribes whole in terms of
their rights and that also allows the other communities that
rely on water to continue as well.
    Chair Wyden, a year ago you gave us a charter for the
Klamath Basin Task Force. You, Senator Merkley, Governor
Kitzhaber and Congressman Walden and you asked us to do 3
things.
    To provide an Upper Basin Water Agreement.
    To reduce cost.
    To address ways to lower power cost for irrigators.
    I'm pleased to report that the Klamath Basin Task Force has
delivered on all 3 of those charges. As you've seen we have an
Upper Basin Water Agreement that shares the shortage.
    On cost we have reduced the estimated cost to the Federal
Government from $750 million to around $500 million.
    On power, we have identified ways forward to provide lower
cost power to irrigators both within the Klamath irrigation
project and outside of the Klamath irrigation project.
    I don't want to mislead you. There's still a lot of work to
be done. We are still meeting on a fairly regular basis down in
the Basin to do the hard work of implementing these agreements.
    We will continue to work together with you to help pass
this legislation.
    But we have the foundation in place. Now we ask your strong
support and ask Congress for the passage of S. 2379.
    Thank you.
    [The prepared statement of Mr. Whitman follows:]
  Prepared Statement of Richard M. Whitman, Natural Resources Policy
              Director for Oregon Governor John Kitzhaber
    Subcommittee Chair Schatz, and members of the subcommittee, I am
Richard Whitman, Natural Resources Policy Director for Oregon Governor
John Kitzhaber. I am pleased to provide the views of the Governor
regarding S. 2379, the Klamath Basin Water Recovery and Economic
Restoration Act of 2014.
    For the last year, I facilitated the Klamath Basin Task Force,
which was convened by Oregon Senators Ron Wyden and Jeff Merkley,
Oregon Congressman Greg Walden, and the Governor to address three
remaining issues facing the Klamath Basin: (1) resolution of remaining
water management issues in the upper Klamath Basin; (2) identifying
options for lower cost power for the Klamath Reclamation Project and
the Upper Basin (off-project) irrigators; and (3) reducing the Federal
costs of achieving long-term sustainability in the Klamath Basin.
    The Task Force met five times between July 2013 and February 2014,
and completed its report following its last meeting. The Task Force
formed subgroups to focus on the three issues in its charge: (1) the
Upper Basin Water Group; (2) the Affordable Power Group; and (3) the
Klamath Restoration Cost Group. The Water Group met almost every week
between August 2013 and March 2014, producing an Upper Basin Agreement
in Principle in early December of 2013, and a final Comprehensive Upper
Klamath Basin Agreement in March of 2014. The other groups, which
included members from both California and Oregon, met frequently over
the same period. Work to implement the Upper Basin Comprehensive
Agreement, to reduce power costs, and other elements of the Klamath
agreements continues. A copy of the Task Force Report is appended to
this testimony. The appendices to that report, and the Upper Klamath
Basin Comprehensive Agreement itself, are available at the Oregon
Governor's Natural Resources Office website: http://www.oregon.gov/gov/
GNRO/Pages/index.aspx.
    The recent history of the Klamath basin is a story of hardship
falling on specific communities. I began working on Klamath basin
issues in 2001, the year that irrigation in the Klamath Project was
shut down to protect threatened Coho salmon downstream in California.
In 2002, over 30,000 Chinook salmon died in a large fish-kill in the
lower Klamath River in California, near the confluence with the Trinity
River. And last year, beginning in June, irrigators outside of the
Klamath Project--in the Upper Klamath basin--were shut off when both
the Klamath Project and the Klamath Tribes exercised their senior water
rights.
    This year is likely to be one of the driest in the Klamath basin in
the last twenty years. State and Federal drought declarations were made
months ago, with snowpack in the basin barely over twenty percent of
normal. Despite that, because of the Upper Klamath Basin Comprehensive
Agreement (UKBCA) and the Klamath Basin Restoration Agreement (KBRA)
the very limited water that is available this year is being shared
between all of the diverse interests in the Klamath basin including
both irrigation communities and in-stream fisheries. Instead of pitting
community against community, this year the basin is working together to
get through the very tough conditions that nature has presented.
Klamath Project irrigators, off-project irrigators, and downstream
fisheries are all getting less water than they would like this year.
But they are getting what they need to make it through.
    The UKBCA and the KBRA have been signed by all non-federal parties,
and are partially implemented, providing stability in the basin for
now. But this stability will not last unless Congress acts to authorize
federal participation in these agreements as well as the Klamath
Hydroelectric Settlement Agreement (KHSA). The basin has done its part
to overcome conflict, now it is time for Congress to do the same and
pass S. 2379, the Klamath Basin Water Recovery and Economic Restoration
Act of 2014.
    Governor Kitzhaber thanks Senators Ron Wyden, Jeff Merkley, Diane
Feinstein, and Barbara Boxer for developing and introducing S. 2379.
The states of Oregon and California are investing significant
resources, including funding, to restore the economic, social and
environmental fabric of the Klamath basin. The Governor urges passage
of S. 2379 to bring a close to decades of conflict and allow the
communities that depend on the third largest river system on the west
Coast to heal.
    This concludes my written statement. I am pleased to answer
questions from the Committee.

    Senator Wyden. Thank you very much.
    All of you have been very helpful.
    I'll start with a few questions and then ask Senator
Merkley to participate as well.
    The first is, I think it would be helpful, Mr. Bezdek, if
you could break down the Federal costs. In other words, as
we've been talking about the fact that the group really drove
down those costs beyond, essentially, the original charge. It's
been very well received.
    Tell us how the costs break down?
    Mr. Bezdek. Mr. Chairman, the bottom line costs are
approximately $500 million of new Federal spending over 10
years. The reductions that got us to that point were made
through a combination of taking an aggressive look at current
spending levels in the Basin and determining how much of the
current spending we can count toward KBRA restoration
activities.
    We also took a hard look at potential outside sources of
funding and some foundations have come forward with that.
    The State of California, my colleagues from California, Mr.
Laird in the hearing last year, told you that California was
completely engaged in these agreements. They have also
established that that they are prepared to dedicate $50 million
of the costs that they have set aside for dam removal to help
reduce some of these costs.
    So I think when you put all of those things in the mix you
end up with $500 million worth of new Federal spending over the
next 10 years.
    Senator Wyden. Now earlier this year the United States
Department of Agriculture, the Resource Conservation Services,
assisted Ag producers in the Upper Basin. Can you describe how
they're helping the irrigators and the off project users?
    Mr. Bezdek. They are incredible partners to us.
    Let me say, first and foremost, they are a part of our
Federal team and they are engaging at all levels. They have
formally dedicated, I believe, it is $11 million over the next
5 years which is absolutely critical as Mr. Whitman established
in his testimony, you know, we are implementing these
agreements now. The ability to provide resources into the
agricultural community to start attaining the restoration
actions that are necessary to be able to make more optimal use
of water supplies is incredibly important and through our
colleagues at the NRCS we are accomplishing that.
    Senator Wyden. Tell us a bit about the wildlife refuges.
Senator Merkley and I both have tried to really champion the
effort to protect wildlife refuges. How does this legislation
help the wildlife refuges in the Basin that are so often
literally starved for water?
    Mr. Bezdek. Senator, I think you have to begin with the
understanding that, geographically speaking, the wildlife
refuges are located very low in the Basin. It is very, very
difficult to get them water and because we have a Reclamation
project that is not authorized to deliver them water the
refuges have historically been able to utilize some of the
water that was left over after the Reclamation project was able
to make its deliveries because we're beginning--becoming more
efficient in how we use water. There's been less and less water
available for those refuges.
    What the KBRA does is it authorizes Reclamation to deliver
water directly to those refuges.
    It establishes an allocation of water for those refuges.
    Under our projections, based upon our modeling, you know,
right now those refuges, most years, are not getting much
water, if at all. Under the KBRA the refuges would receive
water in 9 out of 10 years that would be sufficient to meet
their needs.
    Senator Wyden. So we go from, to make sure we get this. We
go from essentially nothing recently to meeting their needs in
9 out of 10 years under this agreement.
    Mr. Bezdek. That is correct, Mr. Chairman.
    Senator Wyden. OK.
    One last question for you, Mr. Bezdek, on this round.
    The Hoopa Tribe has been, as you know, quite vocal in its
opposition to the agreements. They have been making the case
that enactment of this legislation would terminate the rights
of that tribe.
    How would you respond to what that tribe has been saying?
    Mr. Bezdek. Mr. Chairman, I would begin by saying that on a
personal level I have tremendous and great respect to the Hoopa
Valley Tribe.
    I have personally visited with them a number of times.
    I've been out to their tribal headquarters.
    I've had numerous meetings with their tribal leadership.
    We have discussed this issue at great length.
    What I would say is is respectfully, we disagree. We do not
believe that there is a termination of rights. We believe that
under these agreements Hoopa will be able to achieve a water
right in California just as it would have if these agreements
were not in place.
    Second, we're talking about an Oregon adjudication. The
Hoopa Valley Tribe's rights are in California. So I believe
that as we discuss dealing with the Oregon side of things that
their rights are not affected.
    I think what Hoopa would argue is that the agreements, when
they specify that if the Reclamation project is going to not
live within its--as long as the Reclamation project lives
within its water budget we will not go after them for more
water. They view that as cause for termination. We disagree.
    We have done tremendous amount of analysis. We believe that
our analysis shows that the amount of water for the fishery
will be robust, that we're talking about just a lot of benefits
for the tribe.
    I guess two more points, sir.
    One, we have an obligation to 6 Basin Tribes. This
agreement works for all 6 Basin Tribes.
    The final point is, in terms of this Administration, we
lead by our actions. As it regards the tribal fishery, for the
last 2 years in a row we have looked to Trinity Reservoir to
make protective releases in order to protect the fishery in the
fall. We are in the midst of developing a more permanent
program for fall fishery releases.
    As it regards the Trinity part of the Klamath Basin, this
Administration has significantly increased Trinity Basin
funding. So we just respectfully disagree. We believe that this
agreement is in fulfillment of our trust responsibility.
    We believe that there are substantial benefits for all the
Basin Tribes, including Hoopa. We will continue to visit with
them and work with them. But when it comes to the use of the
word termination we just respectfully disagree.
    Senator Wyden. Alright.
    Senator Heller.
    Senator Heller. Thank you, Mr. Chairman. It's good to be up
here with the rest of the Oregon delegation.
    Senator Wyden. Right. One hundred percent of our----
    Senator Heller. One hundred percent.
    I'm not an expert on the Klamath Basin, but this is what I
believe. I believe if you solve the problems in Oregon we can
help solve some of the problems that we have in Nevada. If
you'll be patient with me, Mr. Chairman, I'd like to talk about
some of the problems that we are having in Nevada.
    Senator Wyden. Very good.
    Senator Heller. That's specific on drought issues.
    I want to thank all the witnesses for taking time and being
here and sharing us your concerns because these issues are
issues of the West. They aren't issues of Oregon, California,
Nevada, Arizona, everybody has issues, problems, concerns. If
we can solve portions in one area it's certainly going to help
us as we solve in other areas.
    It's of no loss that we're having big problems in central
California and that drought that we're seeing in central
California is moving through northern Nevada. Fourteen years
now. It's been quite rough.
    I live in an agricultural community. The allocation for
runoff surface water is zero percent in my community. Just a
few years ago it was 110 percent. But it's bouncing around that
it's probably averaged over the last 10, 15 years at about 30
or 40 percent.
    But I want to talk a little bit about southern Nevada also
because the life blood of southern Nevada is the Colorado
River. Mr. Bezdek, I'd like to raise some of these concerns
with you. After 14 years of continuous and severe drought in
the West the water levels at Lake Mead, one of the primary
reservoirs in the Lower Basin is approaching its all time low.
In fact, I think they're now drilling a third tunnel for water
into the Las Vegas Valley.
    Since January 2000 that level has dropped over 100 feet.
That drought not only impacts the Las Vegas Valley's water
supply but it also inhibits recreation. The Lake Mead National
Recreation Area, a major economic driver in the region, and
threatens fish and hydro power generation at Hoover Dam, a
significant low cost power supplier for, not just the State of
Nevada, but of course, Arizona and California alike.
    Our communities take this threat serious. I'm sure that you
do also. We have taken an active role in water conservation.
Local businesses, as an example, our casino resorts, local
governments have implemented measures to reduce consumption,
reclaim and recycle water and to increase efficiency.
    Concurrently I've been working diligently here in the
Senate to implement policies that support these types of
efforts. Over the last couple of months Senator Feinstein and I
have teamed up to navigate the Emergency Drought Relief Act, S.
2198, to Senate passage. On Thursday, May 22nd, that bill
cleared the Senate by unanimous consent.
    I'd like to ask you about a specific provision that I
worked on, but I want to ask you first if you're familiar with
S. 2198.
    Mr. Bezdek. Yes, sir. I am familiar with certain portions
of it.
    Senator Heller. OK.
    There is a section, Section 4c7 of the bill that requires
the Secretary of the Interior to pursue pilot projects that
would facilitate water conservation efforts in the Basin, in
Basin states, claimed that increasing the levels at Lake Mead
and other regional reservoirs in the Colorado River. Are you
familiar with that particular section?
    Mr. Bezdek. Yes, sir.
    Senator Heller. My question is then is how can this
authority that's given to the Secretary assist the region in
drought relief?
    Mr. Bezdek. Ranking Member Heller, let me begin by simply
saying that as we've discussed here in Oregon I think the same
is in your great State, relationships. Relationships are the
key to getting through these things. We at Interior believe
that the relationships we've been able to develop in the 7
Basin States, in dealing with these issues that are of immense
importance to you and the other Colorado River States, are what
is going to sustain us and creative thinking. They're the same
types of things that we've been talking about here in terms of
S. 2379.
    With regards to, specifically, your questions, we do not
have an Administration position yet. I would like to offer to
you to be able to get back to you with a specific answer to
your question after I go back and confer with some of our
colleagues within the Administration, but it's something I
would very much like to do.
    Senator Heller. OK. If you could do that I'd appreciate it
and I'd add a couple of other questions.
    What could be realistically accomplished?
    Third, if enacted, what type of projects can the Department
implement to improve levels of these important reservoirs?
    Mr. Bezdek. It would be my pleasure, sir.
    Senator Heller. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Heller.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair. Thank you
all for your involvement in this incredible enterprise.
    It was in 2009 when I came down to the Klamath after my
election that leaders from the irrigators and leaders from the
tribe came together and said, will you get engaged because
we're trying to have a dialog to replace our conflict with a
win/win strategy, a vision for the future. I recall
specifically that someone in the group said, you know, the only
person or persons who are winning right now are the lawyers.
That's because we're all paying them from every side of this
long battle and that there must be some better future, some
better vision.
    I thought at the time that the chance of bringing these
despaired interests, so long in conflict, together in a common
plan would be a miniscule possibility. But I pledged that if
succeeded, I would work in partnership with all of you as
stakeholders and with Senator Wyden's long experience and
leadership in this effort to try to support and take forward
the Congressional side of this equation. I, kind of, re-pledge
myself to this effort now.
    I want to say a special word of thank you to Mr. Bezdek
from Interior. Your leadership has been phenomenal in this
process.
    But I also want to take a moment and say Secretary Salazar
followed by Secretary Jewell have been extremely instrumental.
    Similarly Mr. Whitman, without your engagement and detailed
knowledge on the natural resources side and your facilitation,
we wouldn't be sitting here today.
    But the key at the heart of this has been the stakeholders
that the other 3 panelists are representing. Congratulations
for where we've gotten to and Senator Wyden and I are going to
do all we can to take this side of it forward.
    It was a huge contrast between 2009 when basically the
comment was, we're sitting in the room together. We're getting
to know each other. We might be able to produce a vision.
    Now when you have this very detailed plan, not just a
vision, but taking that into a plan which is such a difficult
thing to do. The ceremony that we had on the banks of Spring
Creek, a tributary to the Williamson and Ms. Hyde, that may be
somewhere close to your property, I imagine, on the upper
Williamson?
    [Laughter.]
    Senator Merkley. The right tributary to the Klamath, but
not too close.
    At any rate it was a phenomenal setting, beautiful,
beautiful river with mature Ponderosa Pine and just a setting
on those banks that had enormous spiritual quality to it and so
a very, very good feeling to take us forward.
    Indeed the tribe, Ms. Hyde, thank you. Mr. Nicholson, you
kept bringing to the conversation additional elements that
needed to be addressed and brought us, really, to help produce
the third agreement in this series and try to take into account
a broader economic perspective for the region. So thank you for
bringing that conversation together.
    I guess I would like to ask you, Mr. Nicholson, as you
wrestled with finding this win/win proposition how you view
this from the viewpoint of the ranchers that you have helped
represent. How this agreement will work for them?
    Mr. Nicholson. I think, I think this agreement will work
because it does provide albeit at a reduced level, it provides
water assurances into the future. But it also provides, as the
KBRA did for the Lower Basin people, ESA assurances which are
on everybody's mind. But with water assurances we can take the
water year and have some type of idea how much pasture we'll
have, how many livestock you'll have and you won't see the
extremes anymore of, hopefully of, complete shutdown and so
forth.
    As any business, the startup cost is extremely high. Yet,
you have to have continuity. I think this agreement provides
continuity. It provides one thing. As I spoke at the settlement
on the banks of the Spring Creek, as you had referenced to, it
provides hope to the whole community.
    I think even more important, it's important to the ranching
community to have a good relationship with the Klamath tribe.
How we ever went so awry, I don't know. But I think it's just
fantastic we're back with normalization of relationships
because I grew up there and each and every person there is an
important part of that community.
    Thank you.
    Senator Merkley. Thank you.
    I was very struck how after 2009 when I first came to this
conversation the drought of 2010 came, the worst ever drought.
It was the worst than the 2001 drought. I remember a few
conversations with folks saying, well this will either tear
everyone apart or make everyone redouble their efforts.
    Then what should happen, but 2013 drought. Now this year a
small snow pack. So Mother Nature certainly is indicating some
urgency that the water resources are going to be challenging
and a lot of cooperation is going to be needed to share them to
mutual affect.
    Ms. Hyde, was there anything you'd like to add to the
perspective?
    Ms. Hyde. I just want to say that I think this is historic
work happening in this Basin. As Senator Heller was here
commenting on issues in Nevada, really we have said this for
quite some time, but the way we are learning how to deal with
the complexities that doing business while protecting the
environment--the way we are accomplishing this in the Klamath
Basin is unique.
    Senator Wyden. Sure, of course.
    Ms. Hyde. It's so important that we figure out how to get
this done. So I appreciate it, Senator Merkley.
    Again, I appreciate you for stepping up in times like 2010
even really coming in and helping with the drought issues then
as well. So, thank you.
    Senator Merkley. You're welcome.
    When Mr. Nicholson spoke of the relationship, I think it
was the relationships that were forged in the dialogs that made
2010 so dramatically different than 2001. This process over the
last 4 years has simply built upon that foundation.
    One of the things I wanted to ask you all about was the
Interior has been able to provide some initial funding to help
with projects. I believe it's primarily related to the 30,000
acre feet reduction or stream side treatments, etcetera. Would
either of you like to comment on how those funds are being
utilized and how that process is going forward?
    Mr. Nicholson. I am probably not the expert on that, but
certainly we are appreciative of the funds that were provided.
We're just on the ground floor of getting those programs
instigated, so specifics.
    But obviously a whole lot of things that we're desiring to
do is we'd like all the right pertinent areas to be fenced in
which there's a good start on that right now. I know in a lot
of instances, 100 percent by the landowner themselves. All the
way from that to fish screening to there's just a whole array
of issues that are being handled on that.
    Specifically, the retirement, that's yet to become. We're
still putting leases together, lease options and so forth. That
is all in front of us. But there's already been probably the
5,000 acre feet of water that was required for this year has
already been done with retirements that have happened through
various programs since 2001 which are credited to the account,
a ledger account, of retirements.
    Senator Merkley. Thank you.
    Chair Gentry, I'll just close with this question. Your
tribe has had a very ancient relationship with the forest,
certainly with this fish species in the stream, the sucker and
the salmon. Do you see this agreement as one that will
strengthen that relationship with both the forest and the
fishery?
    Mr. Gentry. Yes, certainly it will. You know, the greens
provide for the resources and the strategy necessary, the
extensive restoration, necessary to restore our fisheries to
address the water quality and habitat issues that affect our
fisheries.
    There's also opportunity that we have through reacquiring
the Mozama Forest, which is a part of our original homeland.
This provides a land base for an economic opportunity but also
because we'll be bordering the Fremont, mining the forest with
our property. The Tribal Forest Protection Act and provides
opportunities to partner with the forest to ensure that the
adjacent forest is managed in a healthy way, to protect our
forests from disease and fire that may burn from the forest
onto our properties.
    We've spent many years developing that relationship. We
have a positive relationship with the forest and master
stewardship agreements. We see that we have a critical role in
our region to, once again, be a part of forest management. The
forest management affects our treaty resources. So we're very
concerned about how the Forest Service manages, you know, those
properties because it affects big game. It affects our cultural
uses.
    So certainly, you know, these agreements will help us.
There's some funding included in for upland management. We know
that we're in the upper part of the Klamath River Basin. So
we're not just talking about the streams. We're talking about
the forests that affect the hydrology in our region.
    We know the structure and function of our forests. Their
part is significantly, from what they were historically. It's
affected the snow pack and the accumulation of the snow and how
that percolates things and recharges our springs.
    So we're concerned about the whole region. It ties
together. We see that we have a significant role and
opportunity through these agreements to make sure that we're
doing the right thing for our region.
    Senator Merkley. Thank you very much.
    Senator Wyden. Mr. Gentry, thank you for making that point
to Senator Merkley about the economic development fund. It is
part of the Upper Basin agreement. Because I think, based on
the discussions that we've had with you, I think not only is
this going to create jobs for the tribes. I think it's also
going to be good for the whole Upper Basin, you know, community
in terms of increasing demand for goods and services.
    Mr. Gentry. Yes.
    Senator Wyden. So, I very much commend you for the efforts
that are underway with respect to that economic development
fund.
    A question for you, Mr. Whitman, that we never covered.
We've obviously spent a fair amount of time talking about the
Federal costs associated with this, but there are a variety of
costs and responsibilities that have been assumed by the non-
Federal organizations.
    Could you describe what role the non-Federal parties are
going to play in completing all the work envisioned by the
agreements? I mean, this is part of it with Senator Merkley
playing an important role on the Appropriations Committee and
now, my chairing the Finance Committee. One of the first things
that comes up is people say, well what are all these non-
Federal parties going to be doing in all this.
    So if you could explain that, that would be helpful.
    Mr. Whitman. Certainly, Chair Wyden. I'd be pleased to
respond to that question.
    There are essentially 3 types of responsibilities that non-
Federal parties have to implement these agreements.
    First of all with regard to funding which I'll come back
and talk about in a minute.
    But second and importantly with regard to planning and
management of resources, both under the Klamath Basin
Restoration Agreement and under the Upper Basin Comprehensive
Agreement there are mechanisms for collaborative efforts to
plan and prioritize the work in terms of restoration of
resources that will be efforts that are not going to happen
overnight. They're going to take a long time to do.
    Again, just underscores the importance of the long term
relationships that have been built through this process.
    Then finally in terms of implementation, the Klamath Tribes
will have a central role in working on the restoration work in
the Upper Basin and tribes in the Lower Basin also will be
participating actively in the work in the Lower Basin along
with the states of both Oregon and California.
    Let me come back to the funding question briefly because I
think that was the main part of your question.
    Under the structure of the Klamath Basin Restoration
Agreement and the work recently completed by the Klamath Basin
Task Force, total funding by the states of Oregon and
California is $83.4 million.
    In addition to that there is, through ratepayers of
PacifiCorp, an additional $200 million.
    Then on top of that is the California Bond Measure that's
been referenced that pays for a portion of the dam removal cost
as well and was mentioned in earlier testimony. To the extent
some portion of that $250 million is not needed for dam
removal, California, the Governor's Office in California, has
agreed to support expenditure of at least, of up to $50 million
of that amount for restoration work in the Lower Basin.
    Then finally, PacifiCorp is putting in on order of about
$28 million in terms of work toward implementation of various
actions implementing these agreements.
    So the total, by my tally, for non-Federal parties involved
in this effort is around $560 million coming from non-Federal
parties. That amount does not actually include some recently
committed funds from the State of Oregon to help with some of
the bridge financing to get these programs going.
    So actually as we are sitting here today we are also
working on our budget proposal for the State of Oregon for the
next biennium. We are in the early stages of developing
proposals for additional funding from the State of Oregon.
    So the State of Oregon is a strong financial and planning
and implementation partner on both of these agreements as is
the State of California, as are the tribes and as is
PacifiCorp. It is truly a group effort to get this done.
    I haven't mentioned the irrigation community, but obviously
a lot of the on the ground work that Mr. Nicholson alluded to
and Becky Hyde has talked about also will be done by ranchers
and farmers in the Basin working on their land.
    Senator Wyden. I'd be interested in, especially. Mr.
Bezdek, we'll kind of liberate you on this question. We won't
grill you on this, but you 4 tell us a little bit about what
has made it different this time.
    Why we have a consensus because I look back on this and so
fortunate to have Senator Merkley doing good work on this. I
remember back when, feels like, when I had a full head of hair
and rugged good looks, we got, on a bipartisan basis, we got
more than $100 million in the Farm bill in the U.S. Senate to
send to the Basin. Somehow for a variety of reasons, parties
didn't agree.
    Then in the House of Representatives they wouldn't do it.
There we were. No resources for a lot of the kinds of things
we're doing.
    So, this is different. It's exciting in that respect.
Senator Merkley and I have talked often about that day almost a
year ago and, sort of, the surprise on your faces when the two
of us called that audible and said we'd like you to stick
around. Cancel those plane flights and see what we can do to
turn this around.
    You did it by cutting the cost.
    You did it by getting it done by the end of the year which
was the time table in the Upper Basin, all these factors.
    But tell me a little bit, in terms of the discussions you
had, because I know it was meeting, after meeting, after
meeting.
    Why was it different this time? I know what the papers have
said. The papers said when we started oh, there's possibly the
prospect of violence. It's so dry and the like.
    But I'd be interested as we wrap up for you four,
especially because we really do see this as a model for the
West. Tell us what's different.
    Maybe we'll start with you, Mr. Gentry, because of,
certainly, what was different this time was those court
decisions which, as Mr. Whitman noted, were very much in favor
of the tribes. The tribes could have said, that's that. You
know, won in court and the end.
    You sure stepped up and said we've always been part of this
community. We want something bigger. We want something better.
We want to come together.
    So that was sure different.
    But to start with, just as we wrap up and I want to give
Senator Merkley the last word. But tell us why this is
different this time.
    Mr. Gentry. Our leadership, as you know, have long
supported concept of settlement because we've realized that the
issues affecting us were more than just water quantity. So we
were there ready to move forward with that. As you pointed out,
you know, in the administrative, State administrative, process
and adjudication our rights becoming quantified and therefore
enforceable at that time was, I think, key.
    Really pointed that we really needed to work together to
find a solution. So I think that helped. Definitely provided
that opportunity and really brought forth the seriousness of
the situation that we were contending with. So I think that was
one of the key issues there.
    We have made several attempts over the years to reach
settlements. Things like the 2001 water shut off, kind of, blew
things out of the water there.
    But things came together in many respects. I know we've
been tired of spending the money, you know, in litigation.
Standing across the courtrooms, you know, looking at each other
with our----
    Senator Wyden. So it was just like lawyers that pulled this
together?
    [Laughter.]
    Mr. Gentry. I mean.
    Senator Wyden. I'm kidding.
    [Laughter.]
    Mr. Gentry. No.
    Senator Wyden. Sort of.
    Mr. Gentry. Yes, certainly.
    But, you know, we know it's better to work together, you
know, as neighbors to honor and respect one another, you know.
That those moral values that I think that are universal, you
know, to love our neighbor. You know, that's been a core
principle and moral and a value of our people, you know.
    But the foundation of that has certainly been the interest
of our people to have our homeland restored and to protect and
provide their resources. So I really think the other parties
realizing how important those resources are to us, our
fisheries. I think that's been helpful. There's been a level of
respect and honor for one another that's developed both ways.
    When you sit in a room with people and you break bread, you
know, which we did several times and numerous times over these
meetings, you come to find out that you have real similar goals
and perspectives. Just as agriculture and that type of economy
is important to many people in our Basin to teach values and to
provide a way of life for their families and their people, the
same way our hunting, fishing, gathering, those values and our
way of life are important to us for sharing and teaching and
important to our young people so they know their place in our
own community.
    So I think honor, respect, friendships have developed over
good food.
    We have to thank Cheri Little for the many things, the
sweet treats she brought to us over the meetings. But those
things have been helpful.
    The commitment of the Federal team has certainly been
there. Richard the commitment there has been instrumental in
helping us achieve what we've achieved. So thankful for all
that.
    So it all came together, a commitment of the folks that
could dedicate the resources to help us through this, the
commitment of our people to work together, helped us get there.
    Senator Wyden. Well said.
    Ms. Hyde, Mr. Nicholson, what was different this time, in
your view?
    Ms. Hyde. Senator Wyden, first I want to say thank you for
coming back to the Klamath Basin. I appreciate the fact that
you did come in 2001 and also Governor Kitzhaber.
    I think what's different this time is that we learned a lot
about what the issue was, what the scope of the issue was, how
it was Basin wide. It didn't just deal with issues up where we
live in the tributaries of the Upper Basin, but it's an issue
that needed a Basin wide solution. So that's part of it.
    I would say coming from a family that settled on former
tribal land, tribal allotted land, we had some issues to deal
with that are, you know, 150 years deep, some of the wounds,
some that Richard Whitman was talking about. We had some
trespasses that needed to be dealt with. I think that there's
an acknowledgement of the importance of how we choose to live
with one another in a community rather than being scared of
each other, we meet with each other and we talk with each
other.
    That has happened with key relationships that have been
developed in the last decade across the Basin. So I would not
hesitate when flows in the river get drastically low this
summer to call Troy Fletcher from the Yurok Tribes on the
phone. Troy, it's so dry here up on the Sycan. It's good wading
weather for small children, but it's not very good for fish. We
have those kinds of relationships to pick up the phone.
    Don Gentry has amazing basketball star grandchildren living
and I follow them.
    Senator Wyden. I've always felt that basketball was the
answer.
    Ms. Hyde. Basketball is part of it, appreciating the
amazing talent of your neighbors. It's friendships. It's
communication.
    It's what we need to be doing all over the place in this
country. Reaching out to those people that are the hardest for
us to get along with, building those relationships, making
those calls, sitting in those rooms for 8 months with Richard
Whitman and John Bezdek, who frankly flew out West so many
times that his family probably doesn't hardly recognize him
anymore. Those are what matters, all these.
    You matter. Senator Merkley matters. All the people who are
sitting here matter. It's a choice whether we get together with
one another and deal with these things.
    It's also important to acknowledge how complicated it is
when you're dealing with these many issues to come to a
solution. There is great complexity involved in this
settlement. It will be our responsibility to try to help with
these sort of issues in other places because we can.
    But it's pretty simple. It has a lot to do with basketball
and addressing the sins of your fathers.
    Senator Wyden. Mr. Nicholson? Ever thought you'd be here?
    Mr. Nicholson. I've been hopeful for years we'd be here.
We've worked toward that goal. But it seemed like that the
pieces didn't fit together.
    Unfortunately one thing about human behavior sometimes that
you really don't truly address problems until the very, very
adversity sometimes spells success. Perhaps we hit rock bottom
realizing that we had nowhere to go but up. I think that a big
component and not to belabor the point was the involvement with
prestigious people like yourself.
    But I might add something too. We're really on our
formative years of a multiyear settlement agreement. We can't
be left without your involvement into the future as well as
passing the bill.
    We need Richard Whitman. We need his future involvement.
    We need John Bezdek. We desperately need him to go forward.
    I think part of the reason that it worked now and it will
work into the future though, is a lot of the goals that we want
are the same. Most of my community are long term agricultural
people. They want the best for the resource.
    They want for the best, not only and I think restoration
sometimes is a misnomer because, for example and I'll have to
pat myself on the back on a tour with the Tribal biologist
recently. He said, Roger, you have one of the best managed
riparian areas I've ever seen. My question back, how can it be
improved.
    That's enhancement, not necessarily just strictly
restoration and working together I think we can accomplish
those goals. But those of us in agriculture, their land, like
the tribe's land and desire for land, is their life. If they
are shown the path or suggested a path to take to make it even
that much better and this agreement, perhaps, can do that, it
will succeed.
    Thank you.
    Senator Wyden. Mr. Whitman, what was different?
    I know one thing was different. We never had a lawyer who
played the role that you did. We had plenty of lawyers
involved, not just the lawyers for the various parties. But we
didn't have one person who meeting, after meeting, after
meeting, when people felt things weren't going to work,
bringing people back together. So I know that was something was
different.
    But in your view, you've been doing water law a long time.
Why has this been different?
    Mr. Whitman. Thank you, Chair Wyden.
    Stubbornness, food and good relationships are really
critical.
    Senator Wyden. Sounds like a law firm, stubbornness.
    [Laughter.]
    Senator Wyden. Food and good relationships, attorneys at
law.
    Mr. Whitman. Yes.
    You know, I was actually involved behind the scenes in 2001
when we had litigation flying over the shutdown of the Klamath
project and worked again behind the scenes, off and on, over
the years leading up to your re-engagement of all of us in
chartering the Klamath Basin Task Force a year ago.
    My perception in these situations is when you have a
setting where there is a great degree of legal uncertainty and
you have enormous stakes on all sides and you have, frankly,
lawyers, you know, I'm one too, who are advising their clients
that there's uncertainty and they should make a try at winning
it all. That is not conducive to collaboration and consensus
and that was where we were in 2001.
    So a lot of the story here is simply working through issues
and getting people to the point where there is enough certainty
so that people are all ready to come to the table. Then you get
to stubbornness and food and good people to seal the deal.
    Senator Wyden. Let's do this. I'm going to give Senator
Merkley the last word, but apropos of your point, Mr.
Nicholson, about the fact that a lot of sweat equity has gone
into this already. We can't give up.
    I can tell you, you've got Senator Merkley and I at hello
on this. I mean, we have watched you all, not just from the
period of, kind of, June on when we set that end of the year
date, but literally, for me, since 2001, for Senator Merkley
from the day he came to the Senate. We think this is vital to
the Basin.
    I hope people, as you wrap up today, reflect on what Mr.
Whitman said economically would happen without this agreement.
I mean, Mr. Whitman said it would essentially be calamitous. It
would be calamitous in the Basin within affect thousands of
jobs at stake, in agriculture, in fishing, in a variety of
industries without this agreement.
    So we heard him say that a long time ago. But I think it's
worth saying it again and that just reaffirms why Senator
Merkley and I are so committed to getting this done.
    It will go to this committee which I used to Chair a bit
ago. After that it goes on the Odyssey, what was once described
as the dance of legislation in a book. Senator Merkley will be
playing a key role on the Appropriations Committee. I'll have
an opportunity to try to assist on financial issues as Chair of
the Finance Committee.
    So you have our pledge today, apropos of your point, Mr.
Nicholson. We're very much aware that we've got a long way to
go. But it would be legislative malpractice to not follow this
up every step of the way to get this passed and then to ensure
its implementation.
    People have learned a lot about implementing laws here in
the last, you know, few years and just because you get
something signed, doesn't mean you're done. So I'm really
pleased of such a good partner up here in this effort.
    The last word is Senator Merkley's.
    Senator Merkley. I remember that book the Dance of
Legislation.
    Senator Wyden. Yes.
    Senator Merkley. The bill of question did get completed. So
that's a good, good, good reference.
    Today we have stakeholders who are connected to the third
agreement. But I just want to note that there are many other
stakeholders who've been involved in this broader vision, the
Yurok Tribe, the Karuk Tribe, conservation groups, PacifiCorp
and just a whole variety of interest including fisherman from
the ocean side, the ocean side of fisherman, because of the
fish runs.
    So, congratulations. I look forward to continuing to work
in partnership with all of you toward this vision.
    Thank you.
    Senator Wyden. Senator Merkley, thank you.
    Just one last point.
    Today we obviously focused on the final push from the Upper
Basin. On the Upper Basin agreement many stakeholders to the
prior agreements have submitted testimony for today and this
committee has their testimony from this round table last year.
We will ensure that that's considered as we go forward.
    Also we're going to keep the record open for 2 weeks to
receive any additional statements or testimony.
    With that, we thank our guests and the committee is
adjourned.
    [Whereupon, at 4:03 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------


                               Appendix I

                   Responses to Additional Questions

                              ----------

    Responses of John C. Bezdek to Questions From Senator Murkowski
    Question 1. Aren't there other ways to achieve the goals of the
agreement other than removing the dams--albeit more expensive? Are we
not simply letting PacifiCorp off the proverbial financial hook?
    Answer. The alternative of leaving the four dams in place and
retrofitting them for fish passage and fixing the water quality and
water temperature problems created by the two larger reservoirs (Iron
Gate and Copco 1) would indeed be expensive (totaling in excess of $460
million dollars over the term of a new license) and is not likely to
provide the same benefits to natural resources or the communities that
depend on them. PacifiCorp estimates indicate that the cost of removing
the dams under the agreements and developing replacement power is
comparable to the potential costs associated with FERC relicensing.
However, as the Oregon PUC concluded, the cost of mitigation measures
associated with relicensing are difficult to estimate and will likely
escalate over time, creating a high degree of financial risk for
PacifiCorp's customers. In contrast, dam removal under KHSA caps
liability and thereby provides risk protection for PacifiCorp's
customers. Therefore, these agreements aim to protect electricity
ratepayers from escalating costs and financial risks, rather than
providing any parties with financial relief.
    The Environmental Impact Statement (EIS) prepared for the Klamath
Secretarial Determination examined a range of alternatives in detail,
including an alternative that analyzed leaving the dams in place and
constructing fish passage. While this alternative was estimated to
improve on the status quo (i.e. no fish passage), the EIS analysis
projected that more benefits for fisheries and local communities would
accrue when the dams were removed under the agreements. Removing dams
is anticipated to open up 420 miles of stream habitat currently blocked
by the dams, immediately reverse water quality and water temperature
problems, improve river processes for fish, and maximize fish migration
success through a free-flowing river. Retrofitting upstream and
downstream fish passage would involve expensive technology with
uncertain costs. Furthermore, the removal of dams would immediately
relieve the conditions causing toxic algae blooms in Copco 1 and Iron
Gate Reservoirs and thereby would immediately reduce public health
risks. A problem with keeping the dams in place is that it would take
decades to reduce incoming nutrient loads in order to control these
algae blooms.
    It is important to note that the KHSA and the KBRA were negotiated
as a single package and they cannot be easily separated. The bargained-
for-benefits, and the concessions made by parties, span across the two
agreements. For example, important water-sharing concessions in the
KBRA were made in order to accrue the fishery benefits from dam
removal. Without dam removal as part of the agreement, the future of
the stakeholder coalition to implement an agreement would be very
uncertain and it is highly unlikely that the KBRA as it currently
stands would be or could be implemented. For example, the interim
assurances that the Klamath Tribes will not make water rights calls
against the Klamath Reclamation Project will not become permanent until
and unless several conditions, including removal of the four dams, are
in place.
    Question 2. The appendix you provided seems to make strong case for
removing the dams from your perspective. I note it includes no
information on what the negative impacts of dam removal would be. So,
two questions:

          a. Are there any negative impacts?

    Answer. Yes, the EIS, testimony, and appendix you referenced
identified a number of negative impacts associated with dam removal.
Under NEPA and CEQA, significant environmental effects that cannot be
avoided by redesigning the project, changing the nature of the project,
or implementing mitigation measures must be disclosed in an EIS/EIR.
CEQA Guidelines (Section 15126.2 (b)) require discussion of significant
environmental effects that cannot be avoided, as well as significant
environmental effects that can be mitigated but not reduced to an
insignificant level. NEPA regulations also require a discussion of any
adverse impacts that cannot be avoided as a result of the Proposed
Action (40 Code of Federal Regulations Part 1502.16). Klamath dam
removal is a proposed restoration project, and it was carefully
designed to minimize adverse effects. Hundreds of impacts and benefits
were analyzed, mitigation measures to address the remaining impacts
were proposed, and analyses went through multiples phrases of peer
review to increase certainty of conclusions. Consistent with this
direction, the Klamath EIS fully analyzed these impacts and potential
mitigation measures. The majority of these negative impacts identified
in the EIS/EIR and the appendix are expected to be either mitigated
for, or they will be somewhat off-set by long-term benefits of dam
removal and KBRA implementation.
    Below are some of the larger impacts of dam removal; some have
proposed mitigations, some are offset by longer term benefits, and some
are not mitigated for:

  <bullet> A total of 668 land parcels near Copco 1 and Iron Gate
        reservoirs (including 127 with homes) that either have water
        frontage, water access, or views of reservoirs would
        potentially lose views and access. We have proposed that making
        some form of remediation for these potential losses be included
        as part of the overall costs of dam removal, so that these
        effects would be mitigated for.
  <bullet> Release of high concentrations of sediments following dam
        removal would cause some mortality of adult and juvenile
        salmon, but basin-wide mortality is expected to be less than 10
        percent for this year class of salmon, even under worse-case
        conditions (dam removal in a dry year). Worse-case basin-wide
        mortality would be around 28 percent for this year class of
        adult steelhead. Mortalities of salmon and steelhead would be
        much lower in successive years. The timing of reservoir
        drawdown, from early January through mid-March 2020, was chosen
        to maximize fish mortalities associated with dam removal.
        Although, some sediment-related mortality is unavoidable in the
        short term, in the long-term dam removal and KBRA
        implementation would benefit salmon and steelhead populations.
  <bullet> Dam removal would also result in the loss of about 70 jobs
        associated with the operation and maintenance of the dams and
        changes in the recreational industry. This job loss would be
        significant. An aggregate view of jobs in the region; however,
        shows that net employment would increase under the agreements
        because of the creation of many fisheries and construction
        jobs, and because water-sharing provisions in the agreements
        would save farming and ranching jobs that would otherwise be
        lost.
  <bullet> Long-term flood risks would increase slightly for about 18
        miles downstream of the location of Iron Gate Dam. About six
        structures (e.g., homes) currently outside the 100-year flood
        plain would be located within a new 100-year floodplain
        following dam removal. Planned mitigation measures for willing
        and eligible landowners could include moving, modifying, or
        elevating structures where feasible.
  <bullet> Dam removal would eliminate about 82 megawatts of hydropower
        in 2020. PacifiCorps would continue to service customers in
        this area with replacement power developed prior to 2020.
  <bullet> n 2020, approximately 526,000 metric tons of carbon dioxide
        equivalents (MTCO2e) per year would be emitted to the
        atmosphere from replacement power assuming PacifiCorp's current
        resource generation mix. Though this impact is difficult to
        avoid, it could be reduced 14 percent if PacfiCorps meets
        California's goals for future resource generation mix.
  <bullet> Dam removal and reservoir drawdown could affect Native
        American cultural resources sites currently submerged beneath
        the reservoirs. Human remains may be associated with these
        sites. The Department would work closely with the appropriate
        tribes to ensure that this issue is handled in accordance with
        all applicable laws and with the dignity and reverence that
        such an important issue demands.

          b. Can we assume that if the legislation passes, the
        Secretary will proceed with an affirmative decision to remove
        the dams?

    Answer. Secretary Jewell has not made a decision yet on dam
removal. Much of the background work necessary to inform the
Secretary's decision has been completed by Federal agencies and others.
This work includes a comprehensive list of technical and scientific
studies that have undergone rigorous technical review by independent
experts and the public. These studies and their respective summaries
are available at www.klamathrestoration.gov.
    Question 3. What specific performance measures will the Department
put in place after the dam is removed to ensure the goals outlined in
the appendix are achieved?
    Answer. The referenced appendix lists the key outcomes expected
from removing the four Klamath River dams and implementing the Klamath
Basin Restoration Agreement (KBRA). Some of the expected outcomes
include improvements to water quality, stream-flow patterns, and the
expansion and restoration of fish habitat. In the long-term, these
changes are expected to increase production of salmon and trout
populations as well as increase harvest opportunities for commercial,
Tribal, and sport fisheries. Restoration actions as called for in the
Klamath Agreements will be intensively monitored by a team of
conservation partners to track how these expected outcomes are being
achieved. This team has recently begun developing a fisheries
restoration and monitoring plan, which will be used to identify how
restoration goals are being met. This plan is being co-authored by the
Klamath Basin Fish Managers, consisting of representatives from state,
federal and Tribal agencies.
    Data and information from this monitoring effort will be shared
with Fish Managers and will be used to inform restoration decisions and
assist in adaptively managing what types of restoration actions are
needed and where they are most needed. Many of the specific performance
measures and monitoring plans are still being developed, but as stated
in the KBRA, the Fish Managers team will be tasked with developing the
Fisheries Program, which includes a fisheries reintroduction plan, a
fisheries restoration plan, and a fisheries monitoring plan. The
Fisheries Program will establish metrics to evaluate program progress.
The metrics will consider and integrate the four parameters for
evaluating fish population viability status, including: abundance of
fish, population growth rate, genetic diversity, and population spatial
structure (geographic distribution). The Monitoring Program in the KBRA
is expected to be particularly robust and will provide data to
specifically track these metrics and to ensure restoration plans are
being adaptively managed to maximize success. After the monitoring plan
is developed, periodic reviews will allow for appropriate adjustments
to ensure restoration actions are being adequately tracked and
performance measures are being met. The Monitoring Plan components are
as follows:

          1. Status and Trends Monitoring: This monitoring would
        improve upon current salmonid (salmon and trout) population
        monitoring efforts crucial to the management of commercial,
        sport, and Tribal fisheries, and will also help establish a set
        of benchmark conditions prior to dam removal for a number of
        aspects of the Fisheries Program. This will be a key tool for
        management of the implementation of KBRA and will help managers
        determine whether restoration actions are benefitting the
        fishery at the basin scale.
          2. Effectiveness Monitoring: Once the KBRA is implemented,
        dozens of restoration programs will be implemented each year
        for a period of 15 years. Effectiveness monitoring is intended
        to assess the performance of individual restoration actions and
        the restoration actions together on broader scales. We
        anticipate that each restoration plan component will be
        directly linked to the monitoring plan through a categorical,
        qualitative, or quantitative measure (or sometimes more than
        one) that would help to assess progress in achieving the
        restoration goals. For example, one of the likely goals of the
        restoration plan is to increase the production of Chinook
        salmon. Effectiveness monitoring would include monitoring
        trends in population size over time. This effectiveness
        monitoring component of the monitoring plan will establish
        quantitative measures (i.e., performance measures) that
        restoration projects will be expected to achieve each year.
          3. Water Quality and Quantity: Water quality is a significant
        limiting factor for Chinook salmon production, as well as for
        other salmonids such as coho and steelhead. It is also a
        reliable indicator of overall watershed condition. Therefore,
        metrics to determine whether restoration goals to improve water
        quality and watershed conditions will be established and
        tracked. For example, toxic algae blooms in the reservoirs
        behind Copco 1 and Iron Gate dams are expected to be eliminated
        if the dams are removed. And removal of the dams (and
        reservoirs) will restore natural seasonal water temperature
        patterns critical to the health and run timing of fish. Also,
        riparian habitat improvements in the upper Klamath Basin will
        rehabilitate the natural filters that result in fewer nutrients
        entering the waterways. Water quality and water temperature
        monitoring would confirm whether these water quality
        improvements are achieved. Water quality monitoring with
        streamgages would help to ensure that quantitative goals
        associated with KBRA's Environmental Water Program, and water
        deliveries to irrigation districts and National Wildlife
        refuges are being met. Establishing water quantity metrics and
        goals, coupled with strategic monitoring and measurements, will
        confirm whether goals are being achieved.
          4. Limiting Factors: Limiting factor analysis will highlight
        any constraints, bottlenecks, or key points along the critical
        path of restoration plan implementation. The Klamath River Fish
        Habitat Assessment Team has identified the most important
        limiting factors for Klamath River salmonids as being water
        quality (water temperature and nutrients), fish health
        (elevated adult and juvenile fish mortalities), fish habitat
        (degraded watershed and riparian areas, fish passage barriers,
        and inadequate in-stream flow), and water quantity (because it
        influences the previously mentioned factors). Performance
        measures will be largely focused on these likely limiting
        factors, and results from monitoring these factors will serve
        as indicators of change and progress toward fisheries
        restoration. Results of earlier limiting factors monitoring
        will likely inform later work, and this element should be
        subject to periodic review to assess scientific uncertainties;
        the need for periodic review is consistent with the timing of
        the Phase II Restoration Plan.
          5. Data System: There would be a great deal of data
        associated with plan implementation and data management
        technology can undergo rapid evolution. Periodic review would
        help ensure that the data management approach remains the best
        available.

    To facilitate the most efficient adaptive management linkages
between monitoring data and restoration actions, the co-lead agencies
(US Fish and Wildlife Service and NMFS) will develop a Phase I
Restoration and Monitoring Plan, which will then be revised and
followed by a Phase II Fisheries Restoration and Monitoring Plan
completed two years after dam removal, as laid out in the KBRA.
    The Trinity River Restoration Program (TRRP) currently employs an
adaptive management approach that allows managers to track and learn
from the outcomes of management actions. The TRRP approach will provide
a good example for modeling the adaptive management approach under the
KBRA Fisheries Program.
    The KBRA and the Upper Klamath Basin Comprehensive Agreement
already have specific metrics, monitoring plans, timelines, and
enforcement plans for water management and riparian restoration above
Upper Klamath Lake. These will be used to ensure 30,000 acre-feet of
water is permanently retired; limitations for Reclamation's Klamath
Project (ranging from 330,000 to 385,000 acre-feet/year) are followed;
specified in-stream flows for fish in upper basin tributaries are
permanently established; and that permanent riparian habitat
restorations are completed along stream corridors, with clearly defined
standards, levels of landowner participation, and robust protocols for
enforcement. Each of these actions will be tracked using an expanded
network of stream gages, existing surface-water and groundwater flow
models, Landsat remote sensing data, and field surveys to verify that
goals are being met.
    In addition to the Monitoring Program components listed above, the
Pacific Fisheries Management Council has maintained viable (albeit much
reduced relative to historical levels) populations of Chinook salmon in
the lower Klamath River that contribute substantially to a west coast
fishery. They manage Chinook escapement (number of adults likely to
return to Klamath River spawning grounds) by monitoring populations and
managing harvest allocations. These existing methods of establishing
escapement goals, monitoring and management tools are available to help
guide, track, and manage an expanded Klamath River-based fishery
resulting from dam removal and KBRA implementation.
    Question 4. Why does the Department of Interior have to be the
decision maker on the dam removal? Why can't the legislation be
modified to have one--or both of the states be the decision maker on
the removal?
    Answer. The role of the Secretary in the KHSA is reflective of a
number of unique factual circumstances relative to the interrelated
role of the federal agencies. Moreover, the owner of the facilities,
PacifiCorp, along with the other parties to the agreement, bargained
that under the unique circumstances of the KHSA, where potential dam
removal is intertwined with both a restoration program and Indian water
rights settlement, the Secretary is the most appropriate entity to be
making this decision.
    The Federal government has a significant interest in the Klamath
River Basin, including: the protection and restoration of fish species
listed under the Endangered Species Act (ESA); improving aquatic
habitat and water quality for salmonid and resident fish populations
important to Native American tribes; and restoring the economic
viability of the commercial and sport fishing industries. The Klamath
Basin historically supported one of the most abundant salmon fisheries
in the nation, with an estimated pre-development run size of up to a
million salmon per year. As a result of multiple stressors, these
fisheries have declined steeply in the Klamath Basin. Fall-run Chinook
salmon are now estimated to be 14 percent of their highest historical
estimated abundance; and coho salmon abundance is at an estimated 2
percent. Two species of suckers that reside in and around Upper Klamath
Lake are listed as endangered under the ESA and coho salmon in the
Klamath River are listed as threatened.
    The U.S. Department of the Interior's (Interior) Bureau of
Reclamation (Reclamation) manages the Klamath Reclamation Project
(authorized in 1905) that diverts water from the Klamath River for
irrigated agriculture. Interior's U.S. Fish and Wildlife Service (FWS)
manages six National Wildlife Refuges in the Klamath Basin. The U.S.
Department of Agriculture's U.S. Forest Service and Interior's Bureau
of Land Management (BLM) manage other public and Federal lands along
the Klamath River and on tributaries to the river. The United States
has trust obligations for the Federally-recognized tribes that use the
river. The Yurok, Karuk, and Klamath Tribes are parties to the KBRA as
well as the KHSA. The U.S. Department of Commerce's NOAA Fisheries
Service manages the west coast commercial salmon fishery under the
Magnuson-Stevens Fishery Conservation and Management Act, which relies
on healthy Chinook stocks from the Klamath River. NOAA Fisheries
Service also oversees implementation of the Endangered Species Act for
coho salmon that are listed as threatened species in the Klamath River.
    In 2011, the Non-Federal Parties to the KBRA estimated that
agricultural production in the Upper Klamath Basin contributes $600
million per year in farm-gate and other commercial revenues. Farming is
one of the leading sustainable businesses within this region and is
relied upon for household income, property and other taxes, and 4,500
jobs. Salmon fisheries reliant on fish from the Klamath River result in
more than $150 million per year in economic benefits in Oregon and
California. In addition, six National Wildlife Refuges provide habitat
for most of the migratory waterfowl on the Pacific Flyway and habitat
for fish. Representatives of Interior, including the Secretary's
office, the Solicitor's office, the Bureau of Indian Affairs, BLM,
Reclamation, and FWS, as well as NOAA Fisheries Service and the Forest
Service worked with State, Tribal, irrigation, commercial fishing,
conservation organizations and business entities to develop the Klamath
Agreements. The KHSA is also connected to the settlement of Indian
water rights in the basin. The failure to follow the KHSA could impact
the final settlement of tribal water rights, thus potentially placing
other water users at risk.
    The recent drought conditions have confirmed that in administering
these assets and optimizing their benefits for all, the Department,
along with its federal partners, must also account for operations of
the PacifiCorp dams and there is a strong need for federal actions
throughout the basin to be integrated to the extent feasible in an
efficient and coordinated manner. Inserting additional agencies with
independent mandates into the dam removal decision making process could
make it difficult for federal agencies to manage the resources of the
basin in real-time as has been the case over the past few years.
    In addition, one of the key components of the Klamath Agreements
that was bargained for is management of risk for ratepayers, which is
accomplished, in part, by allowing PacifiCorp to maintain its ability
to seek a new license if the Klamath Agreements are not implemented.
Currently, FERC does not interpret the Federal Power Act in a manner
that allows for a licensee to maintain a relicensing posture while also
evaluating whether dam removal is appropriate. This component is a
crucial part of the bargained for benefit by PacifiCorp on behalf of
the ratepaying public.
    Finally, it is important to remember that the Interior Secretary
will not make a decision on dam removal alone. As stated in the KHSA,
that decision will be made by the Interior Secretary, in cooperation
with the Secretary of Commerce and other Federal Agencies. At this
time, the Secretary will also determine whether the dam removal entity
will be the federal government, or a non-federal entity. In the event
of an affirmative determination on dam removal, California and Oregon
will provide notice to the Secretary and other parties within 60 days
whether each state concurs with the affirmative determination. In its
concurrence decision, each state will consider whether: (i) significant
impacts identified in its environmental review can be avoided or
mitigated as provided under state law; and (ii) facilities removal can
be completed within the state cost cap of $450 million. If the
Secretary selects a non-federal Dam Removal Entity, the states would
also decide whether to concur with that selection. If the Secretary
determines not to proceed with facilities removal, the KHSA terminates
unless the parties agree to a cure for this potential termination
event.
    Given the strong federal nexus in the Klamath Basin and the
settlement of tribal rights that are connected to the KHSA, all of the
settlement parties agreed, as part of the negotiation process, that a
decision by the Secretary of the Interior, in consultation with the
Secretary of Commerce and other federal agencies, and with concurrence
by the governors of California and Oregon, was the best way to make a
decision on Klamath River dam removal.
    Question 5. Why is this not the first of many dam removals we will
see by the federal government? If not, why not?
    Answer. The Klamath River dams represent a unique situation when
the economic value of existing dams are low enough, and the cost for
bringing them into compliance with modern regulations is high enough,
that a private company chooses dam removal over FERC relicensing. So
while it is conceivable that the federal government could enter into
similar agreements in other parts of the country, we believe it would
require buy-in from private dam owners, along with other stakeholders.
In each case there would have to be a determination by public and
private parties that dam removal is a better option than FERC
relicensing, and agreement that dam removal is the best and most
affordable way to help restore a basin and to protect federal and
tribal interests. The specific circumstances in the Klamath Basin that
made dam removal preferable for PacifiCorp, when compared to
relicensing, may not be that common.
    In this instance, PacifiCorp did an analysis of their four lower
dams on the Klamath River. These are primarily single purpose dams,
privately owned, and collectively produce an average of 82 megawatts of
hydropower. They are not operated as flood control structures and they
do not store water for downstream agricultural, commercial, or
municipal purposes. Federal agencies have mandated conditions and
prescriptions to be included in any renewed license that may be issued
by FERC. These conditions and prescriptions would require each of the
four dams to be retrofitted with new or updated fish passage
facilities. A renewed long-term license would also contain provisions
for water quality and water temperature improvements. New conditions of
a FERC license are projected to decrease power production by about 20
percent and all but eliminate peaking-power opportunities. Upgrading
these dams would exceed $460 million dollars in capital and operation
costs over the term of a new license, and the financial liability could
be much greater if water quality, water temperature, and fish passage
fixes were protracted or proved prohibitively expensive to PacifiCorp.
With all these circumstance taken together, PacifiCorp concluded (with
concurrence from both the California and Oregon Public Utility
Commissions) that removing the dams under KHSA and developing
replacement power was less financially risky for their customers than
the high cost and uncapped liability of FERC relicensing.
    Moreover, these agreements are not just about dam removal. They are
much more. They more accurately should be seen as a public-private
partnership that will result in sustaining and restoring a community's
economy, helping farmers and ranchers survive water shortages, saving
and creating jobs, keeping power costs down, restoring an ecosystem and
its fishery, and meeting tribal trust responsibilities.
    Question 6. In terms of funding, the Klamath Basin already receives
a funding now (approximately $20 million annually). What specific
performance measures will you have in place to show how an additional
$500 million in the next ten years will make a tangible difference in
achieving the purposes of the agreements?
    Answer. The Klamath Agreements are designed to preserve, maintain,
and restore the natural resources of the Klamath Basin and the
communities whose economies are reliant upon those resources. In the
upper basin alone there is a thriving $600 million annual agricultural
economy that these Agreements are designed to protect. There are
similar economies in the Lower Basin supported by commercial and sport
fishing that will be expanded and protected.
    In addition to maintaining the agricultural economy, the KBRA goals
also include increasing the natural production of fish throughout the
basin, expanding fish harvest opportunities, establishing reliable
water and power supplies for agriculture (farming and ranching) and
delivering water to water-starved National Wildlife Refuges. Many
performance measures and monitoring plans have, or will be developed,
to track and monitor progress and to ensure these agreement goals are
met.
    The KBRA Fisheries Program will include development of long-term,
comprehensive plans soon after KBRA is authorized. As stated in KBRA,
this program will establish metrics to evaluate program progress, using
the best available science. The metrics will consider and integrate the
four parameters for evaluating fish population viability status,
including: abundance of fish, population growth rate, genetic
diversity, and population spatial structure (geographic distribution).
KBRA includes a robust Fish Monitoring Program to provide data to track
these metrics and to ensure restoration plans are adaptively managed to
maximize success.
    Improving fish population viability requires restoring their
habitat and improving flow conditions and water quality. Detailed
planning for this has occurred in the upper basin. The Upper Klamath
Basin Comprehensive Agreement has specific metrics, monitoring plans,
timelines, and enforcement plans to ensure: 30,000 acre-feet of water
is permanently retired; specified in-stream flows for fish in upper
basin tributaries are permanently established and with clear protocols
for enforcement (many new stream gages are being installed); and that
permanent riparian habitat restorations are completed in and along
stream channels, with clearly defined standards, levels of landowner
participation, and robust protocols for enforcement. Riparian
restoration ranges from reestablishing vegetation in stream corridors,
reducing and treating agricultural return flows, reconnecting streams
to floodplains, increasing channel complexity, and preventing
entrainment of fish in diversion canals.
    Overarching performance measures for the water-sharing aspects of
the KBRA and the Upper Klamath Basin Comprehensive Agreement in the
Upper Basin are also clearly defined. These include, annual diversion
limitations for Reclamation's Klamath Project (ranging from 330,000 to
385,000 acre-feet), reductions in consumptive use of irrigation water
by Off-Project water users (30,000 acre-ft), deliveries of adequate
amounts of water to National Wildlife Refuges in about 9 of 10 years
(as compared to 1 in 10 years currently), and new specified in-stream
flow minimums in many tributaries above Upper Klamath Lake to benefit
fisheries. Each of these measures will be tracked using an expanded
network of stream gages, existing surface-water and groundwater flow
models, and Landsat remote sensing data to calculate evapotranspiration
rates and verify achieved reductions in consumptive use of water in the
Upper Basin.
    Question 7. Given fiscal constraints we are under, what happens if
the funding is not provided at the rate envisioned under the agreement?
    Answer. Our view is that failure to timely implement the funding in
the Agreements not only would prolong the significant risks faced by
the basin's natural resources, as well as all the farming, ranching,
fishing, and tribal communities who depend on them, but also
potentially increase the need for the same type of future extraordinary
financial relief we saw in 2001, 2006, and 2010 where the government
stepped in and provided additional support in order to mitigate the
negative economic effects of drought and closed salmon fisheries.
    Specifically, without a fully funded Agreement, there will be much
less certainty for irrigation water for farmers and ranchers, and
deliveries of water to our water-starved National Wildlife Refuges will
likely not improve. In addition, fisheries will likely not rebound as
much if improvements in fish habitat, flow variability, and water
quality are not attained, causing continued hardship for fishing
communities and Indian tribes. The number of jobs saved and jobs
created in the agriculture, fishing, and construction industries would
be less.
    Finally, several of the key provisions of the agreement rely on
certain levels of funding; not meeting these funding requirements could
undermine bargained-for-benefits and the implementation of these
agreements. For example, the permanent assurances that the Klamath
Basin Tribes will not make senior water rights calls against the
Klamath Reclamation Project depend on certain funding commitments (see
Sections 15.3.3 15.3.4 of the KBRA). Some of the benefits for the
federal government are also linked to funding. For example, the three
Klamath Basin Tribes that are parties to the KBRA have agreed to
relinquish and release claims against the United States when certain
conditions, including funding specific elements of the KBRA are
complete. The claims that would be relinquished and released are: 1)
all claims resulting from (a) water management decisions, including the
failure to act, or (b) the failure to protect, or to prevent
interference with, the Tribes' water or water rights, that relate to
damages, losses, or injuries to water, water rights, land, or natural
resources due to loss of water or water rights (including damages,
losses, or injuries to hunting, fishing, gathering rights or other
activities, due to loss of water or water rights); 2) all claims
relating to the negotiation, execution, or adoption of this Agreement
and the Hydroelectric Settlement and 3) all claims relating to the
litigation of the Klamath Tribes' water rights in the Klamath Basin
Adjudication (KBA) in Oregon in Cases 282 and 286; and if the OPWAS
under Section 16.2.1 is successful in resolving the contests in any
other case in the KBA, all claims relating to the litigation of such
other case; (see Sections 15.3.5, 15.3.6, and 15.3.7 of the KBRA).
                                 ______

      Responses of John C. Bezdek to Questions From Senator Heller
    Over the past couple months, California Senator Dianne Feinstein
and I have teamed up to navigate the Emergency Drought Relief Act
(S.2198) to Senate-passage. On the Thursday, May 22nd, that bill
cleared the Senate by unanimous consent.
    Sec.4(C)(7) of that bill requires the Secretary of the Interior to
pursue pilot projects thatwould facilitate water conservation efforts
in the basin states aimed at increasing levels atLake Mead and other
regional reservoirs in the Colorado River Basin.
    Question 1. If enacted, what types of projects can the Department
implement to improve levels at these important reservoirs? How can this
authority assist region drought relief? What can we realistically
accomplish?
    Answer. If enacted, Sec. 4(c)(7) of S. 2198 would provide the
Secretary with statutory authority, direction and prioritization with
respect to pilot projects that could facilitate water conservation by
assisting state efforts designed to increase water levels at Lake Mead
and Lake Powell, the primary regional storage reservoirs in the
Colorado River Basin. If enacted and funded, Reclamation would seek to
implement this section in partnership with states and other local
governments in a way that ensures the most beneficial and most cost-
effective projects are funded. Requiring a non-Federal cost share for
any Federal grants or funds provided, such as the Reclamation and
Colorado River partners' recent $11 million funding announcement under
the Colorado River System Conservation program to fund new Colorado
River water conservation projects, is often an effective way to ensure
these goals are met, and to stretch the impact of Federal funds
further.
    This authority could be used to facilitate voluntary water
conservation actions (e.g. pay existing water users to not use water)
in the Colorado River Basin and would build on previous efforts
undertaken in the Lower Basin of the Colorado River that have led to
considerable conservation and retention of water supplies that have
enhanced the elevation of Lake Mead. By enhancing system storage in
Lake Mead and Lake Powell the likelihood and severity of shortages in
the Lower Basin or disruptions of operations in the Upper Basin can be
partially reduced. Disruptions to recreational opportunities at Lake
Powell and Lake Mead National Recreation Areas could also be reduced if
these efforts are successful.
    Question 2. Many people believe the drought is primarily impacting
Las Vegas because of our dependence upon Lake Mead for southern
Nevada's water supply, however isn't it the case that if a shortage is
declared by the Secretary, the States of Arizona and even California
will suffer major water cuts?
    Answer. Depending on conditions and water availability in the Lower
Basin, it is correct that the States of Arizona, California and Nevada
could be subject to decreases in water allotment, and depending on the
extent of the shortage could all experience significant water
shortages. Under current operational guidelines, reductions in the
annual amount of water available for delivery to Lower Basin users
would be triggered if the projected January 1 elevation of Lake Mead is
at or below 1075' above sea level. A shortage condition is not
anticipated for calendar year 2015. However, as of August 2014, the
best available indication is that there is a 36% probability that a
Lower Basin shortage condition could occur in calendar year 2016. This
percentage estimate may have changed slightly since that date, but we
are confident that the probability remains significant.
    Question 3. What will happen if the basin states do not work
together to improve the water supply in the Colorado River?
    Answer. Although it is difficult to foreshadow with any certainty
the hydrologic conditions of future water years, there would be a
significant possibility that continued low water conditions could
trigger reductions in the annual amount of water available for delivery
to Lower Basin users. Under the Colorado River Interim Guidelines for
Lower Basin Shortages, signed by the Secretary in 2007, various water
elevations at Lake Mead trigger incremental reductions in water
deliveries to the Basin States. For example, at elevation 1075', water
deliveries to the lower Basin states would be reduced from 7.5 million
acre-feet to 7.167 million acre-feet, a reduction of 4.4%. At elevation
1050, water deliveries would be further reduced to 7.083 million acre-
feet, a total reduction of5.6%. At elevation 1,025 water deliveries
would be restricted to 7.0 million acre-feet, a total reduction of
6.7%.
    Under such shortages, further reductions in lake elevation would
partially be forestalled,depending on Colorado River inflows; however,
the Colorado River system would not be able to fully meet currently
scheduled water deliveries, and there would be significant diminishment
of system benefits to power generation, environmental, and recreational
purposes. Water managers and water users in the Colorado River Basin
have long recognized the benefit of adapting to and mitigating for the
impacts of shortfalls betweenwater supply and demand, and further
cooperation and communication throughout the Basin, among and between
Basin States, will be beneficial towards enhancing the reliability of
the system.
    In order to allow for management flexibility, the seven Colorado
River Basin States have recommended an operational program for the
creation and delivery of intentionally created surplus water. In
furtherance of this recommendation, numerous major water users within
the Lower Basin have identified their willingness, under specified
circumstances, to participate in such an operational program. Such a
program could help to make the most cost-effective use of water in the
basin and would likely partially mitigate against the most detrimental
effects of shortage--or low reservoir conditions at Lake Mead.
    Question 4. In an earlier version of the legislation, we
specifically included a provision that prohibited the Department from
utilizing the Upper Colorado River Basin Fund or the Lower Colorado
River Basin Development Fund to pay for the authorized projects. In
working with the Department, we ultimately determined this express
prohibition was not necessary. But I want to ask now that the bill that
has passed --- will the Department commit to not utilizing either of
the Basin Funds to fund authorized drought activities,without the
express, prior approval of the power customers, in accordance with the
intent of the revised bill?
    Answer. The Department recognizes the modifications that were made
to the bill during consideration in the Senate. It is our intent to
work within our existing authorities and practices of consultation and
concurrence with respect to funding any authorized drought activities.
The type of authorized activities would differ and be subject to the
distinct statutory provisions applicable in the Upper and Lower Basins.
While we do not anticipate any undertakings that would not garner the
support of key stakeholders, and would in fact be designed to protect
ongoing power operations, the particular types of approvals applicable
to any potential drought activities would depend on the proposed
activity, and would be undertaken in close consultation with, among
others, the affected states, power customers, Tribes and our colleagues
in the Western Area Power Administration.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------

               Statement of the Klamath Basin Task Force
                       report and recommendations
Summary of Findings and Recommendations
    In early July of 2013, Senators Wyden and Merkley, Congressman
Walden, and Governor Kitzhaber convened the Klamath Basin Task Force
``to resolve the water, power and other resource management issues in
the Klamath River Basin. . .'' They asked the Task Force to address
three issues:

          1. Develop a proposed resolution of remaining water
        management issues in the upper Klamath Basin.
          2. Address outstanding power issues for the Klamath
        Reclamation Project and the Upper Basin irrigators.
          3. Reduce the Federal costs of achieving long-term
        sustainability in the Klamath Basin.

    This introductory section summarizes the Task Force's findings, and
its recommendations for Federal legislation. The sections following the
introduction provide more detail on each issue.
                      upper basin water management
Findings
  <bullet> The Klamath Basin Restoration Agreement (KBRA) resolved
        some, but not all, water use issues in the basin. In
        particular, Section 16 of the KBRA anticipated an Off-Project
        Water Agreement between off-project irrigators and the Klamath
        Tribes and provided a framework for such an agreement. However,
        efforts to reach such an agreement had not succeeded at the
        time the KBRA was signed.
  <bullet> In March of 2013, the State of Oregon completed the
        administrative phase of the Klamath Basin (water) Adjudication.
        The adjudication was carried out for the purposes of
        determining pre-1909 water rights, as well as Federal reserved
        water rights. The adjudication confirmed most water right
        claims, including many of those made by the Klamath Tribes, the
        United States and the Klamath Reclamation Project. Until the
        administrative phase of the adjudication was completed, the
        State did not regulate water usage in favor of the claims.
  <bullet> Low snow pack and rainfall in the winter and spring of 2013
        led to low stream flows later in the year. In May, Governor
        Kitzhaber issued a drought declaration for Klamath County. In
        early June, the Klamath Project, the United States, and the
        Klamath Tribes all requested that water rights be regulated to
        protect senior water rights for the Klamath Reclamation Project
        and for the Klamath Tribes.
  <bullet> The Klamath Reclamation Project continued to receive water
        during the irrigation season in part because of the agreements
        contained in the KBRA between the Project water users and the
        Klamath Tribes. While water delivery to the Project was reduced
        as a result of the drought, owing to a combination of factors,
        overall agricultural production was not significantly affected.
  <bullet> In the upper Klamath basin (above Upper Klamath Lake),
        however, surface water uses were shut down beginning in June in
        order to protect senior water rights. As a result, agricultural
        production in the upper Klamath basin was reduced
        significantly.
  <bullet> The Water Working Group, a sub-group of the Task Force,
        negotiated an Agreement in Principle (AIP) that contains a
        detailed framework for resolving water, land management and
        economic development issues in the upper Klamath basin. The AIP
        is expected to be the basis for a final agreement, following
        input from affected communities.
Recommendations
  <bullet> Federal authorizing legislation for the Klamath should
        include authority to implement and fund as applicable all
        elements of the Water Use Program and the Riparian Restoration
        and Management Program described in the AIP, including:

    --Funding and authorization for the interim Water Use Program;
    --Authorization for appropriate federal agencies to participate in
            all appropriate aspects of the Final Upper Basin Water
            Agreement; and
    --Resolution of certain Federal and tribal water right claims and
            contests in the Klamath Basin Adjudication.

  <bullet> The U.S. Department of Agriculture, including the Forest
        Service and the Natural Resources Conservation Service, and the
        National Oceanic and Atmospheric Administration (NOAA), should
        participate in the Final Upper Basin Water Agreement.
                              power issues
Findings
  <bullet> Sustainable agriculture within the Klamath Reclamation
        Project and in the Off-Project area depends on affordable power
        as well as predictable levels of water supply. Unlike most
        other Bureau of Reclamation projects, the Klamath Reclamation
        Project does not have a source of federal power. Past
        contractual arrangements provided lower cost power On-and Off-
        Project, but those agreements have expired. Replacing those
        arrangements with new means to provide affordable power is
        critical to the economic sustainability of both the On-Project
        irrigators and the Off-Project irrigators and meeting purposes
        specified in Section 17.1 of the KBRA.
  <bullet> Recognizing the importance of affordable power rates, the
        KBRA includes, as a critical element, a Power for Water
        Management Program. The Program consists of three elements,
        each intended to help achieve the outcome of predictable,
        affordable power rates. The three elements are:

          An Interim Power Program designed to provide lower cost power
        while permanent programs are put in place;
    --A Federal Power Program designed to provide lower cost power from
            the Bonneville Power Administration (BPA) and the Western
            Area Power Administration (WAPA) to the Bureau of
            Reclamation for delivery in both the Project and (for BPA
            power) the Off-Project area; and
    --A Renewable Power Program designed to provide stable power costs
            through the development of renewable generation for Klamath
            irrigators (again, including both the On-and Off-Project
            Areas).

  <bullet> Federal legislation is required to fully implement all three
        Programs, both in terms of new authorizations and in terms of
        appropriations.
  <bullet> For the Federal Power Program, Federal legislation is
        required to authorize the Bureau of Reclamation to acquire
        Federal power for use by Off-Project irrigators. There is a
        deadline for requests for this power that is unlikely to be met
        unless Federal legislation is passed soon. There may be another
        opportunity after this date for Reclamation acquire BPA power
        to serve Off-Project irrigators, but that power is obtained by
        BPA at whatever the wholesale market price is at the time and
        is almost certain to be considerably more expensive than BPA
        Tier 1 power..
  <bullet> The Bureau of Reclamation has existing authority to acquire
        federally-generated power (from BPA and Western Area Power
        Administration) for distribution and delivery (by PacifiCorp)
        to Klamath Reclamation and On-Project irrigation loads.
        However, initial estimates of the cost of that power as
        delivered indicate that the cost savings to irrigators are
        unlikely to be as large as were estimated during the
        development of the KBRA.
  <bullet> The Federal Power Delivery Workgroup has developed a work
        plan and has begun implementing the tasks necessary for
        Reclamation to purchase power from BPA. These steps include a
        determination as to whether the power provided by BPA is likely
        to reduce Klamath irrigators' power costs significantly
        relative to current and projected rates without such an
        arrangement. At the same time, the Bureau of Reclamation is
        undertaking a comprehensive review of the most effective means
        of serving both On-Project and Off-Project loads. That review
        will examine multiple options, including conservation and
        efficiency, as well as new renewable generation. Together,
        these steps will be key in determining the future direction of
        the Power Program.
  <bullet> One potential form of renewable generation to be examined in
        more detail is the development of solar generation systems to
        serve Klamath irrigation loads. Included in this examination
        will be an evaluation of the use of the State of Oregon's net
        metering rules, which provide bill credits set at the utility
        retail rate for excess power generated by such systems.
  <bullet> Regardless of what methods or combinations of methods are
        used to return power costs to sustainable levels consistent
        with the KBRA, affordable power rates remain an essential
        element of the overall Klamath agreements
Recommendations
  <bullet> Federal authorizing legislation for the Klamath Settlement
        Agreements should include authority to implement and fund as
        applicable all elements of the Power for Water Management
        Program, including:

    --The interim power program;
          The renewable resource program (including conservation and
        efficiency);
    --Authority for Reclamation to serve Off-Project irrigators with
            low-cost electricity purchased from Bonneville; and
    --Authority for appropriate Federal agencies to participate in
            other means of achieving lower-cost power for On and Off-
            Project irrigators.

  <bullet> The authorization should include flexibility so as to not
        preclude realization of equivalent net power cost outcomes that
        are contemplated in the KBRA Power for Water Management Program
        by alternative means.
                         reducing federal costs
Findings
  <bullet> The new Federal authorizations for appropriations to
        implement the Klamath agreements total $250 million in 2014
        dollars.
Recommendations
  <bullet> The Federal legislation should include only the new
        authorities and the new authorizations for appropriations that
        are needed to implement the Klamath Basin Agreements.
  <bullet> The authorizing legislation should confirm that
        authorization for appropriation already exists for all but the
        specified line items in Appendix A [Federal Authorities
        memorandum and table] of this report. A comparable approach was
        used in Public Law 108-361, the CalFed Bay-Delta Authorization
        Act. In addition, the legislative history for the authorizing
        legislation should confirm the existence of these authorities
        for appropriations. As part of this approach, the congressional
        committees should consult with the Federal agencies regarding
        their existing authorities and reflect that information in a
        committee report.
  <bullet> The legislation should include provisions for an annual
        report on the progress in implementing the legislation,
        including a cross-cut budget showing the funding that was
        requested by the Administration and from other sources, and the
        funding that was provided.

    The Cost Review Workgroup has also conducted a review to identify
additional opportunities to reduce the Federal costs of implementing
the KBRA. The workgroup reviewed all of the KBRA programs and worked to
identify alternative funding sources that could reduce the need for new
Federal funding. The results of this review are described later in this
report.
                               background
    On July 3, 2013, Senators Wyden and Merkley, Congressman Walden,
and Governor Kitzhaber convened the Klamath Basin Task Force ``to
resolve the water, power and other resource management issues in the
Klamath River Basin. . .'' The letter to the Task Force participants
states in part:

          The current crises in the Basin require immediate attention,
        leadership, and constructive efforts of us all. Although the
        Basin has faced many of these challenges for some time, it is
        clear that now is the time to move for a comprehensive and
        lasting solution that protects the vast natural resources of
        the basin, while also providing the stability and certainty
        needed for the region's economy to continue to thrive.

          It is our expectation that the task force will work to
        address three tasks:

          1. Develop a settlement of water management issues in the
        upper Klamath Basin that results in:

                  <bullet> At least 30,000 acre feet of increased water
                inflows into Upper Klamath Lake through a voluntary
                program to idle water usage;
                  <bullet> Permanent resolution and protection of
                significant riparian areas in the Wood, Sprague, and
                Williamson basins, as well as other tributaries to
                Upper Klamath Lake, sufficient to produce the water
                quality and habitat improvement needed for fisheries;
                and
                  <bullet> Regulatory assurances for water and land
                uses in the Upper Basin, both in terms of a negotiated
                settlement of the exercise of state water rights, and
                Federal Endangered Species Act (ESA) and Clean Water
                Act (CWA) compliance.

          2. Work to address outstanding power issues for the Klamath
        Basin Project and the Upper Basin irrigators:

                  <bullet> It is crucial that an affordable and certain
                power supply is attained for both on project and off
                project irrigators.

          3. Work to reduce the Federal Costs:

                  <bullet> We want the task force to review specific
                ideas for reducing the costs to the Federal government
                of the overall package of Klamath Basin measures. This
                will require input from both Upper and Lower Basin
                participants.

          The outcomes we seek are sustainable fisheries and a
        sustainable level of farming and ranching in the Upper Basin,
        as well as power rate arrangements needed to maintain the on-
        project and off-project farming and ranching operations and
        support the ranching and farming families that are key to the
        area's economy.
          We expect the task force to build on the good work that has
        already been completed, and the agreements that have been
        reached by many of the parties involved. Your task is to
        develop recommendations on the remaining set of issues in the
        Basin.
          When the task force completes its work and reaches consensus,
        the Members of the Oregon delegation will use the group's
        recommendations as a basis for developing legislation to
        authorize those portions of the agreement that require Federal
        legislation. At that time, we will ask that all stakeholders
        support these legislative efforts.

    The Task Force also established four workgroups; their efforts are
described in this report. The Klamath Basin Task Force has held five
meetings in Klamath Falls, Medford, and Ashland, Oregon. A list of the
Task Force members is attached as Appendix B. These meetings have been
open to the public and all materials have been posted on the Oregon
Governor's Natural Resource Office website. For more information on the
Task Force please see: http://www.oregon.gov/gov/GNRO/Pages/index.aspx
    The Task Force did not address other water and land management
issues in the Klamath Basin that are important to some members of the
Task Force. These matters were outside the scope of the Task Force.
                      upper basin water management
    The three primary tributaries to Upper Klamath Lake (the Wood, the
Williamson, and the Sprague Rivers) serve as the main sources of water
for fisheries in the upper portion of the basin, while also supporting
several hundred farming and ranching operations. According to the
Oregon Water Resources Department (OWRD), there are approximately 500
water right holders in the upper basin. In addition to these water
rights, the Klamath Tribes and the United States claim water rights on
all three tributary systems, as well as the right to maintain certain
levels of Upper Klamath Lake, for instream purposes. The Klamath
Reclamation Project and its water users also claim rights to water in
Upper Klamath Lake for irrigation uses within the Project.
    In March of 2013, OWRD completed the administrative phase of the
Klamath Basin (water) Adjudication. The Adjudication confirmed most
water rights claims, including many of those of the Klamath Tribes and
those of the Klamath Reclamation Project. The rights confirmed for the
Klamath Tribes and the United States have the earliest priority dates
in the upper basin. As a result, in times of water shortage,
agricultural and other uses of water are likely to be regulated so that
senior rights are met. Regulation occurred in most of the upper basin
in 2013, beginning in June. As a result, irrigation for many
agricultural operations was shut off.
    Although there have been several efforts to settle water right
issues in the upper basin, none have succeeded to date. Even in the
KBRA, no upper basin water settlement was included, although the
agreement does contain the outlines for an Off-Project Water Agreement.
Upper Klamath Basin Agreement in Principle (AIP)
    Over the past six months, irrigators in the upper basin have been
meeting with the Klamath Tribes and the United States to attempt to
resolve water, land and economic issues in the upper basin. The parties
have reached an Agreement in Principle that is designed to accomplish
four objectives.

          a) To support the economic development interests of the
        Klamath Tribes;
          b) To provide a stable, sustainable basis for the
        continuation of agriculture in the Upper Klamath basin;
          c) To manage and restore riparian corridors along streams
        that flow into Upper Klamath Lake in order to achieve Proper
        Functioning Conditions permanently; and
          d) To resolve controversies regarding certain water right
        claims and contests in the Oregon Klamath Basin Adjudication.

    There are three main elements of the Upper Klamath Basin AIP:

          1) A Water Use Program designed to reduce consumptive water
        use in key reaches of the tributaries to Upper Klamath Lake, as
        well as to increase the volume of water coming into the lake--
        all in return for a significant reduction in the frequency and
        extent of water regulation. The AIP is designed to deliver at
        least 30,000 acre feet of additional water into Upper Klamath
        Lake, and is consistent with other Klamath agreements.
          2) A Riparian Restoration and Management Program designed to
        improve and protect riparian conditions along key reaches of
        the tributaries to Upper Klamath Lake; and
          3) An Economic Development component designed to create
        employment opportunities for the Klamath Tribes, including
        increased opportunities for exercise of tribal cultural rights.

    The Upper Klamath AIP will be developed into a final agreement
following input from community members. It is expected that the Final
Agreement will be completed early in 2014, so that elements requiring
Federal legislation can be incorporated into a bill being developed to
complete a comprehensive resolution of Klamath basin issues.
   affordable power for klamath reclamation project and off-project
                               irrigators
    Water and power issues are closely linked in the Klamath Basin.
Power rates for Klamath Reclamation Project and Off-Project irrigators
have increased significantly since 2006 when previously-existing fixed-
price contracts ended. Utility commissions in California and Oregon
provided a transition to rates based on the costs PacifiCorp incurs for
generation, transmission and delivery. This transition has
significantly increased the costs to irrigate crops, as well as the
cost to move water to wildlife refuges and from the Klamath Reclamation
Project to the Klamath River for downstream fisheries. Reduction of
power costs is critical to maintain efficient water management and the
viability of farming and ranching families, an important part of the
economy of the Upper Basin. Power costs are also key to the long-term
sustainability of some of the nation's most important wildlife refuges
and systems. The purposes of the Power for Water Management Program are
expressed in Section 17.1 of the KBRA.
    There are three elements to the Power for Water Management Program:

  <bullet> An Interim Power Program to provide funding to assist Upper
        Klamath Basin irrigators with their power costs while the long-
        term program is being developed. Implementation of this program
        for both Reclamation Project and Off-Project irrigators
        requires Federal legislation.
  <bullet> A long-term Renewable Power Program to develop renewable
        resources that would provide benefits to assist with future
        power costs and strengthen the local economy. This aspect of
        the Program could include consideration of conservation and
        efficiency measures, as well as a variety of types of renewable
        generation including wind, solar, biomass and geothermal which
        would likely provide revenues to partially offset power costs.
        Some forms of renewable generation could be distributed
        (including on-farm systems). Implementation of this program for
        both Reclamation Project and Off-Project irrigators also
        requires Federal legislation.
  <bullet> A Federal Power Program to provide lower-cost federally-
        generated power to On-Project and Off-Project irrigators. Under
        this element, Reclamation purchases electricity from the BPA
        and the Western Area Power Administration, and arranges for
        delivery through PacifiCorp's system.

    The final package will be dependent on what the best options are
for irrigators to realize affordable power costs through the long-term.
In addition, different approaches may be best-suited for particular
areas. In the end, the best solution may include a mix of Federal
power, renewable generation, and conservation measures.
                        affordable power issues
    The objective of the Power for Water Management Program in the KBRA
is to achieve a delivered power cost target level at or below the
average cost of delivered power for similarly situated Reclamation
irrigation and drainage projects in the region. Implementation of all
three elements described above--or actions resulting in equivalent
benefit to that assumed by the three elements--would contribute to more
affordable power. The Bureau of Reclamation is beginning a detailed
look at what elements would provide the largest long-term advantage in
reduced power rates. Initial estimates indicate that the cost-savings
from the Federal Power Program may not be as large as was estimated in
2009-2010.
    Without Federal legislation, the interim and long-term programs
cannot be implemented. Reclamation is currently working to purchase
low-cost Federal power to serve the Klamath Reclamation Project
(including the national wildlife refuges) under existing authority.
Reclamation needs new authority to purchase Federal power to serve Off-
Project irrigators. However, based on current information, the timing
of subscription for BPA Tier 1 power will make it difficult to access
the lowest-cost Federal power for Off-Project irrigators. Higher-cost
power may be available from BPA at a later time.
                        delivering federal power
    Task Force activities have focused on the Federal Power Program,
recognizing that enactment of authorizing legislation is essential to
be able to move forward at all with the other two elements. A Federal
Power Delivery Workgroup has been meeting to develop and implement a
plan to deliver Federal power to the Bureau of Reclamation. The
workgroup is comprised of: the Department of the Interior, Bureau of
Reclamation, Bonneville Power Administration, Western Area Power
Administration, PacifiCorp, the Klamath Water Users Association, and
the Klamath Water and Power Agency.
    Reclamation is working with Upper Basin irrigators to assist in
identifying their potential loads for the Federal Power Program.
Reclamation is pursuing whether Bonneville will accept the projected
Off-Project loads in the July 2014 filing based on expected passage of
Federal legislation authorizing Reclamation to serve planned Off-
Project loads.
    The Federal Power Delivery Workgroup has developed a work plan and
is implementing the tasks necessary for Reclamation to purchase power
from Bonneville to serve the Oregon portion of the Project beginning in
October 2015. The Workgroup is also working with Western on a work plan
to serve the California portion of the Project.
    One of the key tasks is to develop estimates of the cost of
electricity from the Federal Power Program compared to continuing
service from PacifiCorp of non-federal power. This information will be
important in evaluating whether the federal power element should be a
significant aspect of a long-term program, or whether other
alternatives should be more actively pursued instead. Until this
information and the details of the potential savings from the Interim
Power Program and long-term Renewable Power Program are available,
there is significant uncertainty about future costs for both
Reclamation Project and Off-Project irrigators.
    Under Bonneville's subscription and contracting procedures,
Reclamation must determine how much power (based on load) it will buy
from Bonneville and finalize a power sales contract by July 1, 2014 if
it wants to take delivery of power by October 2015. That initial
contract load amount is used to set what is called a ``High Water
Mark''. The High Water Mark is the maximum amount of power that
Reclamation can buy at Bonneville's Tier 1 rate.
    If Reclamation receives authority to serve Off-Project irrigators
later than necessary to include Off-Project irrigators in setting the
High Water Mark, it would be able to purchase additional power. Such
additional power would be sold at Bonneville's Tier 2 rate, which
reflects Bonneville's incremental cost to serve the load. In other
words, the Tier 2 BPA rate is obtained by Bonneville at a wholesale
market price. There is a significant difference in these power costs;
the average cost for the Tier 1 rate is currently 3.3 cents per
kilowatt hour; the average cost of the Tier 2 rate is about 4.0 cents,
which also is subject to change due to market forces (these are
wholesale power costs and do not include transmission, distribution, or
administrative costs).
    To implement the Federal Power Program, PacifiCorp will need
approval from the Oregon and California public utility commissions.
This approval will require a demonstration that the resulting proposed
rates to deliver Federal power are fair, just and reasonable and do not
shift costs to other PacifiCorp customers.
              upper basin power workgroup recommendations
    The Upper Basin Power Workgroup was comprised of irrigators in the
Upper Basin and representatives of the Klamath Water Users Association,
Klamath Water and Power Agency, and Reclamation. The Workgroup reached
consensus on one recommendation:

  <bullet> Federal legislation is needed to implement the interim and
        long-term Power for Water Management Programs to provide
        affordable power to both Reclamation Project and Off-Project
        irrigators. Federal legislation is also need to provide Federal
        power to Off-Project irrigators. The Workgroup supports the
        enactment of this legislation.

    The Upper Basin Work Group has also made administrative
recommendations to broaden the interim eligibility criteria for the
Federal Power Program.
                         reducing federal costs
    The Cost Review Workgroup has focused on two efforts: 1)
recommendations to the congressional delegation on the new
authorizations for appropriations that would be needed to implement the
Klamath Basin Agreements; and 2) identification of additional
opportunities to reduce the Federal costs of implementing the Klamath
Basin Agreements.
                   authorizations for appropriations
    After consultation with congressional staffs and others, the Task
Force recommends that the legislation should focus on the new
authorities that are needed to implement the Klamath Basin Agreements.
The Federal agencies identified existing laws that authorize most of
the programs in the Klamath agreements. The Federal agencies also
identified Klamath programs that require new authority. Although
Federal legislation is required to authorize certain actions
contemplated under the KHSA, potential dam removal would be funded from
non-Federal sources.
    Based on information provided by the federal agencies, the programs
that require new authorizations for Federal appropriations are the On-
Project Plan, development of the Water Use Retirement Plan, remedy for
ground water impacts associated with On-Project Plan, development and
implementation of the Water Use Retirement Program, the Interim Power
Sustainability Program, the Energy Efficiency and Renewable Resources
Program, authority for Reclamation to serve Off-Project irrigators with
the Federal Power Program, authority for Reclamation to include Off-
Project irrigators in the Renewable Power and Engineering Plan, the
Drought Plan Restoration Agreement Fund, the Off-Project Reliance
Program, and the Off-Project portion of the Interim Flow and Lake Level
Program. The new authorizations for appropriations total $250 million
over fifteen years in 2014 dollars Appendix C [Federal Authorities
memorandum and Table].
                         reducing federal costs
    The workgroup also reviewed all of the Klamath programs to identify
cost reductions and alternative funding that could reduce the need for
new Federal funding. The workgroup began by reviewing the cost
reductions adopted by the Klamath Basin Coordinating Council (KBCC, a
group formed by KBRA parties to facilitate and implement their
agreement) in 2011. Those cost reductions lowered the ten-year cost
estimate for implementing the KBRA from $970 million to $647 million
(in 2007 dollars); this was 33 percent reduction. The 2011 review also
identified $550 million in matching funds from the states of California
and Oregon and customers of PacifiCorp. These non-federally funded
activities are in addition to the cost estimates for Federal funding of
the KBRA. A copy of a report on those cost reductions and non-federal
funding is on the KBCC website: www.klamathcouncil.org. The cost
reductions and additional funding to reduce Federal funding in this
report are in addition to those made in 2011.
    The workgroup has adjusted all of the KBRA costs to 2014 dollars.
This increased the total 2011 estimates from $647 million to $750
million for 2015 through 2024. The Cost Review Workgroup focused on ten
years of costs because this is the time frame used by the Congressional
Budget Office. The Federal agencies have identified $51 million in
Federal expenditures that have been made that have the effect of
carrying out elements of the Klamath Basin Agreements under existing
authorities and another $10 million estimated for Fiscal Year 2014.
    The Federal agencies have also identified ongoing Federal base
program funding for actions specified in the Klamath Agreements and
made estimates that anticipate future funding would be at similar
levels to historical base funding; those estimates total $107 million
over ten years (the ongoing base funding estimates do not include 2013
program reductions and sequestration). The workgroup identified
additional reductions in the Fisheries Reintroduction Program totaling
$5 million. Together, these changes reduce the total new Federal
funding required by $173 million.
    The Task Force has also identified several new sources of funding
for the Klamath Basin Agreements that could reduce the amount needed to
be appropriated to carry out the Klamath programs. These include
additional funds from the states, Federal off-budget funds, and private
foundation funding. Replacing Federal funding with these other sources
will require further work by the KBCC.
    The first new source of funding is from the State of California. If
the proposed California Water Bond passes, and not all of the funding
in the bond for the Klamath Basin is required for dam removal costs,
the California Natural Resources Agency supports use of up to $50
million of those funds for restoration projects on the California side
of the border. The second new source of funding is the State of Oregon.
Oregon has committed an additional $12 million from the Oregon
Watershed Enhancement Board for restoration work in Oregon through a
Strategic Investment Program commitment. In addition, private
foundation funding is expected to total on the order of $10 million.
Together, these additional sources total approximately $72 million.
Finally, Federal off-budget funds from the Reclamation water rights
settlement fund, totaling approximately $50 million, have been
identified by Reclamation. Due to the priority for use of the funds in
the act that established the Fund and the currently anticipated demands
upon the Fund, the availability of annual increments of the $50 million
is not expected to begin before FY 2025 (i.e., may not be available
within the first ten years).
    In summary, cost reductions made in 2011 brought the ten year total
spending for Klamath restoration to $750 million. The additional
recommended cost reductions, spending already incurred or anticipated
as part of base programs, together with additional funding described
above will reduce the amount of new Federal funding required to
implement the Klamath Basin Agreements to $505 million in 2014 dollars;
this is an additional reduction of $245 million, or 33 percent. The
funds from the Reclamation water rights settlement fund would reduce
other Federal costs after 2025.
    These Task Force recommendations do not alter the bargained for
benefits in the KBRA, including amendments adopted in 2012 that provide
for additional reviews for changes that affect the Fisheries or Water
Management Programs, and that clarify the roles of the tribes and other
fish managers in implementing the Fisheries Program. The Task Force
recommends that the KBCC incorporate these changes in a revision to the
cost estimates to implement the Klamath Basin Agreements. In addition,
it is recognized that the KBCC will continue to refine cost estimates
on an ongoing basis, as provided in the KBRA. This may result in a
degree of adjustment, up or down, in estimates of costs needed to
complete any individual element, based on increased knowledge.
                                 ______

            Statement of the Conservation and Fishing Groups
    American Rivers, California Trout, Trout Unlimited, Pacific Coast
Federation of Fishermen's Associations, the Institute for Fisheries
Resources, Salmon River Restoration Council, Sustainable Northwest and
the Northern California Council of the Federation of Fly Fishers file
this statement in support of S. 2379, the Klamath Basin Water Recovery
and Economic Restoration Act of 2014.
    We are very grateful to Senator Wyden, Senator Merkley, Senator
Feinstein, and Senator Boxer for bringing this important legislation
forward. We respectfully request that this Committee favorably move
this legislation this year.
    On June 20, 2013, this Committee held a hearing on the Klamath,
with a focus on the Klamath Agreements signed in 2010. Following that
hearing, Senators Wyden and Merkley, Oregon Governor Kitzhaber, and
Representative Walden convened the Klamath Task Force to address three
issues not fully resolved by these agreements: a water rights
settlement for the Upper Basin, a significant reduction in the proposed
federal budget for implementation of the Klamath Basin Restoration
Agreement, and affordable power for irrigation. That task force reached
consensus on solutions for these issues in December 2013. And in April
2014, ranchers in the Upper Basin, the Klamath Tribes, and the U.S. and
Oregon signed a water rights settlement, the Upper Klamath Basin
Comprehensive Agreement. We enthusiastically support this agreement,
the focus of the hearing today, because it sets aside differences in
favor of advancing the common good in the Upper Basin.
    The water resources of the Klamath Basin as a whole have
significant national value and federal interest. The Klamath
Reclamation Project, authorized in 1905, is one of the oldest in the
Reclamation program. Its 3,800 jobs in farming and ranching today
produce more than $560 million annually in economic value,\1\ including
some of the world's best potatoes, horseradish, mint, and beef. There
are six National Wildlife Refuges in the Basin, the first dedicated by
President Theodore Roosevelt in 1908. These are among the most
productive waterfowl habitats in the Pacific Flyway,\2\ supporting 80
percent of the migratory waterfowl and the largest population of bald
eagles in the lower 48 states.\3\ The Forest Service administers six
National Forests which are more than half of the land in the basin,
plus the Klamath National Wild and Scenic River. The salmon fisheries
of this basin are the third largest in the Lower 48\4\ and today
support commercial fishing which produces $32 million annually in
economic value.\5\ There are six federally recognized tribes which
occupy their time-immemorial lands and waters.
---------------------------------------------------------------------------
    \1\ U.S. Department of the Interior, Bureau of Reclamation,
Economics and Tribal Summary Technical Report (2012), p. 2-26.
    \2\ U.S. Department of Interior and U.S. Department of Commerce,
Klamath Dam Removal: Overview Report for the Secretary of Interior
(2012), pp. 58, 321 - 324; Dave Mauser, U.S. Fish and Wildlife Service,
Effects of the Klamath Basin Restoration Agreement on Lower Klamath,
Tule Lake, and Upper Klamath National Wildlife Refuges (2012), p. 9.
    \3\ Overview Report, p. 58.
    \4\ Overview Report, p. 58.
    \5\ Economics and Tribal Summary Technical Report, pp. 2-44 - 2-46.
---------------------------------------------------------------------------
    Unfortunately, in most years, there isn't enough water in the
Klamath River Basin for all legal uses. Over the past century, federal
and state laws have regulated individual uses in a manner that has not
prevented significant shortages. These shortages have rotated between
farming and fisheries. The drought of 2013 was a true crisis for Upper
Basin ranchers, and today's historic drought in the region could make
2014 even worse. Litigation and political conflict have been a constant
for the water resources in the Klamath Basin.\6\ If we continue to
muddle through, the future of this basin will be more water shortages,
more litigation, and associated hardships.
---------------------------------------------------------------------------
    \6\ Congressional Research Service, Klamath River Basin: Background
and Issues (Report 7-5700) (2012), p. 1.
---------------------------------------------------------------------------
    Diverse stakeholders gathered in 2004 to answer the question: ``Can
we agree to a better future?'' We held hundreds of meetings across a
six-year period, in the face of a widespread view that we would
certainly fail. After hard compromises, more than forty of these
participating stakeholders signed the Klamath Agreements.
    Why did we sign the Klamath Basin Restoration and Hydropower
Agreements in 2010? The Klamath Agreements are the first-ever
comprehensive program for management of these water resources at a
basin scale. Implementation will restore sustainable water supply for
all beneficial uses. The 2010 agreements, coupled with the 2014 Upper
Basin Agreement, will provide a better future for the many communities
in this extraordinary basin.
    To achieve that goal, the signatory parties committed to
unprecedented cooperation to implement fundamental changes in current
management arrangements over a 50-year term. The parties making these
commitments, subject to Congressional authorization, include: the
United States, the States of California and Oregon, three of the four
participating tribes, Reclamation contractors and many upstream
ranchers, commercial fishermen, PacifiCorp, and other stakeholders.
    The Klamath Reclamation Project will be modernized. The commitments
and improvements will reduce river diversions, improve irrigation
techniques, prevent groundwater overdraft, and prepare for drought and
emergency. Tribes will resolve their trust claims against the Project
and the United States upon performance of these and other measures. In
turn, Upper Basin ranchers may elect to voluntarily lease some of their
water for release for the benefit of native fishes in downstream Upper
Klamath Lake. In consideration, tribes will not make calls against
junior water rights. The future will be far more secure for these farms
and ranches.
    The National Wildlife Refuges in the basin will receive a lifeline.
For the first time, these refuges will have a reliable water supply.
The authorized purposes of the Klamath Reclamation Project will be
expanded to permit this use. Refuges will receive an adequate supply 88
percent of the years under the Klamath Agreements, versus 12 percent
today.\7\ These measures will enhance habitat in these six refuges.
Wildlife viewing and hunting, now at 89,000 visits per year, will
increase substantially--hunting by nearly 50 percent.\8\
---------------------------------------------------------------------------
    \7\ Overview Report, pp. 321 - 324.
    \8\ Edward Maillett, U.S. Fish and Wildlife Service, Refuge
Recreation Economics: Technical Report for the Secretarial
Determination on whether to Remove Four Dams on the Klamath River in
California and Oregon (2011), pp. 25-26 (comparing 50th percentile
scenarios).
---------------------------------------------------------------------------
    The salmon fisheries in this basin will be restored to good
condition. These have declined more than 90 percent over this
century,\9\ resulting in periodic limitations on commercial catch from
Cape Falcon, Oregon to Monterey, California under the Pacific Fishery
Management Council's weak-stock management rules.\10\ Under the Basin
Agreement, these and other native fisheries will receive enough clean
water for spawning and rearing, due to reduced diversions by the
Klamath Reclamation Project and Upper Basin ranchers. That agreement
also establishes the first comprehensive program to address all non-
flow stressors from the mountains to the sea. PacifiCorp's power-only
dams, which have blocked fish passage to more than 420 miles of
spawning habitat\11\ since 1918, will be removed. The economic value of
commercial and ocean sport fishing will increase by $185 million over
the term of the Klamath Agreements,\12\ as these fisheries recover--
salmon populations nearly doubling.\13\
---------------------------------------------------------------------------
    \9\ Overview Report, pp. 4, 58.
    \10\ Cynthia Thomson, National Marine Fisheries Service, Commercial
Fishing Economics: Technical Report for the Secretarial Determination
on whether to Remove Four Dams on the Klamath River in California and
Oregon (2012), pp. 7-9.
    \11\ Overview Report, p. 14.
    \12\ Economics and Tribal Summary Technical Report, p. ES-4;
Commercial Fishing Economics, p. 30.
    \13\ Overview Report, p. 17.
---------------------------------------------------------------------------
    We respectfully request that Congress enact statutory authorities
to implement certain measures necessary for the comprehensive program,
as provided for in S. 2379. For example, National Wildlife Refuges will
be authorized as a new purpose of the Klamath Reclamation Project.
Another authority will permit the Interior Secretary, rather than the
Federal Energy Regulatory Commission, to decide whether removal of
PacifiCorp's four dams is in the public interest. According to the
Public Utilities Commissions of California and Oregon (PUCs), dam
removal under the conditions specified in the Hydropower Agreement will
be less costly and risky for power customers than relicensing under the
Federal Power Act.\14\ The PUCs approved PacifiCorp's application for a
2 percent rate surcharge to generate $200 million for dam removal, and
no federal funds will be used.
---------------------------------------------------------------------------
    \14\ Oregon Public Utilities Commission, Order No. 10-364 (2010),
pp. 8-13; California Public Utilities Commission, Decision 11-05-002
(Approving a Rate Increase for PacifiCorp Pursuant to Klamath
Hydroelectric Settlement Agreement) (2011), pp. 11-13; Overview Report,
p. 42.
---------------------------------------------------------------------------
    Implementation of the Basin Agreement involves proposed new funding
authorizations of $250 million over the next 15 years, taking into
account existing authorizations for ongoing federal programs.\15\ Is
that a fiscally prudent investment? The Basin Agreement will avoid
substantial federal liabilities under tribal trust doctrine, resulting
from near loss of the fisheries which were essential to tribal
sustenance, culture, and religion. It will also reduce the need for
emergency relief resulting from water shortages. In the past decade,
such relief for farmers or fishermen averaged $17 million and reached
as high as $60 million in a single year.\16\
---------------------------------------------------------------------------
    \15\ See Klamath Task Force Final Draft Report (Dec. 2013), pp. 4,
11-13. See also CRS, Klamath River Basin, p. 26; Overview Report, p.
218.
    \16\ CRS, Klamath River Basin, p. 10.
---------------------------------------------------------------------------
    Most importantly, the future of farming and fishing communities in
this basin will be much more secure. Even in the face of water
shortages, these communities produce economic value each year
comparable to the entire 15-year budget proposal under the Basin
Agreement. That value will increase substantially through this proposed
investment. All told, the benefit to cost ratio for Klamath Agreement
implementation is expected to be at least 8.7 to 1 and create or
sustain over 4,000 jobs.
    This Committee is rightly known for your pragmatic and bipartisan
approach to resources management. The Klamath Agreements are an
unprecedented opportunity for this Committee and Congress to help local
communities resolve these water shortages and restore the
sustainability of fishing, farming, and tribal uses in the Klamath
Basin.
    Thank you for the opportunity to share our views on these
Agreements and the historic legislation that will implement them for
the benefit of local communities throughout Oregon and California.
Submitted on behalf of: American Rivers, California Trout, Trout
Unlimited, Pacific Coast Federation of Fishermen's Associations,
Institute for Fisheries Resources, Salmon River Restoration Council,
Sustainable Northwest, Northern California Council of the Federation of
Fly Fishers
                                 ______

        Statement of the Hoopa Valley Tribal Council, Hoopa, CA
     hoopa valley tribe decries new bill to terminate indian rights
    ''The Hoopa Valley Tribe is shocked and disappointed,'' said
Chairwoman Danielle Vigil Masten, ``that the so called `Klamath Basin
Water Recovery and Economic Restoration Act of 2014' introduced by
Senators Feinstein, Boxer, Merkley, and Wyden would effectively
terminate water and fishing rights of our Tribe.''
    S. 2379, introduced on May 21, 2014, to ratify three lengthy
Agreements negotiated between farmers, PacifiCorp, federal agencies,
and three tribes, has gotten a hearing. The Agreements call for new
federal appropriations of $900 million and unnecessarily link tribal
water rights in the Klamath River to decommissioning of four obsolete
hydroelectric dams owned by PacifiCorp.
    ``It is tragic that the Administration feels that Indian water
rights must be sacrificed, and Indian programs cut back, in order for
PacifiCorp's owned dams to be removed. We know that the regular Federal
Energy Regulatory Commission licensing process leads to dam removal in
situations such as this, as shown by the removal of Condit Dam on the
White Salmon River in 2011,'' said Chairwoman Masten.
    Chairwoman Masten said the bill directs the Secretary to cut off
senior water rights of the Tribe to Klamath River water and fish in
California in favor of water diversions for irrigation in Oregon.
``Fish need water. The little water we get under this bill will
jeopardize on going fishery restoration in the Klamath and Trinity
Rivers,'' said Chairwoman Masten. Under the bill, the existing legal
obligation of the United States to protect water needed for fish
restoration in California will be subordinated to the priority given to
water diversions for irrigation in Oregon.
    ``We made it clear to everybody that we are not going to sit still
for the government doing this against our interests,'' Hoopa Fisheries
Director Mike Orcutt said. ``There's not enough water, and there hasn't
been.'' ``It is ironic that Senator Feinstein has co sponsored this
bill when her California drought bill, S. 2198, points to the existing
shortage of water in California. California Central Valley interests
are already in court to stop the use of water required to make up for
the shortfalls due to the excessive Oregon water diversions authorized
by this bill,'' said Mr. Orcutt.
    For over 20 years, the Hoopa Valley Tribe has worked to restore
salmon of the Trinity River, the Klamath's largest tributary, and in
1992 obtained legislation mandating that the fishery restoration work
be completed. That restoration work is jeopardized by the Klamath
Agreements and proposed legislation, Mr. Orcutt pointed out. ``We are
optimistic that the Senate will not approve these Agreements at the
expense of our treaty rights,'' said Mr. Orcutt. Our detailed analysis
of the bill follows.
            summary of new klamath agreements bill, s. 2379
    On May 21, 2014, Senator Ron Wyden introduced S. 2379, the
``Klamath Basin Water Recovery and Economic Restoration Act of 2014.''
Senators Feinstein, Boxer and Merkley are the only co-sponsors thus
far. This bill adversely affects the Hoopa Valley Indian Tribe, through
whose Reservation the Klamath River flows in California. No similar
bill has been introduced in the House of Representatives yet.
    S. 2379 was referred to the Committee on Energy and Natural
Resources. This bill is longer (64 pages) than the failed bills
introduced in 2011 by Senator Merkley and Congressman Thomson (43
pages) principally because it adds provisions for the new Upper Klamath
Basin Comprehensive Agreement.
    The Hoopa Valley Tribe has many concerns regarding the Bill and
will present detailed changes and explanations as soon as possible.
Here is a summary of the bill:
Section 1. Short title.
Section 2. Definitions.
    The Agreements addressed by the bill include the Klamath Basin
Restoration Agreement (KBRA) (approximately 200 pages in length), the
Upper Klamath Basin Comprehensive Agreement (UKBCA) (approximately 100
pages in length), and the Klamath Hydroelectric Settlement Agreement
(KHSA) (approximately 100 pages in length). The full text of the
Agreements is found at http://klamathrestoration.gov.
Section 3. Authorization, Execution and Implementation of Settlement.

          (a) Like S. 1851 (the 2011 bill), the new bill provides that
        the settlements are ``authorized, ratified, and confirmed,''
        except to the extent modified by this Act.
          (b) As ratified, the Secretaries of Commerce, Agriculture,
        and Interior must promptly implement the KBRA, KHSA, and UKBCA.
        Signing of the Agreements is deemed to comply with NEPA,
        despite the impact on the Klamath River in California resulting
        from the guaranteed irrigation diversions in Oregon provided in
        the KBRA. (See KBRA Sec. 15.1.1.B and App. E 1.)
          (d) In ``implementing'' the Agreements, the Secretaries shall
        comply with NEPA, the ESA and other statutes.
          (e) The Secretary of the Interior will publish a notice in
        the Federal Register when the KBRA is fully implemented (or
        approximately in 2022) and when PacifiCorp's four dams have
        been removed (or the KHSA terminates). Law suits challenging
        whether the notice should have been published must be filed
        within one year after publication.
          (g) The Act does not alter the authority of any tribe of the
        Klamath Basin ``to exercise any water rights the Indian tribes
        hold.'' The KBRA, however, does diminish the duty of the United
        States to protect those Indian water rights: it terminates the
        Government's duty to provide sufficient water for fish in the
        Klamath Basin if that requires more than the water remaining
        after the irrigation diversions, which will have priority.
        Under existing law, the U.S. Bureau of Reclamation is obligated
        to ensure that irrigation operations do not interfere with the
        Tribes' senior water rights. This obligation is changed by the
        KBRA and the Act, which create a new priority for irrigation
        withdrawals of 378,000 acre feet per year in Oregon, regardless
        of the effect on fish restoration downstream. If, after those
        irrigation withdrawals too little water remains for fish, then
        the United States will not protect the Indians' fishing rights
        but will enforce the priority for irrigation diversions. See
        Sec. 5(f) below. These provisions are much like those in S.
        1851.
          (h) Water rights are not affected ``except as specifically
        provided'' in the Agreements. The KBRA does diminish the
        authority and duty to protect federal water rights of tribes
        downstream of the irrigation project.
          (j) This Act does not permit any person or entity ``not a
        party to the Settlements'' to sue on a claim to enforce the Act
        or the settlements.
          (l) This Act does not affect the Endangered Species Act or
        Clean Water Act or certain other federal acts. This is much
        like S. 1851. The provision is misleading because the KBRA
        requires parties to that Agreement to support water diversions
        and follow procedures to obtain approval under the ESA for
        those diversions, despite the effect on fish. See KBRA Sec.
        21.3. Since the KBRA establishes no target salmon run sizes or
        harvest goals, its success cannot be measured. See KBRA Sec.
        10.1.2, 10.2.2.
          (m) Sovereign immunity is not waived. This makes it harder to
        sue regarding impacts of the Settlements.
Section 4. Klamath Project Authorized Purposes.
          (a) This adds ``fish and wildlife purposes'' to the purposes
        of the Klamath Irrigation Project. However, those purposes are
        subordinated to the irrigation purposes and ``shall not
        adversely affect the irrigation purpose of the Klamath
        project.'' This is substantially identical to Section 105 of S.
        1851.
          (c) Revenues from leasing of Tule Lake and Lower Klamath
        National Wildlife Refuge lands for commercial farming will be
        distributed in the same way as described in S. 1851. This
        unusual direct spending arises from the unique allowance of
        leasing out wildlife refuges for commercial farming, lands that
        were originally set apart for wildlife purposes only.
Section 5. Tribal Commitments; Release of Claims.
          (a) The Klamath Tribes' commitments and releases are
        authorized, just as in Section 106(a) of S. 1851, except that
        this also covers the UKBCA. No further tribal action is needed.
          (b) The Karuk and Yurok tribes' waivers and releases are
        authorized and confirmed as effective and binding.
          (c) Permanent release of claims by Party Tribes against the
        United States does not occur until various sections of the KBRA
        (relating to funding and dam removal) are satisfied. However,
        even before the releases become permanent, the signatory
        tribes' assurances of non interference with diversion of water
        for the Klamath Reclamation Projects are in effect. See KBRA
        Sec. 15.3.8.B.
          (e) Tolling of claims. The six-year statute of limitations
        for claims relating to the tribes' releases does not start
        until publication of a notice described in the KBRA or until
        December 1, 2030. This is the same as S. 1851.
          (f) Actions of the United States as Trustee. The United
        States is authorized to make the commitments provided in the
        KBRA in its capacity ``acting as trustee for the federally
        recognized tribes of the Klamath Basin and the members of such
        tribes.'' This authorizes the reduction in federal trust
        responsibility to Basin Tribes that did not sign the
        Agreements. This is like Section 106(f) of S. 1851.
        Specifically, KBRA Sec. 15.3.9 provides the assurances of the
        United States ``that it will not assert: (i) tribal water or
        fishing rights theories or tribal trust theories in a manner,
        or (ii) tribal water or trust rights, whatever they may be, in
        a manner that will interfere with the diversion . . . of water
        for the Klamath Reclamation Project.'' Existing law requires
        the United States to protect water needed for tribal fisheries.
          (g) Judicial review of the Secretary's decision concerning
        whether the tribal relinquishment and releases of claims have
        become effective is available under the Administrative
        Procedure Act. This is like Section 107 of S. 1851.
          (h) Effect of Section. This section of the new bill does not
        affect the United States' ability to act for a tribe outside
        the Klamath Basin, nor its ability to act for tribes inside the
        Basin ``in accordance with the Agreements,'' nor as required by
        certain statutes such as the Clean Water Act and ESA. In other
        words, the Agreement approved by the Act may (and do) affect
        the United States' ability to act for tribes inside the Klamath
        River Basin, such as the Hoopa Valley Tribe.
Section 6. Water and Power Provisions.
    This inserts a section into the Klamath Basin Water Supply
Enhancement Act of 2000, Pub. L. 106 498, by adding relevant
definitions and authorizing the Secretary of the Interior to ``carry
out any activities,'' including agreements or contracts consistent with
the KBRA or UKBCA or to arrange for delivery of federal power to limit
the cost of power use to manage water. This new authority is like the
provision in Senator Feinstein's Drought Relief Act, S. 2198, before it
was amended to remove these provisions concerning Klamath to which the
Hoopa Valley Tribe and others had objected.
Section 7. Klamath Tribes Tribal Resource Fund.
    This establishes a fund for implementing the UKBCA. Subsection (f)
prohibits per capita distribution of any part of the fund or revenue
from any water use contract. Subsection (k) authorizes $8 million per
fiscal year, not to exceed a total of $40 million to carry out this
Section 7. There is no counterpart to this in S. 1851 because the UKBCA
had not yet then been signed.
Section 8. Hydroelectric Facilities.
          (a) Secretarial Determination. Like Section 202 of S. 1851,
        this provides that the Secretary of the Interior will determine
        whether to proceed with dam removal pursuant to the KHSA. This
        overrides the usual operation of the Federal Power Act, under
        which a licensee can make a business decision whether to remove
        or retrofit facilities in order to comply with modern licensing
        conditions.
          (b) Facilities Removal. Like Section 203 of S. 1851, this
        allows the Secretary to proceed with dam removal if the States
        of California and Oregon concur, if non federal funds are
        available, and if the KHSA has not terminated.
          (5) Like S. 1851, this requires the Federal Energy Regulatory
        Commission to issue annual licenses authorizing PacifiCorp to
        continue to operate the dams until they transfer title to the
        dam removal entity. It also provides for a ``stay'' of
        licensing proceedings while the KHSA remains in effect. This
        gives legal approval to the informal stay of proceedings which
        has been in effect since 2006 because of the Klamath
        agreements.
          (c) Liability Protection. This provides even broader
        liability protection to PacifiCorp for any harm relating to the
        dams than did Section 205 of S. 1851. This provision would
        supersede the normal provisions of the Federal Power Act
        concerning the potential liability of licensees.
          (d) Facilities Not Removed. Like S. 1851, this protects the
        Keno Dam from removal, addresses planned discontinuation of the
        East Side and West Side generators at the Link Dam, protects
        Fall Creek Dam, and addresses Iron Gate Hatchery, which
        transfers to the state of California.
Section 9. Administration and Funding.
          (a) Pursuant to the KBRA, this directs the Secretary to
        ``give priority to qualified Party tribes in awarding grants,
        contracts, or other agreements for the purposes of implementing
        the fisheries programs described in [KBRA].'' This apparently
        overrides existing contracting rights of non signatory tribes.
          (g) Budget. This does not authorize new appropriations for
        KBRA plans, but merely provides that the ``budget of the
        President shall include such requests as the President
        considers to be necessary for the level of funding for each of
        the Federal agencies to carry out the responsibilities of the
        agencies under the Settlements.'' It also directs OMB to submit
        ``an interagency budget cross cut report'' showing funding
        requested. The reference in S. 1851 to Appendix C 2 of the KBRA
        (the table showing approximately $1 billion is needed to carry
        out KBRA plans) has been omitted. Nevertheless, the amounts
        anticipated for KBRA purposes, to the extent they are
        reallocated by federal agencies, will reduce funds for existing
        conservation and restoration programs. (h) Report to Congress.
        Annually, when the President's budget is submitted, the
        Secretaries shall submit a report that describes the status of
        implementation, expenditures, water deliveries to the Project
        and the Refuges, and the status of achieving the goals of
        ``sustainable agriculture production'' and ``the goal of
        supporting the economic development of the Party tribes.''
                                 ______

                      Statement of the Karuk Tribe
    The Karuk People have lived along the middle Klamath River for time
immemorial, thriving on the natural bounty of the Klamath Basin.
However; for the past 150 years the Karuk have struggled against the
forces of genocide and assimilation as miners, loggers, irrigators, and
dam builders have steadily degraded the Klamath's ecosystem putting
Klamath River fisheries, and Karuk culture, at risk.
    Despite the best efforts of colonial invaders to completely
eradicate our People or else fully assimilate us into their culture,
the Karuk remain independent, strong and resilient. Since being
formally recognized by the United States in 1979, we have developed and
expanded our capacity for self-governance, continued and broadened our
role as a leader in natural resources management in the region, and
preserved our language, ceremonies, and traditional arts for future
generations.
    The Klamath Basin is a large and magnificent place. Although early
non-native settlers undoubtedly thought that its natural resources were
boundless and impossible to exhaust, we know today that they are not.
For decades Klamath fisheries have been in steep decline and water
quality has been steadily getting worse. However, it was not until the
2001 water shut off to Upper Basin irrigators followed by the infamous
fish kill of 2002 that the Klamath received national attention.
    In 2001, just four years after the Endangered Species Act listing
of two species of critical import to tribes, coho salmon and Klamath
suckers, irrigation deliveries to the Bureau of Reclamation's Klamath
Irrigation Project was shut-off in the midst of a drought. The hard
working sons and grandsons of America's war veterans who were granted
homesteads on the Project experienced what the Basin's Tribal
communities had been feeling for over a century--the threat of their
entire cultural identity being lost along with their ability to provide
for their families.
    In stark contrast to the response to the threats to tribal
cultures, the United States acted swiftly to make amends with Klamath
agricultural communities. In 2002, after the science behind the
decision to curtail water deliveries in 2001 was reconsidered,
irrigation deliveries resumed despite persistent drought conditions. In
the fall of 2002, an estimated 68,000 Chinook salmon died in the lower
Klamath River as a consequence of low flows and poor water quality.
    For the next several years, the Klamath Crisis grew steadily worse.
Klamath communities were locked in a bitter culture war with
litigation, competing legislation, protests, and media campaigns
pitting neighbor against neighbor. However, from within the crisis a
group of leaders representing key constituencies emerged with a bold
new approach to resolving what most pundits considered a political
impossibility: cooperation and compromise.
    As the battle over flows between Tribes, irrigators, fishermen,
environmentalists, local governments, and federal agencies grew
increasingly intense, PacifiCorp's Klamath River dams came up for
relicensing by the Federal Energy Regulatory Commission (FERC).
Although the dams play a fundamental role in the degradation of water
quality and fisheries, the main-stem Klamath flow issues were largely
unrelated to these dams. Flows in the Klamath are more a function of
how the Bureau of Reclamation (BOR) manages diversions to the Klamath
Irrigation Project (KIP). Although the dam relicensing was of obvious
import to fishing communities, the relicensing was also important to
irrigators. This had nothing to do with water availability as the lower
four Klamath River dams provide no irrigation diversions. What was at
stake for irrigators was access to affordable power as PacifiCorp's
predecessor, the California-Oregon Power Company, entered into low cost
power contracts with the KIP as a condition for permission to build the
dams over a century ago. As things stood, PacifiCorp had no incentive
to continue to provide this low cost power to area irrigators who were
facing rate hikes of as much as 1200%.
    Although it may seem that dam relicensing has come up at exactly
the wrong time given that political tensions were already high
following the fish kill, in retrospect the relicensing of the dams came
at the perfect moment. It created a forum where virtually all the
Basin's stakeholders met and had the opportunity to think creatively
for ways to solve what many had come to call the rotating Klamath
Crisis. What emerged is a great credit to the commitment,
resourcefulness, and grace of the Klamath's unique rural communities. A
core group of leaders representing main-stem Tribes, the KIP as well as
off-project irrigators, local counties, commercial fishermen and
environmentalists started to ask one another and themselves if a grand
compromise was possible. Could we work together and find a way to
responsibly and fairly share the Klamath's finite water resources such
that everyone's communities could survive both culturally and
economically?
    Soon, negotiations were underway to try and find a way to meet
everyone's needs, or at least enough of everyone's needs to allow all
of the Klamath's diverse rural communities to survive. After several
years and thousands of hours of meetings, in February 2010, the Parties
signed the Klamath Basin Restoration Agreement (KBRA) and Klamath
Hydroelectric Settlement Agreement (KHSA). Together, these Agreements
balance water use between the environment and irrigated agriculture,
modernize KIP irrigation infrastructure, restore fisheries habitat,
ensure affordable power rates for Klamath irrigators, and remove the
lower four Klamath dams.
    The Karuk Tribe has invested an extraordinary amount of time and
resources reviewing the Agreements. In our view, the technical analyses
detailing the environmental benefits of implementation has been
exhaustive and thoroughly reviewed by several tiers of expert panels.
Overwhelmingly, the scientific community has reached a consensus view
that implementation of the Agreements will enable fisheries recovery
and water quality improvements.
    Despite the enormity of this proposal, several key issues remained
unresolved. A large community of irrigators upstream of the KIP were
also facing an uncertain future as a 40 year-old water adjudication
process remained unresolved. In addition, the realities of the new
national financial crisis suggested that the nearly $900 million price
tag associated with implementing the KBRA was now unrealistic. With
these and other issues in need of resolution, Senator Wyden, Senator
Merkley, Governor Kitzhaber, and Representative Walden convened a
Klamath Legislative Task Force. Task Force members represented all
major stakeholders in the Klamath Basin and where charged with
recommending ways to: 1) lower the costs of implementing the Klamath
Agreements, 2) provide affordable power to the KIP and off-project
irrigators, and 3) resolve water disputes with irrigators upstream of
the KIP.
    The efforts of the Task Force were successful. As detailed in the
Klamath Task Force Report, the Task Force recommends focusing the KBRA
budget on programs that need new appropriations for implementation and
rely on existing appropriations to implement other programs where
possible. This approach reduces the federal cost of implementing the
KBRA by 1/3. Secondly, the Task Force recommends using the Federal
Power Program to deliver power to the KIP. However, in order to address
the power needs of off-project irrigators, legislation will be
necessary to allow these land-owners to participate. The goal of the
power program is to achieve a power rate that allows Klamath project
and off-project irrigators to remain economically competitive in the
region. Finally, the Task Force urged the Klamath Tribes and off-
project irrigators to meet as a subgroup to work out a resolution of
the longstanding water rights disputes between them that would be
consistent with the implementation of the KBRA. They succeeded by
developing the Upper Klamath Comprehensive Agreement (UKCA).
    Now we have three interlocking agreements that together provide a
blueprint for restoring the economy and fisheries of the Klamath Basin.
It is important to note that the Parties to the agreements purposefully
and willfully structured the agreements to be interconnected. A
fundamental principle of the settlement negotiations that led to all
three agreements was that all parties receive bargained for benefits
simultaneously. This means that no program or action described by any
agreement can stand on its own without jeopardizing other parties'
participation or fulfillment of specific commitments. We have chosen to
work together to meet one another's needs and we all made often painful
compromises along the way.
    We do acknowledge that support for implementing the Klamath
Agreements is not a complete consensus of Klamath Basin stakeholders.
There are critics from both ends of the Basin and both ends of the
political spectrum. We do assert that the stakeholders with the most at
stake do support these Agreements: Tribes that have harvested and
managed Klamath River fish for time immemorial and irrigators that use
Klamath water to grow their crops. We hope that as we implement these
Agreements and the benefits become apparent, that support for them will
grow even greater.
                               conclusion
    The Klamath Basin is an exceptional place populated by exceptional
people. But in many ways it has a dark past wrought with inequities,
injustice, and bitter disputes over limited resources. In particular,
the Klamath Basin's native people have suffered immense injustices
which have still not been addressed. Although the Klamath Agreements do
not right all the wrongs of the past, the Karuk Tribe believes they
represent a dramatic step in the right direction. The terms of the
three Klamath Agreements chart a course of peace and prosperity for all
of the Klamath's diverse rural communities that can be enjoyed by
future generations from all walks of life. We passionately urge members
of congress to act quickly to pass S. 2379.
                                 ______

       Statement of Andrea Kelly, PacifiCorp, Sr. Vice President
    Thank you for the opportunity to provide this statement to the
Committee and present the views of PacifiCorp on an issue of importance
to our customers and the Klamath Basin. PacifiCorp strongly supports S.
2379, the Klamath Basin Water Recovery and Economic Restoration Act of
2014.
    PacifiCorp applauds the Committee for its interest in seeking
solutions to the complex natural resource issues and conflicts that
have unfortunately been a part of living and doing business in the
Klamath Basin for more than a century. Like other Klamath Basin
stakeholders, PacifiCorp has been embroiled in the resource-related
conflicts and litigation that have marked the Klamath Basin, which is
an important part of the company's service territory.
    PacifiCorp appreciates the continued interest of the Committee in
Klamath issues and the reintroduction of implementing legislation on
May 21, 2014, by Senators Wyden, Merkley, Feinstein and Boxer.
    PacifiCorp is a regulated utility that generates and provides
electricity to 1.8 million customers in portions of six Western states,
including nearly 600,000 in Oregon and Northern California.
    The company also owns and operates the Klamath Hydroelectric
Project (Project) dams on the Klamath River that would be removed under
the Klamath Hydroelectric Settlement Agreement, or KHSA, which the
company signed in 2010 along with more than 40 parties that include
federal agencies, the states of Oregon and California, Tribes,
irrigators, commercial fishing interests and several environmental
groups.
    PacifiCorp is not in the business of removing dams. In fact, the
company owns and operates 1,058 MW of hydropower, including the Klamath
Project, in the states of California, Idaho, Montana, Oregon, Utah,
Washington and Wyoming. PacifiCorp values hydropower as a carbon-free
and highly flexible power source that helps meet electricity demand in
peak hours and integrate variable renewable energy resources.
    Although the Company advanced and defended other means to restore
fish passage to the upper Klamath Basin through a trap and haul
program, the federal agency's mandatory terms and conditions for a new
FERC license would require the installation of fish passage at each
Project facility. These requirements would require significant capital
investment, while other conditions of a new license would mandate
reduced river flows through the powerhouses, impacting the economics of
the Project.
    The company is not a proponent of dam removal as a matter of
policy. PacifiCorp has both relicensed and removed hydro projects in
recent years. The company approaches these business decisions on a
case-by-case basis. In the case of Klamath, the company would not
support a dam removal outcome absent the terms of the settlement
agreement that provide key protections to the Company and its customers
from the unknown costs and risks of such an endeavor.
    As a regulated utility, the company is obligated to evaluate the
costs and risks of available alternatives, and pursue the option that
presents the least cost and risk to our customers. The company's
support for the KHSA is based on the inclusion of terms in the
agreement that ensure removing the dams and replacing the power they
provide will cost less and present less risk for our customers than
relicensing. Those terms include:

  <bullet> A customer cost cap of $200 million that protects customers
        from uncertain and potentially escalating costs related to dam
        removal--to date, approximately $73 million has been collected
        from Oregon and California customers and is held in trust by
        the state utility commissions;
  <bullet> The transfer of the dams and related Project lands to a
        third party for removal;
  <bullet> Liability protection for the Company and its customers
        should dam removal result in unintended consequences or create
        unforeseen problems; and
  <bullet> The ability for our customers to continue to benefit from
        the low-cost power provided by the facilities until their
        planned removal in 2020.

    The inclusion of these terms into the KHSA allowed the Company to
conclude that the KHSA presented a better outcome for customers than
continuing to relicense the Project. In addition, the public utility
commissions in California, Idaho, Oregon, Utah, Washington and Wyoming
agree that the Company's decision to sign the KHSA is in the best
interest of our customers based upon these key terms. It is important
here to note that neither PacifiCorp nor the public utility commissions
have concluded that dam removal by itself is in the best interests of
customers or a better alternative than relicensing. Rather, it is the
KHSA--along with its protections for the Company and its customers--
that represents the better alternative to relicensing.
    Absent the terms of the KHSA or a similar settlement that ensures a
fair deal for our customers, the company would not pursue removal of
the Klamath dams.
    It is the company's hope and intent to be part of a broader
settlement that can address the priorities of other stakeholders and
our neighbors in the Basin, while at the same time protecting the
company and its customers from unacceptable cost and risk.
                                 ______

  Statement of Rob Unruh, President, Klamath Water Users Association,
                           Klamath Falls, OR
    Chairman Schatz, Ranking Member Lee and Members of the Committee:
    Thank you for the opportunity to provide this statement in support
of S. 2379, and thank you for your leadership in holding this hearing
on legislation that is so important to so many people. My name is Rob
Unruh. I am a third generation family farmer from Malin, Oregon and I
hope that my son can continue to farm as the fourth generation. I
currently serve as President of the Klamath Water Users Association
(KWUA).
    KWUA is a non-profit organization whose members are primarily
irrigation districts and similar entities holding contracts with the
U.S. Bureau of Reclamation for the diversion, delivery and use of water
from the Klamath Reclamation Project (Klamath Project). Thus, my
testimony focuses primarily on the circumstances and interests
associated with the Klamath Project. KWUA members operate on more than
170,000 acres sustaining approximately 1,200 farms and ranches in
south-central Oregon and northern California that depend on the Upper
Klamath Lake/ Klamath River system for their water supply.
                           klamath agreements
    KWUA was a member of the Klamath Basin Task Force (Task Force)
created in 2013. Senators Wyden and Merkley, Congressman Walden, and
Governor Kitzhaber convened the Task Force ``to resolve the water,
power and other resource management issues in the Klamath River Basin.
. .'' They asked the group to address three issues:

          1. Develop a proposed resolution of remaining water
        management issues in the upper Klamath Basin.
          2. Address outstanding power issues for the Klamath
        Reclamation Project and the Upper Basin irrigators.
          3. Reduce the Federal costs of achieving long-term
        sustainability in the Klamath Basin.

    The Task Force was an effort designed to build on the significant
work that had already been done by an impressive and disparate group of
interests in the development of two other regional settlement
agreements. The Klamath Basin Restoration Agreement (KBRA) and the
Klamath Hydroelectric Settlement Agreement (KHSA) were signed by 42
parties (including KWUA) in 2010. In addition to work on these
agreements, KWUA member districts have also been actively engaged in
the ongoing Klamath River Basin Adjudication process, and work daily
with federal agencies, tribes and other stakeholders in determining
water supply availability, consistent with the Biological Opinions that
ensure that the operation of the Klamath Project is in compliance with
the federal Endangered Species Act (ESA).
    While meaningful work remains to be done on addressing power issues
for the Klamath Basin irrigators, the Task Force successfully addressed
issues related to lowering the federal costs of the agreements and
resolving some remaining water management issues in the upper Klamath
Basin (off-Project). KWUA congratulates the parties who recently signed
the Upper Klamath Basin Comprehensive Agreement for their hard work and
dedication in addressing both key elements of the water resource puzzle
in the Basin as well as the interests of their communities.
                             ongoing crisis
    The Klamath River watershed covers nearly 16,000 square miles and
it often seems like there are about 16,000 interests with their own
individual opinions about how to solve the difficult problems of the
Klamath Basin. Every person or entity that you hear from regarding this
legislation is likely to agree that the Klamath Basin is in trouble and
most, if not all, of the stakeholders who call the Basin home badly
want to fix the problems. This year's desperate water situation is a
familiar and recurring story and is just the latest installment in a
continual slow-motion disaster that is grinding away at our communities
and ways of life. We are encouraged by this Committee's willingness to
examine the complex water resources problems of the Klamath Basin,
where federal actions and responsibilities influence almost everything
we do. Along with other Basin stakeholders, it is time for the U.S.
Congress to join us as part of the solution.
    And we need a solution urgently. As you prepare for this hearing,
farmers and ranchers on thousands of acres in the Klamath Project face
the possibility having their water cut off mid-season, drying up crops
before they can be harvested. The 2014 irrigation season marks the
third year in row of significant water shortage to Klamath Project
irrigators and the fourth in the last five. The amount of this year's
shortage of water available for the Klamath Project is estimated to be
at nearly 45%. These continual and unpredictable shortages wreak havoc
on maintaining a viable agricultural economy in the entire region.
Beyond the Klamath Project, some ranchers and farmers outside the
Project will be regulated off because of water right priorities,
greatly taxing the sustainability of their operations and causing
tensions between irrigators inside and outside the Klamath Project as
well as with tribal communities who themselves are struggling to
protect fishery resources that have sustained them for generations.
Federal wildlife refuges are enduring yet another too-dry year. Add to
all of this, unprecedented and unsustainable increases in energy costs
for family agricultural operations, and 2014 again looks like a very
bleak year for the Klamath Basin--another year of crisis characterized
by severe stress for our economy, communities, natural resources, and
people.
    We believe that S.2379 offers the best, most durable way to end
this cycle of crisis and decline. Its passage will put in place a
comprehensive solution that is intended to meet the needs of all the
communities in the Basin. It would implement the only proposals that
have been derived from consensus and the only plan that doesn't seek to
advantage one community or point of view at the expense of others. We
ask the committee to fully examine the Klamath Settlement Agreements
and to advance this legislation which capitalizes on the efforts that
so many diverse interests have put into finding a meaningful resolution
to one of the West's most intractable water conflicts.
    For the irrigators on the Klamath Project, continuation of the
status quo is the worst-case scenario for our community and its
economy. A highly uncertain water supply and very expensive electric
power are making it increasingly difficult to operate successfully.
Without a significant change in course, irrigated agriculture simply
won't have a future in the Basin.
    In recent years, the Klamath Project's annual operations have been
characterized by insecurity and uncertainty, with farmers never sure
how much water they will get for the season and whether that supply
will be reduced or cut off completely before crops mature. This makes
planning for the growing season very difficult.
    As they have watched their historical water supplies diminish and
become less secure, Klamath Project irrigators have seen their electric
rates climb sharply. This is because instead of building hydroelectric
generation into the Klamath Project, as is common elsewhere in the
Reclamation system, the federal government chose to enter an
arrangement with a private utility for low or ``at-cost'' power to run
project pumps and other facilities. When that arrangement dissolved a
few years ago, electric rates rose to levels many many times higher
than irrigators had paid in the past. The added costs are disrupting
the economics of farming in the Basin to such an extent that many
current family operations may not be able to survive much longer, and
beneficial water management and efficiencies are likely to be impaired.
    The KBRA changes the status quo to provide a secure and sustainable
future for the agricultural community in the Basin.
    In exchange for giving up part of their water supply for fishery
purposes, project irrigators would gain much greater certainty. The
Agreement holds agricultural water supplies to a predictable range, and
farmers would know on March 1 of each year what their water supply will
be for the season--and they will be able to count on the delivery of
that supply. To help make up for the loss of water dedicated to fishery
purposes, the KBRA requires a detailed On-Project Plan--already
developed by water users--to manage the shortage through conjunctive
use of groundwater, water banking, land fallowing and other mechanisms
whose results can be measured and tracked to ensure that federal
resources are generating the expected benefits for the Basin.
    To address power costs, the KBRA includes the Power for Water
Management Program aimed at ensuring Klamath Project power rates are
``at or below the average cost for similarly situated Reclamation
irrigation and drainage projects.'' The program consists of components
that include short-term funding to stabilize power costs; acquisition
of federal power generated at other Bureau of Reclamation facilities
and development of local power generation opportunities. The results of
the Power Program also will be clear and quantifiable.
    The KBRA's On-Project Plan and Power for Water Management Program
will ensure the continuation of an agricultural sector in the Upper
Klamath Basin that provides an estimated $650 million per year in
economic benefit and secure the future of our communities whose
existence depends upon the balanced operation of the Klamath Project.
    Mr. Chairman, for many years we have ``argued the science'' with
federal agencies and other stakeholders. We tried to have our public
relations efforts outdo theirs. We talked to commercial fishermen,
tribes and conservation groups only from opposite sides of a courtroom,
and we often dueled from different sides of the political aisle through
our elected Representatives at Congressional field hearings and in
Washington. Nothing got better. Our elected officials offered
constructive ideas, but told us that for any solution to work it had to
come from the Basin, and that meant doing things differently. It meant
working with each other, instead of against each other. And that's what
we did. Some interests came and went from the table, others decided to
draw a line in the sand and not negotiate, but most of us hung in there
and did the hard work of finding common ground and a common purpose.
The result is three separate but linked agreements that are
meaningfully bound together in S. 2379.
                      specific comments on s. 2379
    As with any legislation that is implementing complex agreements
between multiple diverse parties, there are portions of the bill that,
considered in isolation, would be of concern to us. Our litmus test,
however, is not based on our personal preference or gains, but rather
on consistency with the foundational negotiated agreements, which
reflect true compromise and diverse communities cooperating to address
each others' needs.
    We appreciate the excellent work of the authors in drafting
legislation consistent with the settlement agreements. We believe there
are only technical issues requiring attention, albeit some that are
important. For example, one issue that we believe is an oversight yet
is of concern related to already agreed upon language is found in
Section 4(a)(2)(A) of the legislation which says:

          ``The fish and wildlife purposes of the Klamath Reclamation
        Project authorized under paragraph (1) shall not adversely
        affect the irrigation purpose of the Klamath Project.''

    However, to be consistent with the underlying agreements, this
should say:

          ``The fish and wildlife and National Wildlife Refuge purposes
        of the Klamath Project authorized under paragraph (1) shall not
        adversely affect the irrigation purpose of the Klamath
        Project.''

    These purposes are distinct and different. This change is necessary
to be consistent with Appendix A of the KBRA. This is an important
issue to Klamath Project irrigators and others and we do not believe
any party to any of the agreements would have concerns with this
proposed change.
    Respectfully, we intend to seek an amendment to reflect this
necessary change.
                               conclusion
    In previous testimony submitted by our Executive Director to the
full Committee on Energy and Natural Resources last year,\1\ we focused
on describing the background and the contentious history of water
resource issues in the Klamath Basin and discussed how Klamath Project
water users and our former adversaries arrived at the Klamath
Settlement Agreements; what water users gave and gained to make the
Agreements work for us; and identified the elements that should be part
of any viable solution advanced by Congress. We would like to
incorporate that testimony by reference here today.
---------------------------------------------------------------------------
    \1\ Testimony of Greg Addington, Executive Director, Klamath Water
Users AssociationBefore the Committee on Energy and Natural Resources,
United States Senate * Hearing on Water Resource Issues in the Klamath
River Basin - Washington, D.C., June 20, 2013
---------------------------------------------------------------------------
    What I want to emphasize to this Committee is that these
agreements, and this implementing legislation, despite what you will
hear from interests on the extremes, offers a positive and productive
path forward that will allow us to begin to repair our fractured
community. Admittedly, my emphasis is on the Klamath Project and we
believe the Klamath Settlement Agreements are far superior to other
alternatives and their attendant uncertainty, risk, costs, and
conflict. Action is needed, the future of our communities is at stake
and multiple crises are already upon us.
    Locally, water managers, full-time farmers and ranchers, local
businesses and other professionals are committed to finding a better
way to do business. It is these people and organizations (along with
our settlement partners) that are the driving force behind the
agreements that have led to this legislation.
    We hope others can begin to see the positive economic, social and
natural resource related benefits this legislation can provide to the
region. KWUA will not stop pushing for real change because we
understand what it means to keep things the same. Time is of the
essence and Congress must have a sense of urgency as it studies the
next steps. The people most affected by these resource issues support
this approach. Others must quickly and constructively engage, or step
aside. We look to the leadership of this Committee to start the process
that is needed to authorize these agreements before there is nothing
left to save.
    Thank you for the opportunity to provide this testimony.
                                 ______

 Statement of the Pacific Coast Federation of Fishermen's Associations
                                (PCFFA)
              why congress must act to restore the klamath
                         By Glen Spain, PCFFA NW Regional Director.

    As the U.S. West Coast's largest trade association of commercial
fishing families, representing a multi-billion west coast commercial
salmon fishery, we strongly support S. 2379, the Klamath Basin Water
Recovery and Economic Restoration Act of 2014. Passing this important
bill means hundreds of new jobs in our industry, thousands of existing
jobs better protected, and an end to major Klamath-driven salmon
fisheries collapses and closures like we experienced in 2006, which
cost our industry some $200 million in total economic losses, and cost
the U.S. Treasury $60.4 million in emergency disaster relief.One of the
most important and most urgent actions that can be done to restore the
battered West Coast ocean commercial salmon fisheries in the ``Lower
48'' is to restore the valuable and once-great salmon runs of the
Klamath River.
  why restoring the klamath matters to the commercial fishing industry
    The Klamath Basin was historically the third-largest salmon
producing river system in the U.S. outside of Alaska, with its large
original salmon populations only surpassed by the Columbia and
Sacramento-San Joaquin Rivers. Before European development, the Klamath
produced an estimated average of 880,000 returning adult salmonids each
year. Today, however, more than 90% of its salmon habitat has been
destroyed or blocked, too little water remains in its rivers and its
salmon runs are often at less than 10% of historic numbers.
    Decades of cyclical water crises in the Upper Klamath Basin have
also had major regional economic impacts, including throughout much of
the West Coast commercial ocean salmon fisheries and in the many
coastal communities our industry supports. The depressed fall-run
Chinook salmon stocks of the Klamath are in the very heart of the West
Coast's ``Lower 48'' ocean salmon commercial fishery, and thus
intermingle in the ocean with all other salmon stocks all the way from
Monterey, CA to central Washington (see APPENDIX 1 attached). In such
intermingling fisheries, it is always the weakest salmon stock which
determines the total harvest--a process called ``weak stock
management.''
    These ``weak stock management'' constraints are not optional--they
are required both by law and by the rules of biology. Without those
constraints many salmon stocks would go extinct.
    In the past, under these ``weak stock management'' principles, most
recently in 2006, our industry has been forced to shut down ocean
commercial fisheries wherever depressed Klamath fall-run Chinook can
potentially migrate. Sometimes, such as in the 2006 collapse, we have
had to shut down fishing over more than 700 miles of coastline (i.e.,
from northern California to southern Washington). In such years these
weakest-stock Klamath fall-Chinook salmon have to be declared out of
bounds and placed in a ``zero-harvest regime'' under weak stock
management principles just to prevent their ultimate extinction. This
means we sometimes have to forego harvesting more than 100 otherwise
harvestable and abundant salmon just to protect each individual
Klamath-origin salmon.
    In spite of a helpful upward spike in escapement numbers in recent
years, these Klamath-origin fall-Chinook stocks that our industry could
harvest for America's tables still remain very weak. Widespread Klamath
basin water over-appropriation is a particularly intractable problem,
and lack of water in-river has led to massive salmon fish kills in the
past, as in 2002.
    Conflicts over water in particular in the Klamath basin have led to
decades of economic turmoil. Most recently, as a result of massive
water over-appropriation problems in the Klamath Basin, there have been
back-to-back water, farming and fisheries crises in 2001, 2002, 2005,
2006, 2007, 2010 and 2013 that resulted in rotating economic disasters
throughout the Klamath basin, punctuated by nearly constant litigation
and political gridlock. These back-to-back crises also required large
amounts in federal emergency disaster aid between the years 2001 and
2010--about $17 million in federal disaster aid per year average during
that decade--and in just one year (2006) as much as $60.4 million.
Similar rotating economic disasters--and consequent need for ever more
federal disaster assistance--would likely recur and worsen in the
future unless the systemic water over-allocation problems in the
Klamath basin are ultimately fixed.
how klamath restoration benefits commercial fishermen and both coastal
                        and farming communities
    The broad-scale Klamath Basin restoration efforts that the Klamath
Settlement Agreement would implement through S. 2379 would have wide-
spread economic benefits for the Klamath basin, including all its
farming and ranching communities and its Tribes, and for many
California, Oregon and Washington coastal salmon fishing-dependent
communities.
    If the Klamath Settlement is implemented, the salmon runs of the
Klamath would nearly double as a result of full implementation of both
the habitat restoration and water reallocation components of the
Klamath Settlement, restoring hundreds of lost fishery-dependent jobs.
Because the Settlement also provides more water certainty for farmers,
many more jobs would also be restored in upper basin farming
communities as well. Estimates under the recently completed NEPA
analysis indicate that full implementation of the Klamath Settlement
Agreements would mean adding at least 4,600 additional jobs to the
basin and region. And most of those jobs in both the farming and
fisheries sectors would be permanent. In these depressed rural
economies this is no small economic benefit.
    Once approved by Congress, the three Klamath Settlement Agreements
would, among other benefits: (1) permanently restore between 130,000
and 230,000 acre-feet of water back to the Klamath River to benefit
salmon, the total amount each year depending on rainfall; (2) help
``drought proof'' both the upper and lower basin and its salmon runs as
much as humanly possible, including implementing the Settlement's first
ever ``Drought Plan'' for the river; (3) restore access for salmon to
more than 420 stream-miles of previously occupied habitat now blocked;
(4) restore large portions of the upper Klamath basin fish and wildlife
habitat in ways that are compatible with existing agriculture; (5)
greatly improve Klamath River water quality, gravel recruitment and
other ecological functions necessary for maximizing salmon production;
(6) greatly diminish the incidence of various fish pathogens and
diseases that are exacerbated by current poor in-river water quality
conditions; (7) provide the Lower Klamath and Tulelake National
Wildlife Refuges a guaranteed annual water supply for the first time
ever, greatly benefiting waterfowl that depend on these Refuges as a
major stopover on the Pacific Flyway; (8) authorize a highly cost-
effective and coordinated 50-year salmon habitat restoration program to
help fully restore the basin's damaged salmon habitat over time; (9)
benefit the upper basin farming community by providing both much
greater water certainty as well as more affordable power for irrigation
pumping to make more efficient use of that water, and; (10) put an end
to nearly 100 years of hotly contentious water disputes in what has
long been one of the most bitter water conflicts in the arid West.
    A thorough scientific and economic NEPA analysis has already been
done on the likely impacts of the Klamath Settlement, and those results
are very encouraging. None of the various ``scare stories'' about toxic
sediments, negative impacts on flood control or irrigation impacts have
been shown to have any merit. More than 50 detailed technical and peer-
reviewed scientific and engineering studies were completed for this
NEPA analysis, and the analysis itself was subjected to highly unusual
triple levels of independent scientific peer review, assuring that all
potential biases or errors have been eliminated. No complaints of any
alleged scientific bias have ever been upheld, nor found to have any
merit.
the klamath settlement gives hope for economic stability and an end to
                         100 years of conflict
    On February 18, 2010, after nearly 100 years of increasingly bitter
Klamath Basin ``water wars,'' including many lawsuits, and after
several disastrous Klamath-driven 2005, 2006 and 2007 partial or
complete shutdowns of ocean commercial salmon fisheries over more than
700 miles of coastline, some 43 major stakeholder groups and agencies
came together to announce that they had finally reached a two-part
``Klamath Settlement'' that gave real hope for stabilizing and
restoring that key West Coast salmon-producing basin--and ultimately
restoring thousands of lost fishing industry (as well as farming) jobs
that were all at risk because of widespread water over-allocation and
conflict.
    Most recently, a third major component of the Klamath Settlement
Agreement, called the ``Upper Klamath Basin Comprehensive Agreement''
joined the two prior agreements to help resolve otherwise intractable
water conflicts in the upper Klamath basin. This third agreement was
signed on March 5, 2014. It is fundamentally a water-sharing agreement
among various upper basin stakeholders intended to help them all
survive the current and future droughts in this drought-prone basin.
This will also help bring economic stability to the upper basin.
    The Klamath Settlement is a bi-partisan, bottom-up, stakeholder-
driven and both biological and economic restoration plan. It is also
precisely the sort of long-term, locally-based restoration plan we were
told by previous Congress's was needed. The settlement process was
mostly conducted under a Republican Administration (i.e., under
President Bush) and has been supported by Republican and Democratic
Administration officials and Governors from all political persuasions.
    These three key components of the overall Klamath Settlement
Agreement should now be approved and moved forward by the passage of S.
2379 into law.
    For the West Coast salmon-dependent communities of California,
Oregon and southern Washington, continued Congressional inaction on
solving the Klamath's salmon decline problems is simply not acceptable.
    Failure to pass the necessary legislation (S. 2379) to fully
implement these landmark Klamath Settlement Agreements puts the entire
mixed-stock ocean commercial salmon fisheries of northern California,
Oregon and southern Washington--a fishery worth several hundred million
dollars a year--at continued risk of future Klamath-driven coastwide
closures.
    Without the Klamath Settlement, and particularly without its water-
sharing plan for dealing with current and future droughts, both the
upper and lower Klamath basin would once again be plunged into economic
chaos and litigation over conflicting water rights and needs, many
upper basin farmers and ranchers would have their irrigation water once
again dramatically cut off, and hundreds of them would ultimately lose
their farms, ranches--and livelihoods.
    The economic ``cost of doing nothing'' in the Klamath basin is thus
very high--almost certainly much higher than the costs of actually
fixing these pervasive problems. The modest federal investment required
in actually resolving these problems would return huge economic
dividends in terms of much greater economic stability and thousands of
new jobs for the entire region.
    This once-in-a-lifetime economic restoration opportunity should not
now be sabotaged by Congressional inaction. The Klamath Basin will
almost certainly return to the chaos and conflicts of the past if these
conflicts are not ultimately--and soon--resolved through this
comprehensive Settlement. There is no other viable alternative even
remotely on the table.
    For more information on the Klamath Settlement see:

  <bullet> Klamath Settlement NEPA Economic, Engineering, Scientific
        Studies and Impacts Analysis are at:
        www.klamathrestoration.gov. For the Executive Summary of the
        Final NEPA analysis see: http://klamathrestoration.gov/sites/
        klamathrestoration.gov/files/Additonal%20Files%20/1/
        Executive%20Summary.pdf
  <bullet> For general information on the Klamath Settlement and its
        benefits: www.klamathrestoration.org
  <bullet> For details about the Klamath Settlement and its many
        benefits to west coast commercial and recreational salmon
        fisheries, see: ``The Klamath Settlement: Hope for West Coast
        Salmon Fishermen,'' (July, 2010 FN at: www.pcffa.org/fn-
        jul10.htm). For how the Klamath is key to managing all West
        Coast ocean salmon fisheries in the Lower 48, see ``Why the
        Klamath Matters to Fishermen'' (August, 2001 FN at:
        www.pcffa.org/fn-aug01.htm).




</pre></body></html>
